<html>
<title> - TOXIC TRAILERS: HAVE THE CENTERS FOR DISEASE CONTROL FAILED TO PROTECT PUBLIC HEALTH?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    TOXIC TRAILERS: HAVE THE CENTERS
                     FOR DISEASE CONTROL FAILED TO
                         PROTECT PUBLIC HEALTH?

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2008

                               __________

                           Serial No. 110-88

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

40-941 PDF                 WASHINGTON DC:  20087
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              PAUL C. BROUN, Georgia
BART GORDON, Tennessee                 
                                     RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
                    BART FORSYTH Republican Counsel
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             April 1, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Bart Gordon, Chairman, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    17

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    11

Statement by Representative F. James Sensenbrenner Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Prepared Statement by Representative Nick Lampson, Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    18

                                Panel I:

Dr. Heidi Sinclair, Medical Director, Baton Rouge Children's 
  Health Project; Assistant Professor, Department of Pediatrics, 
  Louisiana State University Health Sciences Center
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    25

Mrs. Lindsay Huckabee, Resident of FEMA-provided mobile home in 
  Kiln, Mississippi, from October, 2005 to March, 2008
    Oral Statement...............................................    28
    Written Statement............................................    29

Ms. Becky Gillette, Formaldehyde Campaign Director, Sierra Club 
  Gulf Coast Environmental Restoration Task Force
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    38

Discussion
  ATSDR Response to Sierra Club Tests............................    38
  Health Effects From Formaldehyde...............................    39
  Tracking Trailer Residents' Long-term Health...................    40
  Failings of ATSDR..............................................    40
  Dr. Sinclair's Experience in Her Trailer.......................    46
  Obstacles to Safe Housing......................................    47
  More on Tracking Residents.....................................    48
  Trivializing Health Concerns...................................    48
  Health Care Costs..............................................    49
  Formaldehyde's Effects on Reproductive Health..................    50
  Population Size................................................    50

                               Panel II:

Dr. Meryl H. Karol, Professor Emerita, University of Pittsburgh
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Christopher T. De Rosa, Assistant Director for Toxicology and 
  Risk Assessment, National Center for Environmental Health/
  Agency for Toxic Substances and Disease Registry, Centers for 
  Disease Control and Prevention, U.S. Department of Health and 
  Human Services
    Oral Statement...............................................    56
    Written Statement............................................    58
    Biography....................................................    63

Discussion
  Safe Formaldehyde Exposure Levels..............................    66
  ATSDR Review Process...........................................    67
  Dr. De Rosa's Performance Reviews..............................    68
  Consequences of Inaction: Health Effects of Additional Exposure    68
  Protecting the Public..........................................    69
  More on Long-term Health Tracking..............................    69
  Dr. De Rosa Excluded From Past Reviews?........................    70
  ATSDR Emergency Health Evaluations.............................    70
  More on Reproductive Health....................................    71
  Deficiencies in the February 2007 Health Consultation..........    72

                               Panel III:

Dr. Howard Frumkin, Director, and Dr. Thomas Sinks, Deputy 
  Director, Agency for Toxic Substances and Disease Registry, and 
  National Center for Environmental Health, Centers for Disease 
  Control and Prevention, U.S. Department of Health and Human 
  Services
    Oral Statement...............................................    73
    Written Statement............................................    75
    Biography....................................................    83

Vice Admiral Harvey E. Johnson, Jr. (Ret.), Acting Deputy 
  Administrator and Chief Operating Officer, Federal Emergency 
  Management Agency, Department of Homeland Security
    Oral Statement...............................................    83
    Written Statement............................................    85
    Biography....................................................    91

Discussion
  Warning FEMA Employees About Formaldehyde......................    92
  February 2007 Health Assessment................................    93
  Dr. De Rosa's Concerns Over the Health Consultation............    97
  2005 Formaldehyde Testing......................................    98
  FEMA's Emergency Housing.......................................    98
  Acute Formaldehyde Exposure Levels.............................    98
  Tracking Former Trailer Occupants..............................    99
  Trailer Costs, Inventory, and Sales............................    99
  FEMA Outreach on Formaldehyde Health Effects...................   100
  Drs. Frumkin and Sinks Health Consultation Review..............   100
  FEMA's Office of General Council's Involvement With the Health 
    Consultation.................................................   103
  Trailers at Maxwell Air Force Base.............................   104
  Emergency Housing Alternatives.................................   104
  How Will ATSDR Prevent Future Problems?........................   105
  More on Dr. De Rosa's Performance..............................   106
  Review of the Events Surrounding the Health Consultation.......   108
  More on Obstacles to Safe Housing..............................   109
  Health Care Costs..............................................   111
  CDC Actions: May-July, 2007....................................   111
  Were Discussions Being Made By FEMA's Lawyers?.................   112

              Appendix: Additional Material for the Record

#1. ATSDR Health Consultations. 2/1/07-1/29/07...................   116

#2. Interim Findings on Formaldehyde Levels in FEMA-supplied 
  Travel Trailers, Park Models, and Mobile Homes (CDC). 2/29/08..   190

#3. Handwritten notes by Joseph D. Little, one of two authors on 
  the February 2007 ATSDR Health Consultation--Formaldehyde 
  Sampling of FEMA Temporary-Housing Trailers. 6/28/06-8/30/07...   211

#4. ATSDR Chronology. 2008.......................................   234

#5. OSHA fact sheet on ``Occupational Exposure to Formaldehyde.'' 
  1/1/95.........................................................   241

#6. E-mail from Bryan McCrear, Contracting Officer, FEMA to Guy 
  Morgan, Morgan USA. Re: FEMA orders 10,000 handicapped travel 
  trailers from Morgan USA. 9/2/95...............................   243

#7. News article: ``Couple Discovers High Levels of Formaldehyde 
  in FEMA Trailer,'' WLOX-TV, Biloxi, MS. 3/17/06................   244

#8. E-mail from Adrian Server to Mary Martinet, David Trissell, 
  Edward Broyles, Jordan Fried, Cc: Martin Matzen. Re: Server to 
  FEMA attorneys involved, ``Whatever testing we do, we better do 
  it very quietly.'' 3/18/06.....................................   246

#9. E-mail from Bronson Brown to FEMA staff. Re: FEMA staff 
  should not enter new trailers until they are ``off-gassed.'' 3/
  22/06..........................................................   247

#10. E-mail from Stewart (ESF-8 1603 AFO NOLA) to Stephen De 
  Blasio (FEMA), Barbara Russell (Fluor), Guy Bonomo (FEMA), and 
  Larry Woodruff. Re: Warning on trailers: Health concerns. FEMA 
  says to tell residents to air out trailers and keep temperature 
  and humidity low. 4/5/06.......................................   248

#11. Evaluation of Formaldehyde Concentration in the Carlton and 
  Dawn Sistrunk FEMA Trailer by Bonner Analytical Testing 
  Company. Sistrunk trailer results from 0.9-2.4 ppm. 4/6/06.....   253

#12. E-mail from Frank Alamia, Office of General Counsel, the 
  Department of Homeland Security, to Adrian Server. Re: Use 
  NIOSH, not OSHA standard, for testing. 5/17/06.................   256

#13. E-mail chain with FEMA staff. Re: FEMA headquarters decides 
  to only air out trailers residents are complaining about. 5/30/
  06.............................................................   258

#14. MEMO from Dr. William Ringo, FEMA Occupational Safety and 
  Health Officer, stating that occupational exposure levels are 
  too high as a reference. 6/2/06................................   260

#15. E-mail chain with FEMA field staff. Re: FEMA's field staff 
  was told if a TT has been cleared, FEMA is under ``no further 
  obligation'' to put complainant in a hotel. 6/13/06............   262

#16. E-mail chain with FEMA field staff. Re: FEMA continues to 
  deny health claims from residents and resident manager for 
  hotel programs says applicants have reported serious medical 
  problems from formaldehyde, but has been told to deny hotel 
  stays. 6/14/06.................................................   264

#17. E-mail from Peggy Phillips, FEMA Logistical Management 
  Specialist. Re: ``OGC has advised that we do not do testing, 
  which would imply FEMA's ownership of this issue.'' 6/16/06....   266

#18. E-mail chain with message from Martin McNeese, FEMA Region 
  VIII Emergency Management Program Specialist, to Patrick 
  Preston, cc to David Chawaga and Kevin Souza. Re: McNeese, ``I 
  think the [ATSDR] report gave us what we were looking for.'' 2/
  12/07..........................................................   268

#19. E-mail from Patrick Preston to Margaret Ramos. Re: Preston 
  tells another FEMA lawyer that FEMA ``has not identified any 
  independent evidence of dangerous formaldehyde conditions in 
  trailers.'' 2/27/07............................................   270

#20. Letter to Patrick Preston from Mark Keim stating that the 
  ATSDR Health Consultation has been ``completed without a policy 
  review by our senior technical staff. I am concerned that this 
  health consultation is incomplete and perhaps misleading.'' 
  Notes there is no ``safe'' level of exposure. 3/17/07..........   274

#21. E-mail from MHOPS Maintenance Coordinator to MHOPS Field 
  Staff. Re: FEMA tells Mississippi housing office that ATSDR 
  results indicate that formaldehyde levels in travel trailers 
  would not cause ``physical discomfort to most people.'' FEMA is 
  using ATSDR ``level of concern'' as a guide to our housing 
  program. 3/22/07...............................................   276

#22. E-mail from Martin McNeese to Stephen Miller. Re: In 
  response to concerns from GSA, FEMA says travel trailers are 
  not being sold for housing but as recreational vehicles. 4/08/
  07.............................................................   278

#23. E-mail from David Chawaga to FEMA staff. Re: FEMA asks who 
  determined 0.3 ppm was the ``level of health concern for 
  sensitive individuals'' as there is not website providing that 
  number. Refers to several sites listing 0.1 ppm or less as the 
  level. 5/1/07..................................................   282

#24. McNeese response to 5/1/07 e-mail from David Chawaga. Re: 
  ``The .3 ppm reference is also out of the ATSDR report.'' 5/1/
  07.............................................................   284

#25. E-mail chain with message from Jeff Runge (FEMA) to Jerry 
  Thomas (CDC). Re: After CBS report, Runge says ATSDR did study 
  that showed ``conclusively'' that ventilating a new trailer 
  obviated problems with formaldehyde. 5/17/07...................   288

#26. E-mail chain with message from Harvey Johnson to Jeff Runge. 
  Re: Johnson tells Dr. Runge he wants a ``fresh look.'' 5/17/07.   293

#27. E-mail chain with message from Merritt Lake to William Lang. 
  Re: Merritt Lake, DHS's expert on formaldehyde, tells Dr. Lang 
  that 0.3 ppm is the exposure level for adults, but children are 
  more sensitive. 5/17/07........................................   295

#28. E-mail chain with message from Price Roe to FEMA staff. Re: 
  DHS deputy secretary tells Runge to take the lead on medical 
  issues. Runge reviews various standards; says none are 
  ``germaine to 24-hr x 7 days/week exposure in a mobile home or 
  trailer that child or stay-home parent may experience.'' 5/18/
  07.............................................................   298

#29. E-mail from Stephen Orsino to Jordan Fried. Orsino, FEMA 
  attorney, notes that ACGIH level of 0.3 ppm used by ATSDR has a 
  caveat attached that it should not be applied to non-
  occupational applications. 5/23/07.............................   306

#30. Formaldehyde Event DHS/OHA SITREP Draft #002. Re: FEMA draft 
  statement: ATSDR said 0.3 ppm was level of concern, but 
  Mississippi doctor is seeing upper respiratory illnesses in 
  children living in trailers; need to re-look at the issue. 5/
  25/07..........................................................   308

#31. E-mail chain with message from Mike McGeehin to William 
  Lang, Paul Garbe, Gary Noonan. Re: McGeehin doubts that any 
  study would allow CDC to ``define a level below which adverse 
  effects do not occur.'' 5/29/07................................   321

#32. E-mail chain with message from Lang to Garratt. Re: CDC 
  ought to be able to say that 0.1 ppm is a reasonable short-term 
  mitigation goal. 5/29/07.......................................   323

#33. E-mail from Jill Igert, Senior Counsel, Office of Chief 
  Counsel, Louisiana Transitional Recovery Office. Re: FEMA 
  conference call on formaldehyde. Decision made with CDC last 
  year to ventilate isn't sufficient. ``It doesn't work in 
  Louisiana or Mississippi during the summer time.'' 5/31/07.....   326

#34. E-mail chain with message from Vice Adm. Johnson. Re: 
  Johnson says ``slow to roll any sales and/or provisions as 
  opposed to a notice to suspend'' in response to question about 
  whether FEMA should immediately suspend provision of travel 
  trailers for disasters and sale to occupants. 6/1/07...........   330

#35. News article: ``Formaldehyde High In Trailers.'' Jackson 
  Clarion Ledger. 6/4/07.........................................   332

#36. E-mail from Lang to Kevin Souza. Re: Current question is 
  whether these trailers, under real-life conditions, provide 
  safe and healthful environment. 6/4/07.........................   334

#37. E-mail from Lang to Garratt. Re: Who put out Gerberding 
  letter without consulting FEMA? FEMA wants ``rapid answers.'' 
  6/5/07.........................................................   336

#38. Information Paper: Formaldehyde in FEMA Provided Temporary-
  use Travel Trailers. 7/16/07...................................   338

#39. E-mail chain with FEMA staff. Re: GSA makes DHS aware of 
  health complaint about trailer surplused to military. 7/17/07..   345

#40. FEMA Disaster Assistance Directorate. Discussions, Issues 
  and Questions Paper: Formaldehyde Testing. Re: DHS OHA has 
  recommended 0.1 ppm as ``interim formaldehyde baseline safety 
  level.'' FEMA/CDC site visit to LA. 7/22/07....................   348

#41. E-mail chain. Re: No study protocol and sampling plan for 
  new testing. Lang reports on field trip to Louisiana. Cites 
  ``major problem'' with HVAC systems in the trailers. ``There is 
  not ventilation in the units. . . In addition, most of the 
  units have gas stoves. . . Gas cooking is a potent source of 
  formaldehyde.'' 7/24/07........................................   354

#42. CDC Health Advisory on formaldehyde: admits that people can 
  manifest symptoms at very low levels. ``Symptoms should lessen 
  if the affected individual is removed from the area of 
  exposure.'' 7/26/07............................................   360

#43. E-mail chain with message from Gil Jamieson to FEMA staff. 
  Re: Moratorium on sales is in place because TT are not built to 
  HUD standards. 8/18/07.........................................   363

#44. E-mail from Michael Lapinski to Vice Admiral Johnson. Re: 
  FEMA refers to ``long delay'' in getting signature from CDC on 
  IAA. 9/23/07...................................................   366

#45. E-mail from Lapinski to Vice Admiral Johnson. Re: Johnson is 
  told numbers ``out there'' are 0.1 ppm, which is the NASA, 
  ASHRAE and California Air Resources Board standard. 0.1 ppm 
  ``likely to become the defacto standard.'' Johnson wants to 
  approve sampling plan. 10/22/07................................   369

#46. E-mail from Heather Smith to FEMA staff. Re: Johnson does 
  not want testing until there is an action plan. 10/31/07.......   372

#47. E-mail from Lang to Lapinski and Garratt. Re: New health 
  consultation recommends level unachievable in almost any 
  residential situation. Wants to scrap the Phase I study; move 
  to Phase III; get people out of trailers. Only other 
  alternative is to accept higher levels for disaster relief. 11/
  2/07...........................................................   373

#48. E-mail from Jeff Runge to Johnson, Paulison, David, 
  Schneider. Re: ``I'd be ok with `higher levels (over 0.1)' or 
  `relatively higher levels (0.1).' '' 11/15/07..................   375

#49. Statement of Administrator Paulison. Re: Background document 
  for FEMA Administrator Paulison's announcement of new testing 
  states that testing was delayed because no agency was willing 
  to ``establish guidance for residential indoor levels of 
  formaldehyde.'' 12/07..........................................   376

#50. E-mail from Sam Coleman to Donald Benken with Tom Sinks 
  CC'd. RE: FEMA wants the CDC to help with trailer testing. 7/5/
  06.............................................................   379

#51. Letter from Patrick Preston to Scott Wright. RE: Test 
  results and data from the FEMA trailer Formaldehyde testing 
  conducted by EPA. 11/30/06.....................................   380

#52. E-mail from Sam Coleman to Joseph Little and Scott Wright 
  with Howard Frumkin CC'd. RE: EPA Concerns that FEMA may not be 
  properly interpreting the data from EPA testing. 12/1/06.......   381

#53. E-mail from Howard Frumkin to Joseph Little, Scott Wright, 
  Sven Rodenbeck, and Phillip Allred with Tom Sinks CC'd. RE: 
  Howard Frumkin asking for details on the ATSDR analysis of 
  Formaldehyde in FEMA trailers. 12/4/06.........................   384

#54. E-mail from Joseph Little to Howard Frumkin with Tom Sinks, 
  Scott Wright, and Chris De Rosa CC'd. RE: Summary of ATSDR 
  involvement in the analysis of Formaldehyde in FEMA trailers 
  and of conference calls with FEMA OGC and EPA. 12/4/06.........   385

#55. E-mail from Howard Frumkin to Chris De Rosa with Tom Sinks 
  CC'd. RE: Howard Frumkin asking Chris De Rosa to keep him up-
  to-date on potentially controversial activities such as the 
  ATSDR analysis of Formaldehyde in trailers. 12/5/06............   387

#56. E-mail from Scott Wright to Richard Nickle and Gregory Zarus 
  with John Florence and Joseph Little CC'd. RE: Joe and Scott 
  instructed not to discuss or release any data outside of 
  themselves and FEMA's Office of Chief Counsel 12/7/06..........   388

#57. E-mail from Richard Nickle to James Holler with Gregory 
  Zarus CC'd. RE: FEMA Trailers issue could warrant inquiry from 
  outside the division. 12/26/06.................................   389

#58. E-mail from Mark Keim to Phillip Allred. RE: Formaldehyde 
  health consultation to be presented to Howard Frumkin January 
  8th, 2007. 1/6/07..............................................   391

#59. E-mail from Phillip Allred to Joseph Little and Scott 
  Wright. RE: Formaldehyde health consultation to be presented to 
  Howard Frumkin January 8th, 2007. 1/8/07.......................   392

#60. E-mail from Phillip Allred to Joseph Little and Scott 
  Wright. RE: Howard Frumkin's reaction to the Formaldehyde 
  health consult. 1/8/07.........................................   393

#61. Formaldehyde Sampling at FEMA Temporary Housing Units. Baton 
  Rouge, Louisiana: Executive Summary. 1/16/07...................   394

#62. E-mail from Phillip Allred to Louise Williams. RE: Setting 
  up a meeting to brief Tom on the Formaldehyde Consultation. 1/
  18/07..........................................................   395

#63. E-mail from Louise Williams to Phillip Allred. RE: Time set 
  up to brief Tom on the Formaldehyde Consultation. 1/19/07......   396

#64. Letter from Mark Keim to Patrick Preston with Michael 
  Allred, Joseph Little, and Scott Wright CC'd. RE: Delivery of 
  ATSDR Health Consultation to FEMA. 2/1/07......................   397

#65. E-mail from Phillip Allred to Phillip Allred. RE: Phillip 
  spoke to Patrick Preston about the temporary housing issues. 2/
  15/07..........................................................   399

#66. E-mail from Richard Nickle to (only key people listed) Chris 
  De Rosa, Howard Frumkin, Joseph Little, Tom Sinks, and Scott 
  Wright. RE: Health Consultation finalized and sent to FEMA--
  Summary of findings are detailed in this e-mail. 2/2/07........   400

#67. E-mail from Mark Keim and Phillip Allred. RE: Formaldehyde 
  update to be presented at the Issues Management Meeting to Tom 
  Sinks and Howard Frumkin. 3/2/07...............................   402

#68. E-mail from Chris De Rosa to Howard Frumkin and Tom Sinks. 
  RE: Concerns regarding the Formaldehyde health consultation 
  done for FEMA (Letter to Patrick Preston detailing concerns is 
  attached). 3/8/07..............................................   403

#69. E-mail from Chris De Rosa to Mark Keim and James Holler. RE: 
  Concerns regarding the Formaldehyde health consultation done 
  for FEMA (Letter to Patrick Preston detailing concerns is 
  attached). 3/9/07..............................................   405

#70. E-mail from Howard Frumkin to Mark Keim with Chris De Rosa 
  and Tom Sinks CC'd. RE: Howard Frumkin acknowledges that the 
  report should be corrected to include both acute and chronic 
  toxicity. 3/9/07...............................................   408

#71. E-mail from Mark Keim to Howard Frumkin with Chris De Rosa 
  and Tom Sinks CC'd. RE: Mark Keim acknowledges that he will 
  make changes to the health consult. 3/9/07.....................   409

#72. E-mail from Chris De Rosa to Howard Frumkin and Tom Sinks. 
  RE: History of FEMA not including cancer risks and asking ATSDR 
  to not include long-term health effects of Formaldehyde and on 
  amending the original Formaldehyde health assessment. 3/9/07...   410

#73. E-mail from Chris De Rosa to Howard Frumkin and Tom Sinks. 
  RE: Concerns regarding the Formaldehyde health consultation 
  done for FEMA (letter to Patrick Preston detailing concerns is 
  attached). 2/27/07.............................................   412

#74. Letter from Mark Keim to Patrick Preston with Chris De Rosa 
  and Howard Frumkin CC'd. RE: Concerns that the Formaldehyde 
  Health Consultation didn't address long-term health effects 
  including cancer. 3/17/07......................................   414

#75. E-mail from Becky Gillette to James Durant. 2/27/07.........   416

#76. E-mail from Susan Metcalf to James Holler and Mary Jean 
  Brown with James Durant CC'd. RE: Determining CDC's Response to 
  the Sierra Club. 3/5/07........................................   417

#77. E-mail from Becky Gillette to James Durant. RE: Second 
  request for an ATSDR contact to investigate Formaldehyde in 
  FEMA trailers. 5/7/07..........................................   418

#78. E-mail from Sascha Fielding to Chris De Rosa. RE: Requesting 
  Chris to look over the responses to Congress regarding FEMA 
  trailers. 3/23/07..............................................   419

#79. E-mail from Chris De Rosa to Sascha Fielding. RE: Concerns 
  from the response to Congress regarding FEMA trailers. 3/27/07.   420

#80. E-mail from Angela Davis to Barbara Rogers and Sascha 
  Fielding. RE: Non-disclosure request by FEMA Office of General 
  Counsel of ATSDR Formaldehyde data discussed in Issue 
  Management Meeting (typically for Dr. Frumkin and Dr. Sinks). 
  3/21/07........................................................   421

#81. E-mail from Howard Frumkin to CDC All--NCHE/ATSDR. RE: 
  Newsletter--Important point was CDC's response to Congressman 
  Gene Taylor detailing that the CDC would not provide a health 
  assessment of Formaldehyde exposure in FEMA trailers. 4/6/07...   422

#82. E-mail from Joseph Little to Dagny Olivares, Richard Nickle, 
  Larry Cseh, and Phillip Allred with Mark Keim CC'd. RE: Joseph 
  Little concurs with the content of a FEMA news release which 
  does not include any long-term health effects (i.e., cancer). 
  5/3/07.........................................................   424

#83. E-mail from Dagny Olivares to Mark Keim and Phillip Allred. 
  RE: CDC not undertaking a health assessment as no one has 
  requested them to do so with regards to media requests on the 
  CDC's response to people living in trailers. 5/17/07...........   432

#84. E-mail from Stanley Meiburg to Sascha Fielding, Jane Telfer, 
  and Kenneth Rose. RE: Continued Formaldehyde discussions in 
  Issues Management Meetings with regards to CBS News report. 5/
  21/07..........................................................   433

#85. E-mail from Jane Telfer to William Cibulas, Stanley Meiburg, 
  Sascha Fielding, and Kenneth Rose with Howard Frumkin CC'd. RE: 
  Details on FEMA releasing the February Health Consultation 
  without long-term health risks. 5/21/07........................   434

#86. Letter from Congressman Gene Taylor to Julie Gerberding. RE: 
  Asking CDC to Investigate the Formaldehyde in trailers. 2/22/07   436

#87. Letter from Julie Gerberding to Congressman Gene Taylor. RE: 
  Information on Formaldehyde and CDC recommends ventilation of 
  the units. 5/30/07.............................................   437

#88. E-mail from Howard Frumkin to Chris De Rosa and Tom Sinks. 
  RE: Forwarding news article about Formaldehyde and Kids. 5/30/
  07.............................................................   443

#89. E-mail from Chris De Rosa to Howard Frumkin and Tom Sinks. 
  RE: CDC should be cautious about the word ``safe'' in reference 
  to formaldehyde since it is a carcinogen. 6/1/07...............   445

#90. E-mail from Scott Wright to Sascha Fielding with Joseph 
  Little CC'd. RE: Basis of the 0.3 ppm level of concern used by 
  ATSDR. 7/20/07.................................................   447

#91. E-mail from Howard Frumkin to Sascha Fielding, Mike 
  McGeehin, William Cibulas, and Henry Falk. RE: 0.3 ppm level of 
  concern has little or no operational meaning. 7/20/07..........   448

#92. E-mail from Henry Falk to Howard Frumkin, Scott Wright, and 
  others. RE: FEMA talking points on the ATSDR report and 
  discussion of the 0.3 level of concern. 7/20/07................   449

#93. E-mail from Howard Frumkin to Henry Falk, Scott Wright, and 
  others. RE: Discussion of FEMA Talking Points. 7/20/07.........   450

#94. E-mail from Howard Frumkin to Scott Wright, Joseph Little, 
  Henry Falk, and others. RE: Formaldehyde Exposure Levels. 7/21/
  07.............................................................   451

#95. E-mail from Scott Wright to Richard Nickle. RE: Scott helped 
  draft Director Paulison with his Congressional testimony and 
  helped with the new FEMA fact sheet. 7/24/07...................   453

#96. E-mail from William Cibulas to Howard Frumkin, Scott Wright, 
  Henry Falk, Joseph Little, and others. RE: Mentions concern 
  that they don't mention cancer with regards to Formaldehyde 
  Exposure Levels. 7/24/07.......................................   454

#97. E-mail from Dagny Olivares to Howard Frumkin. RE: HAN 
  Feedback from the Emergency Communications System. NOTE: Still 
  no mention of cancer concerns in the attached document. 7/25/07   456

#98. E-mail from Chris De Rosa to Mike McGeehin, Henry Falk, 
  Howard Frumkin, and Tom Sinks. RE: Discussions regarding 
  ATSDR's approaches to the health consultations. 7/25/07........   459

#99. E-mail from Chris De Rosa to Richard Weston. RE: No mention 
  of long-term health effects and developmental toxicity in the 
  Health Advisory. 7/26/07.......................................   463

#100. E-mail from Mike McGeehin to Howard Frumkin and others. RE: 
  Discussion on language in the report prepared by ATSDR for the 
  CDC website. 7/28/07...........................................   465

#101. E-mail from Dagny Olivares to Howard Frumkin and others. 
  RE: Posting the report prepared by ATSDR for the CDC website. 
  7/30/07........................................................   466

#102. E-mail from Sascha Fielding to Howard Frumkin and others. 
  RE: Meeting to identify and review health issues related to 
  living in the trailers. 7/30/07................................   468

#103. E-mail from Anne Sowell to Mark Bashor with Tom Sinks CC'd. 
  RE: Concerns regarding the ATSDR Formaldehyde consult. 8/8/07..   470

#104. E-mail from Howard Frumkin to Henry Falk, Tom Sinks, and 
  Mike McGeehin. RE: Reduced pressure on CDC if FEMA is moving 
  people out of the trailers. 8/9/07.............................   472

#105. E-mail from Julie Gerberding to Henry Falk, Howard Frumkin, 
  William Gimson, and Tom Sinks. RE: Speeding up the timeline for 
  the study to relieve pressure. 8/10/07.........................   474

#106. E-mail from Chris De Rosa to Mike Groutt with Scott Wright 
  and Joseph Little CC'd. RE: Comments on Chronology of FEMA 
  Trailers to include details on senior policy and technical 
  reviews. 8/10/07...............................................   476

#107. E-mail from Tom Sinks to Howard Frumkin, Henry Falk, and 
  Louise Galaska. RE: Tom Sinks states that ATSDR leadership was 
  unaware that this consult was done through the Council's 
  office. 9/11/07................................................   478

#108. E-mail from Alan Crawford to Tom Sinks. RE: Initial meeting 
  between ATSDR, EPA, and FEMA and a request to Dr. Frumkin 
  regarding Formaldehyde testing in June 2006. 9/13/07...........   479

#109. Letter to Howard Frumkin from Chris De Rosa. RE: Concerns 
  regarding several critical public health issues and objections 
  to limitation on Chris's ability to perform the duties 
  contained in his position description. 9/21/07.................   480

#110. E-mail from Chris De Rosa to Tom Sinks, Howard Frumkin, 
  Kenneth Rose, Jana Telfer, and Mark Basher with Henry Falk and 
  Mark Kashdan CC'd. RE: Health alert regarding formaldehyde 
  levels. 10/6/07................................................   487

#111. E-mail from Tom Sinks to Chris De Rosa, Howard Frumkin, 
  Kenneth Rose, Jana Telfer, and Mark Basher with Henry Falk and 
  Mark Kashdan CC'd. RE: Health alert regarding formaldehyde 
  levels. 10/7/07................................................   488

#112. E-mail from Tom Sinks to Henry Falk, Tom Sinks, and others. 
  RE: ATSDR leadership was unaware that their staff was working 
  directly with FEMA lawyers. 10/12/07...........................   489

#113. Flyer: Formaldehyde Levels in FEMA-Supplied Trailers--Early 
  Findings from the Centers for Disease Control and Prevention...   492

#114. Memo from NCEH/ATSDR--Howard Frumkin to Chris De Rosa. RE: 
  2007 Performance Assessment and Detail. 10/25/07...............   493

#115. Letter from Edward Murray. RE: Management Notification of 
  Highly Sensitive Issues--Failure to notify OGC/CDC. 11/8/07....   494


TOXIC TRAILERS: HAVE THE CENTERS FOR DISEASE CONTROL FAILED TO PROTECT 
                             PUBLIC HEALTH?

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:37 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Toxic Trailers: Have the Centers

                     for Disease Control Failed to

                         Protect Public Health?

                         tuesday, april 1, 2008
                          9:30 a.m.-1:00 p.m.
                   2318 rayburn house office building

Overview

    The mission of the Agency for Toxic Substances and Disease Registry 
(ATSDR), a sister agency of the Centers for Disease Control and 
Prevention (CDC), ``is to serve the public by using the best science, 
taking responsive public health actions, and providing trusted health 
information to prevent harmful exposures and disease related to toxic 
substances.'' Unfortunately, the agency failed to meet any of those 
objectives when it produced a Health Consultation on Formaldehyde 
Sampling of FEMA Temporary-Housing Trailers in February 2007. In almost 
every respect ATSDR failed to fulfill its mission to protect the public 
from exposure to formaldehyde at levels known to cause ill-health 
effects. The agency's handling of this issue and their inability to 
quickly and effectively correct it was the direct result of a collapse 
of senior management and leadership at the very top of the agency. The 
agency failed to translate scientific findings and facts into 
appropriate public health actions which would have resulted in properly 
informing and warning tens of thousands of Hurricanes Katrina and Rita 
survivors living in FEMA-provided trailers and mobile homes of the 
potential health risks they faced. The agency should have pushed to 
remove them from this circumstance as early as possible. Instead, they 
did virtually nothing.
    The Health Consultation, which was conducted at the request of the 
Federal Emergency Management Agency's (FEMA) Office of General Counsel 
was scientifically flawed and omitted critical health information. The 
report provided an illusion of safety that was used to drive FEMA 
policy of maintaining tens of thousands of Hurricanes Katrina and Rita 
families in FEMA-provided travel trailers. Rather than clearly warning 
occupants of the full-extent of potential health effects they could be 
exposed to the report determined that opening windows and vents would 
reduce the concentrations of formaldehyde in the trailers below levels 
of health concern.
    Opening windows and vents did substantially reduce the level of 
formaldehyde in the trailers, but the Health Consultation 
inappropriately relied on a ``level of concern'' regarding the health 
risks of formaldehyde of 0.3 parts per million (ppm), ten times higher 
than ATSDR's own Minimal Risk Level of up to one year of exposure (0.03 
ppm) and three times higher than the level of exposure widely accepted 
by other federal agencies to cause health effects (0.1 ppm). It also 
neglected to mention the potential long-term effects of exposure to 
formaldehyde and possible cancer risks.

Purpose

    The Subcommittee hearing will review how and why the Nation's 
public health agency failed to protect the public's health. The hearing 
will examine the direct involvement of the Director and Deputy Director 
of ATSDR in reviewing, vetting and approving the release of the 
agency's February 2007 Health Consultation on formaldehyde which was 
scientifically unsound and quickly dismissed by the agency's chief 
toxicologist after it had been forwarded to FEMA. Dr. Christopher De 
Rosa, ATSDR's chief toxicologist and then-Director of the Division of 
Toxicology and Environmental Medicine, immediately drafted a swift, 
sharp letter to FEMA pointing out many of the scientific faults with 
the report and said to release it as it was would be ``perhaps 
misleading.'' The Director of ATSDR finally had the letter sent to Mr. 
Rick Preston from FEMA's Office of General Counsel, who had requested 
the report in the first place, from a separate ATSDR office on March 
17, 2007. Amazingly, Mr. Preston acknowledged in interviews with 
Subcommittee staff that he simply placed the letter in a file drawer 
and never shared it with anyone else.
    Without knowledge of the March letter, the February Health 
Consultation by itself led senior FEMA officials to believe that 
concentrations of formaldehyde in FEMA-provided temporary housing units 
did not present a public health hazard. That interpretation of ATSDR's 
Health Consultation and the astonishingly lackluster effort by ATSDR 
officials to correct public mis-statements by FEMA officials or to 
immediately revise their own flawed report in the Spring of 2007 led 
FEMA to maintain the status quo and keep tens of thousands of Hurricane 
Katrina and Rita survivors living in potentially formaldehyde-laden 
toxic trailers for at least one year longer than necessary or 
warranted. Apart from the March 17th letter ATSDR had no response at 
all. If they had, perhaps more than 30,000 families would not remain in 
these temporary housing units today.

Among the key questions:

        <bullet>  Why did the leadership of ATSDR take such halfhearted 
        actions after the flawed report was issued and after they were 
        informed--and agreed--that the report was fundamentally flawed 
        and would be misleading if it was released?

        <bullet>  Why did top officials of ATSDR fail to either 
        publicly or privately correct mis-statements by the FEMA 
        Administrator that formaldehyde in the trailers did not pose a 
        threat to the inhabitants?

        <bullet>  The preparation and dissemination of the February 
        Health Consultation to FEMA was managed by the Office of the 
        Director. The Director of ATSDR, Dr. Howard Frumkin, reviewed 
        and commented on the report and his Deputy, Dr. Tom Sinks, 
        reviewed, edited and approved the release of the report. Given 
        their intimate involvement in the preparation of this report, 
        why did Drs. Frumkin and Sinks both take concerted actions in 
        the fall of 2007 to publicly scold the two authors of the 
        report, reprimand their branch chief who was unaware of the 
        report and demote and retaliate against Dr. Chris De Rosa, the 
        agency's chief toxicologist, who appeared to be the one 
        individual who repeatedly pushed the agency to do more and be 
        more assertive in its response to the formaldehyde issue?

        <bullet>  How can the public and Congress trust an agency to 
        protect the public's health that treated one of the most 
        important public health issues of the agency's recent past so 
        wantonly, with so little urgency, insight, sound scientific 
        advise or concern?

Background

    Formaldehyde is a colorless, strong-smelling gas that is widely 
used in the building industry, as an adhesive in many consumer 
products, including plywood, particle board, carpet and upholstery. 
Travel trailers are widely composed of these products. Because of the 
materials used in their construction, mobile homes and travel trailers 
have long been known to contain higher levels of formaldehyde, 
particularly when they are new, and there is a lot of ``off-gassing'' 
of formaldehyde. Over time the levels of formaldehyde in these products 
normally decrease as ``off-gassing'' occurs. Still, some trailers have 
shown elevated levels of formaldehyde even after years of ``off-
gassing.''
    Hurricane Katrina made landfall on August 29, 2005. Less than one 
month later on September 24, 2005 Hurricane Rita struck the Gulf Coast. 
These hurricanes left tens of thousands of individuals and families 
homeless. In response, FEMA provided more than 140,000 mobile homes and 
travel trailers known as temporary housing units, to individuals and 
families across the Gulf Coast, but the potential threat of exposure to 
high levels of formaldehyde from this housing was soon recognized by at 
least some federal agencies. High levels of formaldehyde in the 
manufactured homes industry was no secret. Several health studies in 
the 1980s documented adverse health effects from individuals living in 
travel trailers and mobile homes. By October 2005, concerned about the 
health consequences of formaldehyde exposures to FEMA workers, the 
Occupational Safety and Health Administration (OSHA) began testing for 
formaldehyde in FEMA temporary housing staging areas and discovered 
high levels of formaldehyde. But no agencies conducted testing on the 
actual trailers families and individuals would be living in for 
extended periods of time.
    In November 2005, Dr. Howard Frumkin, who took over as Director of 
the Agency for Toxic Substances and Disease Registry (ATSDR) two months 
earlier, seemingly recognized the health risks from the toxic chemicals 
being unleashed into the environment in the wake of Hurricane Katrina, 
including formaldehyde. But Dr. Frumkin did not link the formaldehyde 
to trailers at the time, but said as a result of Hurricane Katrina 
people faced a number of environmental health risk factors. ``In many 
ways,'' Dr. Frumkin told the Knight Ridder Newspapers, ``this is the 
major environmental health disaster of our lifetime.'' \1\ Yet, the 
issue of formaldehyde exposure in travel trailers never seemed to 
galvanize or sustain Dr. Frumkin's attention or interest.
---------------------------------------------------------------------------
    \1\ Seth Borenstein and Chris Adams, ``Health problems abound 
months after Katrina roared ashore,'' Knight Ridder Washington Bureau, 
30 November 2005.
---------------------------------------------------------------------------
    In April 2006, after hearing of a high level of formaldehyde in one 
trailer, the Sierra Club began testing other FEMA trailers. It 
conducted 52 tests between April and August, 2006 and found that 45 of 
the trailers it tested had levels of formaldehyde above 0.1 parts per 
million, the level at which potential health effects may begin to 
occur. In June 2006, a Louisiana man living in a trailer who had 
complained of formaldehyde died. This, in combination with the Sierra 
Club tests and the fact that FEMA was concerned about litigation 
regarding the presence of elevated levels of formaldehyde in these 
trailers, spurred FEMA to initiate environmental testing of the 
trailers for formaldehyde.
    In June 2006, FEMA and the Environmental Protection Agency (EPA) 
began developing protocols for the testing of trailers. Since the 
immediate aftermath of Hurricane Katrina the EPA had been working with 
ATSDR on emergency public health incidents, including oil fires and 
potentially contaminated sediment. Dr. Frumkin had implemented a 
streamlined procedure to respond to these sorts of emergency public 
health calls. Federal or State agencies would contact ATSDR's Office of 
Terrorism Preparedness and Emergency Response (OTPER) within the Office 
of the Director who would assign the specific tasks to subject matter 
experts within ATSDR or very often to the Emergency Response Team 
within the Division of Toxicology and Environmental Medicine (DTEM). In 
this instance, Sam Coleman, Director of EPA's Region 6 Superfund 
Division, who had worked in the past with the Emergency Response Team 
contacted Scott Wright, a member of the team about assisting FEMA in 
testing travel trailers for formaldehyde.
    Scott Wright, following the normal procedure established by Dr. 
Frumkin, contacted Don Benken who was then Acting Director of OTPER. 
The first of a long series of conference calls took place in late June 
between FEMA, EPA and ATSDR regarding the testing of FEMA trailers. Don 
Benken was present on the call as well as Scott Wright and Joseph 
Little, from the Emergency Response Team. The calls were normally 
directed by Rick Preston, a trial attorney from FEMA's Office of 
General Counsel who was handling FEMA's litigation on the formaldehyde 
issue.
    After this first call Don Benken says that he physically walked 
into Dr. Tom Sinks' office and informed him that FEMA arranged the call 
partly because they were concerned about litigation. Dr. Sinks said 
that they should offer assistance in any way that they could. In the 
end, the test protocols called for testing 96 ``unoccupied'' trailers 
for levels of formaldehyde. Testing ``occupied trailers'' was deemed 
too difficult because of confounding lifestyle issues, such as smoking. 
Tobacco contains formaldehyde and could have skewed the test results, 
some of the participants argued.
    In the tests, the EPA collected environmental samples in 96 new 
unoccupied travel trailers in order to access the levels of 
formaldehyde in closed trailers and under two ventilation methods: by 
running the air conditioning with the bathroom vents open and by 
opening the windows and vents. The tests were conducted in October 2006 
and the data was provided to FEMA attorney Rick Preston, who provided a 
CD of the test results to Scott Wright at ATSDR in November.
    In the letter, received by Wright in early December, Preston said: 
``Please review the data and provide to us a written report of your 
analysis of the results of these tests and any conclusions or 
recommendations that can be derived therefrom.'' Preston also asked 
that the information and their analysis be kept confidential. The role 
of ATSDR was to interpret and analyze the data, make recommendations 
regarding the best methods to reduce formaldehyde in the trailers and 
determine potential health implications.

February 2007 Health Consultation

    On December 1, 2006, Sam Coleman from the EPA sent an e-mail to 
Joseph Little and Scott Wright at ATSDR and cc'd Dr. Frumkin and others 
at EPA on the e-mail. The e-mail thanked Joe and Scott for all of their 
help, but then warned: ``We at EPA are concerned that FEMA might not be 
properly interpreting the data. We urge CDC to complete its review as 
soon as possible to provide appropriate advice to FEMA.''
    Dr. Frumkin sent an e-mail to Joe and Scott the following day 
saying ``I didn't know this was happening'' and asked who at ATSDR was 
handling this issue. Dr. Frumkin appeared so concerned about this issue 
at the time that he telephoned Scott Wright on his cell phone on 
Wright's day off. On December 4th, Joe Little sent an e-mail to Dr. 
Frumkin, Dr. Sinks, and others, including Dr. De Rosa, that clearly 
mentions they are working with Rick Preston from FEMA's Office of 
General Council.
    Scott and Joe's evaluation looked simply at ventilation methods to 
reduce formaldehyde in the trailers. Opening windows and vents did 
substantially reduce the level of formaldehyde in the trailers, but the 
Health Consultation also relied on a ``level of concern'' regarding the 
health risks of formaldehyde of 0.3 parts per million (ppm), ten times 
higher than ATSDR's own Minimal Risk Level of up to one year of 
exposure (0.03 ppm) and three times higher than the level of exposure 
widely accepted by other federal agencies, including EPA, OSHA and the 
Consumer Products Safety Commission and international organizations to 
cause health effects (0.1 ppm). These health effects can include 
irritation of the respiratory tract, watery eyes, burning sensations in 
the eyes, nose and throat, nausea, coughing, chest tightness, wheezing, 
skin rashes, and allergic reactions. Over the long-term exposure to 
elevated levels of formaldehyde may be linked to cancers of the nasal 
sinuses, brain and leukemia.
    On January 8, 2007, Mike Allred, Associate Director of the OTPER 
presented the ``draft'' Health Consultation at Director Frumkin's 
normal weekly Issues Management Meeting. Dr. Frumkin told Allred that 
he wanted an executive summary and some conclusions. Dr. Sinks recalls 
seeing and editing the document at least once, although Scott and Joe 
say the document went through four revisions with the Director's 
office. Mike Allred physically carried the document from Joe and Scott 
to Dr. Sinks for edits. Dr. Sinks does not recall making any 
significant changes or corrections to the document. On February 1, 
2007, the Health Consultation was completed and sent to Rick Preston, 
the FEMA trial attorney. The transmittal letter to the Health 
Consultation said: ``In summary, the opening of windows and vents was 
effective in reducing formaldehyde concentrations below levels of 
health concern.''
    On February 27, 2007, the Director of ATSDR's Division of 
Toxicology and Environmental Medicine, Dr. Chris De Rosa became aware 
of the report for the first time. He immediately informed the director 
of ATSDR and his deputy that the report was fundamentally flawed and he 
drafted--on his own volition--a letter to FEMA's Rick Preston that said 
the February Health Consultation failed to undergo ``a policy review by 
our senior technical staff'' and neglected to mention that formaldehyde 
was a ``probable'' carcinogen, that there was no safe levels of 
exposure and it omitted any reference to long-term exposure or cancer 
risks. It concluded: ``Failure to communicate this issue is possibly 
misleading, and a threat to public health.''
    On Monday, March 5, 2007, ``Formaldehyde in FEMA trailers'' was one 
of the topics of discussion at the Director's Issues Management 
Meeting. These meetings are not attended by Division Directors, such as 
Dr. De Rosa.
    On March 8th, Dr. De Rosa sent a second e-mail to Dr. Sinks and Dr. 
Frumkin, since he had not heard anything from them on his Feb. 27th e-
mail, and told them that he planned to send the letter to FEMA the 
following day if he received no objections from them. On Friday, March 
9th, Dr. Frumkin did respond to Dr. De Rosa and said he agreed with his 
concerns but wanted the response to FEMA coming from the same ATSDR 
office that originated the initial health consultation to respond. On 
March 17, 2007, ATSDR finally sent a letter drafted by Dr. De Rosa, but 
signed by the new Associate Director of the OTPER, Dr. Mark Keim, to 
Rick Preston at FEMA. Rick Preston told Subcommittee staff that he 
simply took the letter and filed it away because he believed everyone 
at FEMA was well aware of the risks noted in the March letter. The 
letter, according to Preston, was never shared with anyone else.
    From March onward, Dr. De Rosa continued to raise the formaldehyde 
issue internally. He repeatedly pushed and prodded the agency to do 
more and to alert the residents of the trailers, the public and 
Congress to the true risks of formaldehyde exposure. At the same time, 
FEMA was publicly using the February Health Consultation to justify 
maintaining the status quo and keeping people in trailers. At a 
Congressional hearing in mid-May 2007, FEMA Administrator David 
Paulison said, referring to the February Health Consultation, ``We've 
been told that the formaldehyde does not present a health hazard.'' 
During the same time-frame the media was reporting on formaldehyde 
linked health problems in children and others living in trailers on the 
Gulf Coast.
    Yet, the leadership of ATSDR remained silent. They did not publicly 
or privately correct the record, seek a ``revised'' Health Consultation 
or take other appropriate actions. Both Dr. Frumkin and Dr. Sinks told 
Subcommittee staff that they were simply unaware of media, 
congressional or other attention to this issue between March and the 
summer of 2007. They say that they wish they had done more sooner. Yet, 
documents obtained by the Subcommittee show that the formaldehyde issue 
was brought up at the Director's Issues Management Meetings at least 
two other times after the March 17th letter was mailed. Once on March 
21st and again on May 21st in response to a CBS News report on the 
formaldehyde issue in FEMA trailers.
    Meanwhile Dr. Chris De Rosa, continued to push the agency to become 
more engaged on the formaldehyde issue. On June 1, 2007, Dr. De Rosa 
again sends an e-mail to Director Frumkin, Deputy Director Sinks and 
others regarding the formaldehyde issue, warning them that there is no 
``safe'' level of exposure to formaldehyde. Only after a second 
Congressional hearing on this topic in July 2007 and a severe public 
critique of ATSDR's February Health Consultation did ATSDR begin to 
respond. Even as the agency began to respond, Chris De Rosa kept 
pushing to do more.
    In August, Dr. Frumkin placed Dr. De Rosa in charge of re-writing 
the February Health Consultation. He was removed from this role in 
September. On September 21, 2007, Dr. De Rosa wrote a blistering letter 
to ATSDR Director Dr. Frumkin raising his concerns that ATSDR was 
failing to protect the public's health on the formaldehyde and other 
issues. The following month, as part of his annual review, Dr. De Rosa 
received an ``unsatisfactory'' performance evaluation and was removed 
as Director of the Division of Toxicology, a post he had held with 
distinction for the previous 16 years. The Subcommittee considers Dr. 
De Rosa a whistleblower.
    The agency did finally publish a ``revised'' (much more complete) 
Health Consultation in October 2007. But the fundamental failings of 
the agency revealed as a result of their work on the formaldehyde issue 
remains a serious issue of concern. Rather than articulating a clear, 
concise and scientifically sound response to the formaldehyde issue 
from the beginning ATSDR seems to be an agency marred by confusion, 
lack of clear guidance and poor science from the very top of the 
leadership pyramid to the bottom. In February 2007, an internal ATSDR 
summary of the February Health Consultation said: ``In summary, the 
opening of windows and vents was effective in reducing formaldehyde 
concentrations below levels of health concern.'' In April 2007, the 
Director of ATSDR, Dr. Howard Frumkin sent out a personal newsletter to 
all staff that mentioned ATSDR's role in accessing environmental 
samples of formaldehyde levels in trailers that resulted in the 
February report. ``These data indicate that in trailers with closed 
windows, formaldehyde levels are similar to those found in new 
conventional housing,'' he wrote. The day after Congressional hearings 
in July 2007 on this issue, one of the two primary authors of the 
February report wrote: ``ATSDR emphatically stated in the conclusions 
that the levels of formaldehyde seen in trailers was of a Health 
Concern!'' It appears clear that the agency's overall ``conclusions'' 
were not based in scientific fact, but seemed to wax and wane with the 
public and congressional interest in this matter.
    In February 2008, a full year after ATSDR completed its initial 
Health Consultation on formaldehyde, Dr. Julie Gerberding, the Director 
of the CDC held a press conference to announce the results of new 
formaldehyde tests on occupied trailers. Dr. Gerberding said the tests 
provided a snapshot of formaldehyde levels in FEMA trailers that helped 
the CDC ``understand and confirm what we suspected all along,'' she 
said, ``that in some of these situations the formaldehyde levels are 
high enough where there could be a health hazard to the people who are 
living there.'' Because formaldehyde levels are likely to rise in the 
summer as the heat and humidity increase the CDC made that those in 
trailers ``be relocated to safer, permanent housing as quickly as 
possible, and certainly before the warm summer months arrive, because 
we want people to be as safe as they can possibly be.'' At the same 
news conference, FEMA administrator David Paulison said, ``The real 
issue is not what it will cost but how fast we can move people out.''
    Remarkably, seven months earlier, on July 24, 1007, Dr. De Rosa 
sent an e-mail addressed to ``colleagues'' at ATSDR, including Drs. 
Frumkin and Sinks and 15 other employees regarding FEMA's announcement 
that it intended to conduct formaldehyde testing in trailers. 
``Colleagues,'' wrote De Rosa, ``While testing may be warranted, what 
immediate interventions are being pursued thru appropriate channels to 
interdict exposures? Or to mitigate health impacts? I am concerned that 
the reported clinical signs are the harbinger of a[n] impending public 
health disaster.'' But no one seemed to listen.

Witnesses

Panel I:

        <bullet>  Dr. Heidi Sinclair, Assistant Professor of 
        Pediatrics, Louisiana State University, Medical Director, Baton 
        Rouge Children's Health Program

        <bullet>  Mrs. Lindsay Huckabee, Resident of FEMA-provided 
        mobile home in Kiln, Mississippi from October 2005-to-present, 
        along with her husband and five children.

        <bullet>  Ms. Becky Gillette, Formaldehyde Campaign Director, 
        Sierra Club Gulf Coast Environmental Restoration Task Force

Panel II:

        <bullet>  Dr. Christopher De Rosa, Former Director, Division of 
        Toxicology and Environment Medicine, Agency for Toxic 
        Substances and Disease Registry (ATSDR)

        <bullet>  Dr. Meryl Karol, Professor Emerita, University of 
        Pittsburgh, Department of Environmental & Occupational Health

Panel III:

        <bullet>  Dr. Howard Frumkin, Director, Agency for Toxic 
        Substances and Disease Registry (ATSDR) and National Center for 
        Environmental Health, (NCEH)

        <bullet>  Dr. Tom Sinks, Deputy Director, Agency for Toxic 
        Substances and Disease Registry (ATSDR) and National Center for 
        Environmental Health, (NCEH)

        <bullet>  Vice Admiral (ret.) Harvey E. Johnson, Jr., Deputy 
        Administrator, Federal Emergency Management Agency (FEMA)
    Chairman Miller. Good morning. This hearing will come to 
order. Today's hearing is Toxic Trailers: Have the Centers for 
Disease Control Failed to Protect Public Health? The Agency for 
Toxic Substances and Disease Registry, ATSDR, is a constituent 
agency of the Centers for Disease Control and Prevention, the 
CDC, it is to serve the public by using the best science, 
taking responsive public health actions and providing trusted 
health information to prevent harmful exposures and disease 
related to toxic substances.
    The staff of this subcommittee has engaged in more than 100 
hours of interviews and read thousands of pages of documents in 
preparing this morning's hearing on this matter. The ATSDR 
failed in its mission in producing a health consultation for 
the Federal Emergency Management Agency, FEMA, on the possible 
health consequences of formaldehyde exposure in trailers 
provided by FEMA to survivors of Hurricanes Katrina and Rita. 
ATSDR failed in what it produced in the consultation, but 
ATSDR's greatest failings were in what it left undone.
    ATSDR's failings were not just in scholarship, in academic 
disputation in obscure learned journals. Tens of thousands of 
Katrina and Rita survivors economically and politically 
powerless, vulnerable people, were living in the FEMA trailers. 
ATSDR released the consultation to FEMA on February 1 last 
year. The consultation concluded that formaldehyde levels in 
the trailers would be ``below levels of concern'' so long as 
the doors and windows were left open to air out the trailers. 
The level of concern was established at 0.3 parts per million. 
We will hear this morning that is a level well above the level 
of exposure that would likely cause adverse health consequences 
in sensitive people. And the report was entirely silent on the 
risks associated with continuous, long-term exposure to 
formaldehyde.
    In short, ATSDR issued a scientifically flawed report and 
failed to correct the record when they knew that the report was 
significantly flawed. And the result of that failure was that 
thousands of Americans were exposed to unsafe levels of 
formaldehyde fumes for a full year after the ATSDR and FEMA 
knew or should have known the real health risks of the 
formaldehyde exposure. It was not until February 13 of this 
year that the head of CDC, Julie Gerberding, announced that CDC 
was encouraging people to be moved out of the trailers as 
rapidly as possible.
    This is not an instance of lower level employees acting 
without the knowledge of the leadership of ATSDR or CDC. The 
facts are these:
    The analysts who did this report were approved for this 
task by the Deputy Director of the Agency, Dr. Tom Sinks, in 
July of 2006.
    The analysts produced a report that was then sent directly 
to the emergency response officials in the Directors Office.
    On January 8, 2007, the draft report was briefed to the 
Director, the Deputy Director, and the senior staff of the 
Director, and the briefing did not include the Division 
Directors that possess the technical expertise to evaluate 
toxicological or epidemiological studies.
    The Director of ATSDR was given a copy of the draft report 
and told Committee staff that he cannot remember whether he 
ever read it in January of 2007.
    The Deputy Director was given a copy of the draft report 
and remembers reviewing it at least one time. The analysts 
believe that review processes went through four rounds, 
providing comments back to the analysts on what they needed to 
do to improve the report.
    There was no process in place to guarantee that anyone else 
between the two analysts and the Director and Deputy Director 
had a chance to review the report.
    There was no control sheet to indicate to the Director who 
else had reviewed it. In most agencies this is a standard form 
to guarantee that a document has received the proper 
clearances.
    This whole process for moving Katrina-related consultations 
was established at the personal direction of the Dr. Howard 
Frumkin, the Director of ATSDR.
    In sum, there was a failure of leadership to establish 
effective systems to guarantee that important health, public 
health documents were reviewed properly and based on the best 
science. There was also a stunning lack of concern for how 
important this consultation was to thousands of American 
families. It appears that this consultation was, received only 
a cursory review by the Director's office, by the Director 
himself, and the Deputy Director claims only the vaguest 
memories of any concerns regarding the report.
    Another director, another official at ATSDR had a very 
different reaction to the formaldehyde consultation when he saw 
it. After the report was reviewed and approved by the Director, 
ATSDR sent the report to FEMA. When it was then distributed 
within ATSDR and landed on the desk of Dr. Chris De Rosa, the 
head of the Department of Toxicology and Environmental 
Medicine, he was appalled. He immediately e-mailed Dr. Frumkin 
to urge that they send a letter, ATSDR send a letter to FEMA, 
effectively withdrawing the report.
    Now, when he didn't receive a response, Dr. De Rosa sent 
his letter again, sent a letter draft to Dr. Frumkin and said 
that he would assume that unless Dr. Frumkin got back to him by 
the end of the next day that Dr. Frumkin intended to do 
nothing, and Dr. De Rosa would send the letter himself. Dr. 
Frumkin then agreed to have ATSDR send the letter over the 
signature of an official from the responsible office, in this 
case an official in the Director's office.
    ATSDR finally sent that letter on March 17, 2007. That 
letter read, in relevant part, ``The health consultation has 
been completed without a policy review by our senior technical 
staff. I am concerned that this health consultation is 
incomplete and perhaps misleading.'' This letter, like the 
prior consultation, was sent to the Office of Chief Counsel at 
FEMA, to Mr. Rick Preston, an attorney there. Mr. Preston told 
our staff that he simply put the letter in his file and did not 
mention it to anyone else at FEMA.
    But with that letter of repudiation, the leadership of 
ATSDR washed their hands of the report until awkward questions 
came up at a hearing by Chairman Waxman last July. In the wake 
of that hearing, Dr. Frumkin ordered a revised consultation 
posted in October, 2007, and shifted the blame for the 
consultation, the failings of the consultation, arguing that 
Dr. De Rosa, who was the one who asked the questions, the 
awkward questions about the report, should be removed from his 
position because of the poor quality of the formaldehyde health 
consultation.
    I want to make it very clear to the management of CDC and 
ATSDR that this committee considers Dr. De Rosa to be a 
whistleblower. Much of our information about this came from Dr. 
De Rosa originally. I have joined Chairman Gordon and Chairman 
Lampson in signing a letter to Dr. Gerberding expressing that 
position very forcefully. I think I have made it very clear 
that there are officials at ATSDR who should be on a 
professional improvement plan, a PIP in the jargon of federal 
employees. It isn't Dr. De Rosa, and I want to emphasize that 
nothing should happen to Dr. De Rosa except that he be restored 
to his previous position.
    Think back to when you were a child and you were sick. The 
safest place was to be at home in bed. Here we have government 
providing families with homes that were making children sick. 
Where do those children go to be safe? Where do families turn 
for help?
    The ATSDR is mandated to intervene to protect the public 
health, public from adverse health consequences of toxic 
chemicals, but in this case we find the leadership at the very 
top level of the agency with little interest in the actual work 
that was required to do that. Take a look at the testimony, the 
testimony from ATSDR is inspiring. It is aspirational. They say 
all the right words of concern and commitment, but their 
actions and their inactions speak much louder than their words. 
The Nation needs much better leadership from ATSDR and the CDC.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    The Agency for Toxic Substances and Disease Registry--ATSDR--is a 
constituent agency of the Centers for Disease Control and Prevention 
(CDC). Its mission is to ``serve the public by using the best science, 
taking responsive public health actions, and providing trusted health 
information to prevent harmful exposures and disease related to toxic 
substances.''
    The staff of this subcommittee has engaged in more than a hundred 
hours of interviews and read thousands of pages of documents in 
preparing this morning's hearing on this matter. The ATSDR failed in 
its mission in producing a health consultation for the Federal 
Emergency Management Agency--FEMA--on the possible health consequences 
of formaldehyde exposure in trailers provided by FEMA to survivors of 
Hurricanes Katrina and Rita. ATSDR failed in what it did in producing 
the consultation, but ATSDR's greatest failings were in what it left 
undone.
    ATSDR's failures were not just in scholarship, in academic 
disputation in obscure learned journals. Tens of thousands of Katrina 
and Rita survivors were living in the trailers. ATSDR released the 
consultation to FEMA on February 1, 2007. The consultation concluded 
that formaldehyde levels in the trailers would be ``below levels of 
concern'' so long as the doors and windows were left open to air out 
the trailers. The ``level of concern'' was established at 0.3 parts per 
million. We will hear this morning that is a level well above the level 
of exposure that would likely cause adverse health reactions in 
sensitive people. And the report was entirely silent on risks 
associated with continuous, long-term exposure to formaldehyde.
    In short, ATSDR issued a scientifically flawed report and failed to 
correct the record when they knew that the report was significantly 
flawed. And the result of that failure was that thousands of Americans 
were exposed to unsafe levels of formaldehyde fumes for a full year 
after ATSDR and FEMA knew or should have known the real health risks. 
It was not until February 13, 2008 that Julie Gerberding announced that 
CDC encouraged people to be moved out of trailers as rapidly as 
possible.
    This was not an instance of lower level employees acting without 
the knowledge of the leadership of ATSDR or CDR. The facts are these:

        <bullet>  The analysts who did this job were approved for this 
        task by the Deputy Director of the agency, Dr. Tom Sinks, in 
        July of 2006;

        <bullet>  The analysts produced a report that was then sent 
        directly to the emergency response officials in the Director's 
        Office;

        <bullet>  On January 8, 2007, the draft report was briefed to 
        the Director, the Deputy Director and the senior staff of the 
        Director--this briefing did not include the Division Directors 
        that possess the technical expertise to evaluate toxicological 
        or epidemiological studies;

        <bullet>  The Director of ATSDR was given a copy of the draft 
        report and told Committee staff that he cannot remember whether 
        he ever read it or not in January of 2007;

        <bullet>  The Deputy Director was given a copy of the draft 
        report and remembers reviewing it at least one time--the 
        analysts believe that review process went through four rounds 
        providing comments back to the analysts on what they needed to 
        do to improve the report;

        <bullet>  There was no process in place to guarantee that 
        anyone else between the two analysts and the Director and 
        Deputy Director had a chance to review the report; There was no 
        control sheet to indicate to the Director who else had reviewed 
        it in most agency's this is a standard form to guarantee that a 
        document has received the proper clearances;

        <bullet>  This whole process for moving Katrina-related 
        consultations was established at the personal direction of the 
        Director of ATSDR, Dr. Howard Frumkin.

    In sum, there was a complete failure by leadership to establish 
effective systems to guarantee that important public health documents 
were properly reviewed and based on the best science. There was also a 
stunning lack of concern for how important this consultation was to 
thousands of American families. It appears that this consultation 
received only a cursory review in the Director's office by the Director 
himself and the Deputy Director claims only the vaguest memories of any 
concerns regarding the report.
    Another official at ATSDR had a very different reaction to this 
formaldehyde consultation when he saw it. After the report was reviewed 
and approved by the Director, ATSDR sent the report to FEMA. Then it 
was distributed to some within ATSDR. When it landed on the desk of Dr. 
Chris De Rosa, the head of the Division of Toxicology and Environmental 
Medicine, he was appalled. He immediately e-mailed Dr. Frumkin to urge 
that they send a letter to FEMA to effectively withdraw the report.
    When he didn't receive a response, De Rosa resent his letter draft 
and said that Dr. Frumkin would have to get back to him by close of 
business the next day or would assume Frumkin's silence implied support 
and Dr. De Rosa would send the letter to FEMA himself. Frumkin then 
agreed to have ATSDR send the letter over the signature of an official 
from the responsible office--in this case an official in the Director's 
office.
    ATSDR finally sent that letter on March 17, 2007. That letter read, 
in relevant part, ``the Health Consultation . . . has been completed 
without a policy review by our senior technical staff. I am concerned 
that this health consultation is incomplete and perhaps misleading.'' 
This letter--like the prior consultation--was sent to an attorney in 
the Office of Chief Counsel at FEMA, Mr. Rick Preston. Mr. Preston told 
our staff that he simply filed the letter and did not send it to anyone 
else at FEMA.
    With that letter of repudiation, the leadership of ATSDR washed 
their hands of the report until awkward questions were raised at a 
hearing by Chairman Waxman last July. In the wake of that hearing, Dr. 
Frumkin ordered a revised consultation--posted in October 2007, and 
shifted the blame for the consultation. Dr. Frumkin argued that Dr. De 
Rosa--who first questioned that report--should be removed due to the 
poor quality of the formaldehyde health consultation.
    I want to make it very clear to the management at CDC that the 
Committee considers Dr. De Rosa to be a whistleblower. I have joined 
Chairmen Gordon and Lampson in signing a letter to Dr. Gerberding 
expressing this position very forcefully. I think I have made it clear 
who at ATSDR I believe would most benefit from Professional Improvement 
Plan and it isn't Dr. De Rosa--who has been put on one by Drs. Frumkin 
and Sinks. I want to emphasize that we believe that nothing is to 
happen to Dr. De Rosa short of restoring him to his post.
    Think back to when you were a child and sick. The safest place to 
be was at home in bed. But here we have a situation where the 
government has provided families with homes that are making children 
sick. Where do those children go to be safe? Who do their families turn 
to for help? ATSDR is mandated to intervene to protect the public from 
the adverse health consequences of toxic chemicals. But in this case we 
find the leadership at the very top of that agency with no interest in 
the actual work it would take to carry out that role. Take a look at 
their testimony. In inspiring tones, they utter the right words of 
concern and commitment, but their actions and inactions speak much 
louder than their words. The Nation needs better leadership from ATSDR 
and the CDC.

    Chairman Miller. Now, I would like to recognize--I will 
recognize Mr. Sensenbrenner of Wisconsin.
    Mr. Sensenbrenner. Thank you, Mr. Chairman. Today's hearing 
touches on some of the core issues lawmakers face in 
implementing policy based on science. As the former Chairman of 
this Full Committee and the Ranking Member of the Subcommittee, 
as well as being the Ranking Member of the Select Committee on 
Global Warming, I probably have had more experience with this 
intersection than most of my colleagues.
    How do you rely on good science to make informed decisions 
in the public interest? First and foremost, good decisions 
require good science and good scientific recommendations. The 
Agency for Toxic Substances and Disease Registry, which I will 
refer to as the ATSDR as the Chairman has, has failed us on 
this count.
    ATSDR's mission is, ``To serve the public by using the best 
science, taking responsive public health actions, and providing 
trusted health information to prevent harmful exposures and 
disease-related toxic substances.'' This mission is intended to 
serve not only lawmakers and other federal agencies but also 
individuals like today's witnesses.
    Lindsay Huckabee. Ms. Huckabee's family experienced various 
health problems since moving into trailers provided by the 
Federal Emergency Management Agency. To date, too little has 
been communicated about what affect the formaldehyde levels on 
her FEMA-provided trailer have had on her family's health.
    After an extensive Subcommittee investigation it appears 
that one of the principle failings within ATSDR is its review 
process. I hope to hear testimony from agency officials about 
that review process and how it can be strengthened in the 
future to prevent situations like this from occurring. 
Regardless of the merits of an individual scientist, good 
scientists requires review and contribution from various 
perspectives.
    On at least two recent instances ATSDR has proven itself 
incapable of sufficient review. ATSDR recently released a 
report entitled, ``Public Health Implications of Hazard 
Subjects in the 26 U.S. Great Lakes Areas of Concern.'' ATSDR 
began work on that report in 2002, and largely completed it by 
2004. The study was reviewed by external peer reviewers and 
cleared for release by ATSDR in July, 2007. Days before its 
slated release, ATSDR's leadership withheld the report's 
release because, according to the agency, significant 
scientific concerns had come to their attention. I am convinced 
that those concerns are legitimate.
    I am, therefore, confused as to how the report cleared 
ATSDR's review process. Watchdog agencies and Congressional 
committees are justifiably concerned when a report on public 
health is pulled with minimal explanation days before its 
release. If this report was fatally flawed, why were problems 
not uncovered during ATSDR's two years of review before the 
report was cleared for release? ATSDR's initial health 
consultation on formaldehyde levels in FEMA trailers similarly 
failed the public. That consultation titled, ``Formaldehyde 
Sampling at FEMA Temporary Housing Units,'' dated February 1, 
2007, concluded that the average concentration of formaldehyde 
per day in ventilated trailers after the fourth day of sampling 
and for the remainder of the study was below the level of 
concern for sensitive individuals of 0.3 parts per million.
    That conclusion led FEMA to believe that concentrations of 
formaldehyde in FEMA-provided housing units did not present a 
public health hazard. That was not the message the report's 
authors intended to convey. A competent internal review process 
could have determined that the consultation was potentially 
misleading before it was ever transmitted to FEMA.
    First, competent review could have determined that there 
were potential problems with the report's stated level of 
concern. The consultation does not discuss why it chose this 
level, nor does it discuss the problems could occur at much 
lower levels. The stated level was three times higher than the 
level used by several other government agencies and, according 
to many experts, above the level where many individuals will 
experience negative health affects.
    While the consultation's authors had a strong argument for 
choosing this level, the level should have been subject to at 
least some degree of internal review. The health consultation 
also focused exclusively on the short-term effects and failed 
to mention the potential long-term effects of exposure to 
formaldehyde and the possible risk of cancer.
    Dr. Christopher De Rosa, then the ATSDR's Director of the 
Division of Toxicology and Environmental Medicine, first read 
the release nearly a month after it was transmitted to FEMA. He 
pointed out some of the consultation's flaws and argued that as 
written it was perhaps misleading.
    On March 17, 2007, ATSDR wrote to Rick Preston in FEMA's 
Office of General Counsel, who had originally requested the 
consultation and raised these concerns. Mr. Preston, however, 
did not share these concerns with other officials at FEMA. For 
its part ATSDR took no action to immediately revise its report, 
nor did it raise any protests as FEMA continued to rely on the 
health consultation as evidence of the trailers' acceptability.
    A month and a half after the report was transmitted to 
FEMA, the report was still flawed, and the public was still 
uninformed. As today's hearing will make clear, far too little 
is known about the effects of formaldehyde and about what level 
should be considered problematic. Clearly, risk managers have 
to accept exposure to some level of formaldehyde. Suggestions 
that there is, ``no safe level of formaldehyde'' are simply not 
helpful because formaldehyde is ubiquitous.
    Sitting in this hearing room today we are breathing in 
formaldehyde. It has long been know that these levels are 
higher in trailers and mobile homes, both because of the 
material that's used and the relatively poor air exchange. But 
exactly what level is unacceptable is not clear.
    A report dated February 29, 2008, from the Centers for 
Disease Control titled, ``Interim Findings on Formaldehyde 
Levels in FEMA-Supplied Travel Trailers, Park Models, and 
Mobile Homes,'' provided information about formaldehyde levels 
in FEMA-supplied, occupied travel trailers, park models, and 
mobile homes that were still being used as of January of this 
year. This report found that the average formaldehyde 
concentration of these units was 77 parts per billion, well 
above what it termed the typical U.S. background levels of ten 
to 30 parts per billion. The range of concentration in tested 
trailers was, however, extremely broad. The lowest tested 
trailer registered on 3 parts per billion, well below the U.S. 
average, while the highest concentration measured 590 parts per 
billion.
    The interim report recommended fast action, finding that 
its condition supported the need to move quickly before the 
weather in the region warms up, to relocate residents of the 
U.S. Gulf Coast Region displaced by Hurricanes Katrina and Rita 
who still live in travel trailers, park models, and mobile 
homes. This recommendation is broad, sweeping, and 
authoritative, but it raises as many questions as it provides 
answers.
    Does the CDC recommend relocating everyone in FEMA-provided 
trailers, even in those trailers with formaldehyde 
concentrations below the typical background norms in U.S. 
homes? If not, what level is the appropriate level of concern? 
Should Americans living in trailers and mobile homes not 
provided by FEMA be concerned about formaldehyde levels? Do we 
need wide-scale testing for formaldehyde concentrations?
    The public will not be served by drastic action based upon 
limited science. Relocating individuals who are experiencing 
health affects is an urgent priority, but causing a panic among 
individuals who are perfectly safe will only result in 
unnecessary expense and neglect those who are actually in need. 
We need a clearer understanding of formaldehyde and its effects 
on human health before we act more broadly.
    As the Ranking Member of the Global Warming Committee, I 
know too well how science intensified under constant media 
exposure can lead to paranoia that seems to require immediate, 
wide-scale, and admittedly well-intentioned action. As policy-
makers we depend on agencies to product high-quality, 
thoroughly-reviewed science and to provide prudent objective 
advice. We haven't gotten it from ATSDR and as a result we are 
really operating in the blind in terms of what our response 
should be to this problem.
    And I thank the Chair for indulging me to speak for more 
than five minutes.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner Jr.
    Today's hearing touches some of the core issues lawmakers face in 
implementing policy based on science. As the former Chairman of the 
Science Committee, the Ranking Member on this subcommittee, and the 
Ranking Member on the Select Committee on Global Warming, I have had 
more experience with this intersection than most. How do you rely on 
good science to make informed decisions in the public's interest?
    First and foremost, good decisions require good science and good 
scientific recommendations. The Agency for Toxic Substances and Disease 
Registry (ATSDR) has failed us on this count. ATSDR's mission is ``to 
serve the public by using the best science, taking responsive public 
health actions, and providing trusted health information to prevent 
harmful exposures and disease related to toxic substances.''
    This mission is intended to serve not only lawmakers and other 
Federal agencies, but also individuals like today's witness, Lindsay 
Huckabee. Ms. Huckabee's family has experienced various health problems 
since moving into trailers provided by the Federal Emergency Management 
Agency's (FEMA). To date, too little has been communicated about what 
affect the formaldehyde levels in her FEMA-provided trailer have had on 
her family's health.
    After an extensive Subcommittee investigation, it seems clear that 
one of the principle failings within ATSDR is its review process. I 
hope to hear testimony from agency officials about that review process 
and how it can be strengthened in the future. Regardless of the merits 
of an individual scientist, good science requires review and 
contribution from various perspectives. On at least two recent 
instances, ATSDR has proven incapable of sufficient review.
    ATSDR recently released a report titled, Public Health Implications 
of Hazardous Substances in the Twenty-Six U.S. Great Lakes Areas of 
Concern. ATSDR began work on that report in 2002 and largely completed 
it by 2004. The study was reviewed by external peer reviewers and 
cleared for release by ATSDR in July, 2007. Days before its slated 
release, ATSDR's leadership withheld the report's release because, 
according to the agency, significant scientific concerns had come to 
their attention.
    I am convinced that these concerns are legitimate. I am therefore 
confused as to how the report cleared ATSDR's review process. Watchdog 
agencies and Congressional Committees are justifiably concerned when a 
report on public health is pulled with minimal explanation days before 
its release. If this report was so fatally flawed, why were problems 
not uncovered during ATSDR's two years of review before the report was 
cleared for release?
    ATSDR's initial health consultation on formaldehyde levels in FEMA 
trailers similarly failed the public. That consultation titled, 
Formaldehyde Sampling at FEMA Temporary Housing Units, dated February 
1, 2007, concluded that:

         The average concentration of formaldehyde per day in 
        [ventilated trailers], after the fourth day of sampling and for 
        the remainder of the study, was below the level of concern for 
        sensitive individuals of 0.3 parts per million.

    That conclusion led FEMA to believe that concentrations of 
formaldehyde in FEMA-provided housing units did not present a public 
health hazard. This was not the message the report's authors intended 
to convey. A competent internal review process should have determined 
that the consultation was potentially misleading before it was ever 
transmitted to FEMA.
    First, competent review could have determined that there were 
potential problems with the report's stated ``level of concern.'' The 
consultation does not discuss why it chose this level, nor does it 
suggest that problems could occur at much lower levels. The stated 
level was three times higher than the level used by several other 
government agencies and, according to many experts, above the level 
where many individuals will experience negative health effects. While 
the consultation's authors had a strong argument for choosing this 
level, the level should have been subject to some degree of internal 
review.
    The health consultation also focused exclusively on short-term 
effects and failed to mention the potential long-term effects of 
exposure to formaldehyde and the possible risk of cancer. Dr. 
Christopher De Rosa, then ATSDR's Director of the Division of 
Toxicology and Environmental Medicine, first read the release nearly a 
month after it was transmitted to FEMA. He pointed out some of the 
consultation's flaws and argued that, as written, it was ``perhaps 
misleading.''
    On March 17, 2007, ATSDR wrote to Rick Preston in FEMA's Office of 
the General Counsel, who had originally requested the consultation, and 
raised these concerns. Mr. Preston did not, however, share these 
concerns with other officials at FEMA. For its part, ATSDR took no 
action to immediately revise its report nor did it raise any protests 
as FEMA continued to rely on the Health Consultation as evidence of the 
trailer's acceptability. A month and half after the report was 
transmitted to FEMA, the report was still flawed and the public was 
still uninformed.
    As today's hearing will make clear, far too little is known about 
the effects of formaldehyde and about what levels should be considered 
problematic. Clearly, risk managers have to accept exposure to some 
level of formaldehyde. Suggestions that there is ``no safe level'' of 
formaldehyde are simply not helpful because formaldehyde is ubiquitous. 
Sitting in this hearing room today, we are breathing in formaldehyde. 
It has long been known that these levels are higher in trailers and 
mobile homes both because of the materials used and the relatively poor 
air exchange. But exactly what level is unacceptable is unclear.
    A report dated February 29, 2008 from the Centers for Disease 
Control (CDC), titled Interim Findings on Formaldehyde Levels in FEMA-
Supplied Travel Trailers, Park Models, and Mobile Homes, provided 
information about formaldehyde levels in FEMA-supplied occupied travel 
trailers, park models, and mobile homes that were still being used as 
of January 2008. This report found that the average formaldehyde 
concentration of these units was 77 parts per billion, well above what 
it termed the typical U.S. background levels of 10-30 parts per 
billion. The range of concentrations in tested trailers was, however, 
extremely broad. The lowest tested trailer registering only three parts 
per billion, well below the U.S. average, and the highest concentration 
measured 590 parts per billion.
    The Interim Report recommended fast action. Finding that its 
conclusions ``support[ed] the need to move quickly, before weather in 
the region warms up, to relocate residents of the U.S. Gulf Coast 
region displaced by Hurricanes Katrina and Rita who still live in 
travel trailers, park models, and mobile homes.''
    This recommendation is broad, sweeping, and authoritative, but it 
raises as many questions as it provides answers. Does CDC recommend 
relocating everyone in FEMA-provided trailers, even those in trailers 
with formaldehyde concentrations below the typical background norms in 
U.S. homes? If not, what level is the appropriate level of concern? 
Should Americans living in trailers and mobile homes not provided by 
FEMA be concerned about formaldehyde levels? Do we need wide-scale 
testing for formaldehyde concentrations?
    The public will not be served by drastic action based on limited 
science. Relocating individuals who are experiencing health effects is 
an urgent priority, but causing a panic among individuals who are 
perfectly safe will only result in unnecessary expense and neglect of 
those actually in need. We need a clearer understanding of formaldehyde 
and its effects on human health before we act more broadly. As Ranking 
Member on the Global Warming Committee, I know too well how science, 
intensified under constant media exposure, can lead to paranoia that 
seems to require immediate, wide-scale action. As policy-makers we 
depend on agencies to produce high quality, thoroughly reviewed science 
and to provide prudent, objective advice.

    Chairman Miller. I thank you, Mr. Sensenbrenner, and I 
appreciate your going more over your time than I went over my 
time, making me look better by comparison.
    I now ask unanimous consent that all the additional opening 
statements or any additional opening statements be included in 
the record. Without objection, it is so ordered.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    The country depends on the Agency for Toxic Substances and Disease 
Registry to warn of health dangers that come with exposure to 
chemicals. In the wake of Hurricanes Katrina and Rita, hundreds of 
thousands of Americans found themselves placed in mobile homes and 
travel trailers as semi-permanent housing. Formaldehyde has 
historically been found at higher levels in this kind of manufactured 
housing than in traditional construction. It should come as no surprise 
then that within months of families being placed in these trailers, 
some complaints about sicknesses--nose bleeds and asthma-like symptoms 
most prominently--began to filter back to FEMA.
    The people in these trailers include the most vulnerable among us--
children, the elderly, the handicapped. Many of these are people who 
were really stuck in the trailers twenty-four hours a day, seven days a 
week. Children and babies breath faster than adults and are less able 
to process formaldehyde so it builds up in their bodies faster than in 
adults. These are the same populations that you might expect to be most 
sensitive to formaldehyde--lower levels of exposure triggering stronger 
health reactions. These are the very segments of the public that we 
most expect the government to act to protect.
    In the summer of 2006, ATSDR began working with the Environmental 
Protection Agency and FEMA to develop a test protocol to examine 
formaldehyde in trailers. The ATSDR leadership was aware of this 
effort. They did not assign their top formaldehyde or toxicology people 
to this task. Rather, they left it to two emergency response staff with 
no special training on formaldehyde. Those staffers then analyzed the 
data that came back from the EPA testing, and they produced a report 
that went directly to the Director and Deputy Director for review 
through the Director's Office of Terrorism Preparedness and Emergency 
Response. Apparently neither the Director nor Deputy Director asked any 
questions about how the report was produced or who else had seen it. 
Their memories of dealing with that report are vague on what they knew, 
what they saw, what they said or what they did.
    However, they must have approved the report because it went to FEMA 
on February 1, 2007. The report suggests that if people just open 
windows and doors of their trailers, they can keep formaldehyde levels 
below ``levels of concern'' regarding health effects. But as we know, 
another round of testing and more careful analysis by another office at 
the CDC, led to a very different conclusion from the same agency. In 
February of 2008 the CDC announced that people should be moved out of 
these trailers as quickly as possible. Getting it wrong in February of 
2007 consigned tens of thousands of Americans to a year in unhealthful 
housing. That hardly sounds like the public health was well served.
    Our review of the way the original formaldehyde Health Consultation 
was handled demonstrates a complete managerial collapse at ATSDR. The 
wrong people were assigned to write it under the Katrina emergency 
consultation process set up by the Director. Then the wrong people 
reviewed the report--in this case those people consist solely of the 
Director and Deputy Director of the agency. When the mess is made 
apparent to the Director, he does virtually nothing to correct the 
situation. Only when the mess becomes more public do the leaders of the 
agency swing into action to issue a corrected consultation and shift 
blame to others.
    Among those blamed for the poor original consultation was Dr. Chris 
De Rosa. Ironically, it was Dr. De Rosa that first brought problems 
with the report to the attention of the Director of ATSDR, Dr. Frumkin. 
He continued to push on the health conditions in trailers and other 
matters throughout 2007. His reward for these efforts was to be blamed 
for the failed health consultation and removed from his post as 
director of the Division of Toxicology and Environmental Medicine--a 
job he had held for 16 years.
    The Science and Technology Committee consider Dr. De Rosa a 
whistleblower. He sought to repeatedly raise the alarm within the 
corridors of the CDC that a public health disaster was unraveling 
before them. I strongly believe that raising the alarm on a critical 
public health issue that has impacted thousands of individuals should 
be rewarded not punished.
    I trust that we will receive assurances today from Dr. Frumkin that 
retaliation against Dr. De Rosa will cease, and that he will be 
recognized for his efforts to fulfill the mission of ATSDR ``to serve 
the public'' by ``taking responsive public health actions [in order] to 
prevent harmful exposures and disease related to toxic substances.''

    [The prepared statement of Mr. Lampson follows:]
           Prepared Statement of Representative Nick Lampson
    Science is not supposed to take politics or ``broad implications'' 
into account. It is supposed to provide us with reliable facts--
truths--about our environment. It is a sad day in this country when our 
government and its agencies and scientists let politics determine 
``scientific'' results and guidelines. And it is a shame that our 
nation's scientists whom we entrust with public health and safety are 
more worried about politics more than science and the health of the 
people we are all sworn to protect. The victims of Hurricane Katrina 
suffered one tragedy at the mercy of mother nature and another at the 
mercy of their own government and of science--the one thing that should 
never provide tainted results or harm. The leaders of these agencies 
should swear allegiance first to the scientific process and secondly to 
whomever their bosses may be. Unfortunately only Dr. De Rosa upheld 
that standard in this situation, and we thank him for his unwavering 
commitment to the truth and honesty. Despite mounting evidence it seems 
that the agencies involved are still unwilling to accept the broader 
implications of their actions. The men and women and children that were 
in FEMA's care will suffer the rest of their lives, and maybe even 
their children and grandchildren will bear the burden of FEMA and the 
CDC's inaction and willingness to throw scientific fact out of the 
window. The way we are told societies should be judged is based on how 
they treat their most vulnerable. I for one am ashamed of how we have 
treated our fellow Americans in their greatest time of need.

    Chairman Miller. I also ask unanimous consent to enter into 
the record documents that have been collected by the 
Subcommittee during the course of work on this matter, and 
those documents have already been provided to the Minority. 
Without objection, so ordered. [The information appears in 
Appendix: Additional Material for the Record.]
    I now would like to introduce our witnesses, our first 
panel today. Our first witness is Dr. Heidi Sinclair. Dr. 
Sinclair is Assistant Professor of Pediatrics at Louisiana 
State University and is the Medical Director of the Baton Rouge 
Children's Health Program. Ms. Lindsay Huckabee lived with her 
husband and five children in a FEMA-provided mobile home in 
Kiln, Mississippi, from October, 2005, until just last month.
    Mr. Sensenbrenner. Will the gentleman yield?
    Chairman Miller. Yes.
    Mr. Sensenbrenner. We know all about Kiln, Mississippi, 
because of your favorite son. You tell him he ought to go back 
to work. That is Brett Farve.
    Chairman Miller. The Ranking Member agreed earlier that all 
sports analogies would be college basketball, but I think the 
early exit of the University of Wisconsin has changed his view.
    Our last witness is Ms. Becky Gillette, the Formaldehyde 
Campaign Manager for the Sierra Club Gulf Coast Environmental 
Restoration Task Force.
    Welcome to all of our witnesses. You will have five minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all complete 
your testimony, we will begin with questions, and each Member 
will have five minutes to question the panel.
    It is the practice of this subcommittee to take testimony 
under oath. Do any of you have any objection to being sworn in?
    If not, oh, you may also be represented by counsel. Is 
anyone here represented by counsel? Now, would you please stand 
and raise your right hand?
    [Witnesses sworn]
    Chairman Miller. All the witnesses affirmed that they would 
tell the truth.
    Dr. Sinclair, please begin.

                                Panel I:

STATEMENT OF DR. HEIDI SINCLAIR, MEDICAL DIRECTOR, BATON ROUGE 
 CHILDREN'S HEALTH PROJECT; ASSISTANT PROFESSOR, DEPARTMENT OF 
 PEDIATRICS, LOUISIANA STATE UNIVERSITY HEALTH SCIENCES CENTER

    Dr. Sinclair. Good morning. Thank you, Chairman Miller and 
Congressman Sensenbrenner, for inviting me to testify today. My 
name is Dr. Heidi Sinclair with the Louisiana State University 
Health Science Center (LSUHSC). The views expressed herein do 
not reflect the views and opinions of LSUHSC. I am here today 
as a community pediatrician and advocate for vulnerable 
children.
    I, too, was displaced by Hurricane Katrina. I relocated to 
Baton Rouge in June of 2006, to accept the position of Medical 
Director of the Baton Rouge Children's Health Project, 
established post-Katrina by the Children's Health Fund in 
collaboration with LSU pediatrics in Baton Rouge. Our project's 
mobile medical units have provided comprehensive medical and 
mental health care to over 400 children and families displaced 
to the Baton Rouge area.
    As FEMA trailer group sites were being established, a 
number of concerns were expressed regarding the safety and 
suitability of both the travel trailers and the group sites 
themselves. We were concerned then as we are now that people 
living in these trailers are continually being exposed to 
formaldehyde, which is most readily absorbed through the 
respiratory tract by breathing.
    Symptoms associated with formaldehyde exposure include 
sinus irritation, respiratory problems, skin rashes, eye 
irritation, nausea and stomach aches, as well as neurological 
problems such as headaches, fatigue, depression, insomnia, and 
difficulty concentrating.
    Since we began seeing patients at the FEMA trailer 
villages, presenting problems have included many symptoms 
consistent with formaldehyde exposure. While ATSDR lists 0.008 
parts per million or eight parts per billion as minimal risk 
level for long-term formaldehyde exposure, it is important to 
emphasize that much remains unclear about formaldehyde. Most 
human studies have been limited to adult occupational exposure. 
Children, however, are more likely to be affected by even low-
level exposure to formaldehyde in their living environment 
because they generally spend more time at home, have a higher 
respiratory rate, have a greater surface to mass ratio, are 
closer to the ground and formaldehyde concentrations are higher 
closer to the ground, and have immature metabolic systems that 
may not enable them to clear absorbed formaldehyde as quickly 
as adults.
    There are also concerns about possible long-term 
consequences of formaldehyde exposure, which include changes to 
the immune system that can increase allergic responsiveness in 
general, possible reproductive or developmental toxicity, an 
increased risk of nasal and nasal-pharyngeal carcinomas and 
possibly lung cancer, throat cancer, or blood disorders.
    Following reports in 2006 of elevated formaldehyde in the 
Mississippi Gulf Coast area travel trailers, I discussed 
concerns regarding formaldehyde in travel trailers in our area 
with colleagues at the Office of Public Health, the Children's 
Health Fund, and elsewhere.
    The Health Consultation, ``Formaldehyde Sampling at FEMA 
Temporary Housing Units, released by ATSDR in February of 2007, 
added confusion regarding what might be considered safe levels 
of formaldehyde. In this report, 0.3 parts per million or 300 
parts per billion was chosen as the level of concern. This 
level, however, is nearly 40 times higher than what is 
established by the ATSDR as minimal risk level for long-term 
exposure. Misinterpretations of this study and other 
misconceptions may have served to minimize understanding of the 
possible exposure risks to those living in travel trailers in 
our area.
    In July, 2007, FEMA announced that they would work with CDC 
to test occupied travel trailers. I contacted the CDC and 
learned that the testing would be random, residents would not 
be able to request to have their trailer tested, it was unclear 
if individual results were going to be given to residents, and 
the actual study start date was unknown. The Sierra Club 
provided our project with a few test kits. All of the tests 
were elevated with seven of the eight trailers testing between 
100 and 300 parts per billion, ten to 25 times above ATSDR's 
minimal risk level for long-term exposure and at least five 
times above levels often present in conventional homes. A 
summary of this testing sample was shared with persons with the 
Office of Public Health, the Children's Health Fund, and 
others.
    I was contacted in the summer and fall of 2007, by CDC 
representatives and participated in a phone conference with CDC 
representatives regarding their upcoming study on occupied 
travel trailers.
    ATSDR's October, 2007, update and revision seems to be an 
effort to clarify that their February FEMA consultation was not 
meant to imply that formaldehyde levels in the travel trailers 
were safe for long-term occupancy. This update also mentions 
concerns of CDC, NCEH, ATSDR, and EPA representatives as early 
as July, 2006, that the study requested by FEMA, ``could not be 
generalized and applied to occupied trailers in the Gulf 
Region.''
    In summary, I would like to share my conclusions and 
recommendations. First, I am glad that FEMA acknowledged that 
travel trailers are designed for short-term recreational use 
and are not intended for housing. I recommend that FEMA more 
actively involve local government, non-profits, and family and 
child advocates in planning safe and appropriate housing 
options for displaced families.
    Second, I am surprised that the CDC did wait so long to 
initiate formaldehyde testing of occupied travel trailers given 
the stated concerns of some of their own representatives as 
early as July 2006, and given reports by ATSDR in February of 
2007, that cited formaldehyde levels so greatly above their own 
defined minimal risk level for long-term exposure.
    Third, formaldehyde exposure is just one of many problems 
being faced by families displaced by Hurricanes Katrina and 
Rita. It is unacceptable that so many families must endure 
uncertainty and concerns regarding their exposure to elevated 
levels of formaldehyde in addition to daily anxieties and 
stresses of displacement.
    Fourth, as FEMA works with local agencies to find more 
appropriate and safe housing solutions for families, we 
recommend that coordinated efforts be made to prevent any 
further disruption and endangerment.
    Finally, I recommend that the CDC consider expanding their 
proposed child health study to a wider sample of children 
displaced, affected by Hurricane Katrina. I look forward to 
contributing to such a study in any way I might be able.
    Thank you.
    [The prepared statement of Dr. Sinclair follows:]
                  Prepared Statement of Heidi Sinclair
    Good morning. Thank you for this opportunity to testify today 
before the Committee on Science and Technology. My name is Dr. Heidi 
Sinclair, Assistant Professor of Pediatrics with the Louisiana State 
University Health Sciences Center (LSUHSC) and Medical Director of the 
Baton Rouge Children's Health Project. I am here today at the request 
of the Committee on Science and Technology as a health care provider, 
community pediatrician, and advocate for vulnerable children. The views 
expressed herein do not reflect the views and opinions of LSUHSC.

Background

    I was living in New Orleans at the time of Hurricane Katrina and 
relocated to Baton Rouge in June of 2006 to accept the position of 
Medical Director of the Baton Rouge Children's Health Project, a unique 
and innovative partnership of LSU Pediatrics in Baton Rouge and The 
Children's Health Fund. The Children's Health Fund is committed to 
providing health care to the Nation's most medically under-served 
children and their families through the development and support of 
primary care medical programs such as the Baton Rouge Children's Health 
Project.
    Our project, established the fall of 2006, has two professionally 
staffed mobile medical units, ``doctors' offices on wheels,'' providing 
comprehensive primary pediatric medical and mental health care through 
4,968 encounters to over 400 children and families displaced to the 
Baton Rouge area. Services are provided weekly or bimonthly at a number 
of FEMA group sites. Prominent among these is Renaissance Village, the 
largest FEMA trailer village in Louisiana with nearly 600 travel 
trailers and estimates of 1,500 to 2,100 residents at peak.

Formaldehyde Exposure and FEMA Trailer Sites

    As FEMA trailer group sites were established and families were 
moved into these travel trailers, a number of concerns were expressed 
regarding the safety and suitability of both the travel trailers and 
the group sites themselves. Regarding formaldehyde, a colleague 
initially raised concerns to the Children's Health Fund and to 
Louisiana congressional staff during a legislative visit in May of 
2006.
    We were concerned then as we are now that people living in these 
trailers are continually being exposed to formaldehyde, which is most 
readily absorbed through the respiratory tract (by breathing), with 
most exposures occurring through inhalation, and skin or eye contact. 
Indoors, a major source of formaldehyde is off-gassing from particle 
board and urea-foam insulation.

Symptoms
    The most common associated symptoms of formaldehyde exposure 
include neurological problems, such as headaches, depression, and 
insomnia as well as skin rashes, eye irritation, sinus problems, 
recurrent colds and nose-bleeds. Long-term consequences can include 
changes to the immune system and development of certain cancers.
    Since we began seeing patients at the FEMA trailer villages, the 
most common presenting problems have, in fact, included: skin rashes, 
sinus problems and recurrent colds, headaches, fatigue, depression, 
insomnia and attention deficits. Some patients also have recurrent 
nose-bleeds, stomach aches, nausea, eye irritation and respiratory 
problems. All of these symptoms are consistent with formaldehyde 
exposure. These symptoms admittedly are non-specific and not uncommonly 
encountered in a general pediatric population. However, formaldehyde 
cannot be ruled out as a contributing factor, even when considering the 
FEMA trailer park population's association with stress, poor nutrition, 
and exposure to other allergens such as mold or irritants.

Exposure Levels
    While the Agency for Toxic Substances and Disease Registry (ATSDR) 
lists 0.008 ppm (8 ppb) as minimal risk level for long-term (>365 day) 
formaldehyde exposure, it is important to emphasize that much remains 
unclear about formaldehyde. Some persons, for example, will experience 
symptoms at levels as low as 0.05 ppm while others will have no 
symptoms even at much higher levels. Most studies of human exposure to 
formaldehyde have reviewed adult, acute high level or 8-10 hour 
occupational exposure--there have been fewer studies on health effects 
of elevated indoor air levels of formaldehyde in homes, and almost no 
studies of its effects on children.

Formaldehyde and Children
    Nonetheless, children, particularly the youngest, are more likely 
to be affected by even low-level exposure to formaldehyde because they:

        <bullet>  Spend more time at home;

        <bullet>  Have a higher respiratory rate;

        <bullet>  Have a greater surface to mass ratio (thus would be 
        expected to absorb more formaldehyde);

        <bullet>  Are closer to the ground (formaldehyde gas is heavier 
        than air and thus at higher concentrations closer to the 
        ground); and

        <bullet>  Have an immature metabolic system that may not enable 
        them to metabolize and clear absorbed formaldehyde as quickly 
        as in adults.

    Therefore, when approaching these issues, it is probably best to 
say that there is NO acceptable level of formaldehyde exposure that is 
safe for children.

Long-Term Exposure
    Beyond the immediate symptoms, there are concerns about possible 
long-term consequences of formaldehyde exposure.

        <bullet>  Formaldehyde sensitization has been associated with 
        changes to the immune system (increased IgE, altered T-cell 
        cytokine secretion) that can increase allergic responsiveness 
        in general;

        <bullet>  Formaldehyde is genotoxic--causing rearrangement of 
        chromosomes and breakage of sister chromatids;

        <bullet>  Formaldehyde is listed as a carcinogen or probable 
        carcinogen by a number of national and international 
        organizations; and

        <bullet>  Formaldehyde has most closely been correlated with 
        increased risk of nasal and nasal-pharyngeal carcinomas but may 
        also be associated with lung cancer or blood disorders.

    Homeland Security cites a study of mobile home residents exposed to 
formaldehyde above 0.10 ppm (100 ppb) for 10 years indicating a 
statistically significant increase in the risk of throat cancer.

Timeline of Concern and Agency Contact

    In the summer and fall of 2006, I followed reports coming from the 
Mississippi Gulf Coast of families living in FEMA travel trailers who 
were experiencing more alarming adverse events such as daily profuse 
nose-bleeds, severe respiratory problems, and pet illnesses. In May 
2006, the Sierra Club released a report of elevated levels of 
formaldehyde in 30 of 32 travel trailers they tested in the Gulf Coast. 
I felt it would be worthwhile to check the formaldehyde levels in some 
of the travel trailers in our area.
    I discussed my concerns informally with colleagues at the Office of 
Public Health and elsewhere. The general consensus was that 
formaldehyde off-gassing should only be a problem in new travel 
trailers. As our families had been occupying these travel trailers for 
over a year, it was assumed formaldehyde off-gassing should no longer 
be a problem. Secondly, the travel trailers at Renaissance Village were 
manufactured before Katrina. It was felt that they should not have the 
same problems with elevated levels of formaldehyde as those in the 
Mississippi Gulf Coast which were put together quickly after Katrina.
    The Health Consultation of Formaldehyde Sampling at FEMA Temporary 
Housing Units released by the ATSDR in February of 2007 only added to 
the confusion regarding what might be considered ``safe'' levels of 
formaldehyde in occupied travel trailers. In this report, 0.3 ppm (300 
ppb) was chosen as the ``level of concern.'' This level (0.3 ppm) was 
reportedly selected as it is an effect level associated with acute 
narrowing of the bronchi in sensitive individuals. However, this level 
is nearly forty times higher than what is established by ATSDR as 
``minimal risk level'' (0.008 ppm or 8 ppb) for long-term (> 365 days) 
exposure.
    At this time, community members felt that this was an issue for 
FEMA to investigate and accept accountability for. Every few months, 
when the formaldehyde issue reappeared in the media, rumors would 
circulate that FEMA would be testing the travel trailers. On these 
occasions, I contacted Mr. Manuel Broussard, FEMA Public Relations in 
Baton Rouge, who would clarify that FEMA was not planning to test 
occupied travel trailers. Mr. Broussard also put me in touch with Ms. 
Gail Tate, FEMA Interagency Coordinator, who affirmed that FEMA's plan 
was to continue working towards relocating trailer residents rather 
than to offer testing.
    After last year's Congressional hearings and FEMA's announcement in 
July of 2007 that it would work with the CDC to test occupied travel 
trailers, many trailer residents believed that this testing was 
imminent and they would be able to request to have their trailer 
tested. In fact, FEMA released a press statement in July 2007 that 
testing would begin on Tuesday, July 24, 2007. In order to better 
inform concerned patients, I contacted the CDC for clarification and 
learned that the CDC needed time to design a study and that the testing 
of the travel trailers would be random: residents would not be able to 
request to have their trailer tested; it was unclear if individual 
results were going to be given to those residents whose trailers were 
tested; and the study start date was unknown.
    There was a fear, warranted or not, among both residents and 
service providers, of possible reprisals from FEMA if people complained 
about formaldehyde or initiated testing of travel trailers 
independently. On my request, the Sierra Club provided our project with 
a few test kits and assisted me with installing and collecting these 
testers, following up with the families to review test results, and in 
advising families on measures they might take to reduce their exposure 
to formaldehyde. This sample of trailers tested approximately ten to 
twenty-five times above ATSDR's ``minimal risk level'' for long-term 
exposure and at least five times above levels often present in 
conventional homes.\1\ Only one of the eight measured less than 0.1 
ppm--the other seven tested between 0.1-0.3 ppm (100-300 ppb).
---------------------------------------------------------------------------
    \1\ It is not unusual for conventional homes to have indoor 
formaldehyde concentration levels of 0.01 to 0.02 ppm (10-20 ppb).
---------------------------------------------------------------------------
    While maintaining confidentiality on the request of the families 
involved, the summary of this testing sample was shared with persons 
with the Office of Public Health, the Children's Health Fund and 
others. The Children's Health Fund has provided us with additional 
testers and we have recently been offering this testing to concerned 
families who have not yet had their trailers tested by the CDC or 
others.
    I was contacted first in late summer/early fall of 2007 by 
representatives from the CDC. One gentleman called me to give me the 
contact information for Allison Stock, Ph.D., MPH, Team Leader, Air 
Pollution Team, CDC/NCEH. I also spoke on a number of occasions with La 
Freta Dalton, Senior Health Communication Specialist, CDC/ATSDR, and 
participated in a phone conference with CDC representatives regarding 
their upcoming study. In the fall of 2007, Allison Stock and I 
exchanged a number of e-mails and attempted to arrange a phone 
conference regarding CDC's contract with FEMA to test occupied travel 
trailers but I do not believe we ever actually spoke in person.
    ATSDR's October 2007 Update and Revision of the February report on 
Formaldehyde Sampling of FEMA Temporary-Housing Trailers clarified that 
``the exposure scenarios examined by the sampling were not intended to 
represent those that people living in trailers would experience,'' and 
concludes that ``long-term exposures, even at lower level increase the 
possibility of cancer or reproductive or developmental toxicity'' and 
removed language defining any set ``level of concern.'' This update 
also mentions concerns of CDC/NCEH, ATSDR and EPA representatives as 
early as July 2006 that the study requested by FEMA ``could not be 
generalized and applied to occupied trailers in the Gulf region.''

Conclusions

    The Committee asked me to address, ``what do (I) believe the 
Federal Government, particularly the ATSDR, could have or should have 
done regarding the formaldehyde issue.''
    First, I am glad that FEMA acknowledged that recreational vehicles, 
such as the travel trailers used so extensively post-Katrina, are not 
regulated by HUD and are designed for short-term recreational use and 
are not intended for housing. FEMA has accordingly announced that it 
will no longer offer recreational vehicles as a temporary housing 
option after future disasters. I recommend that in the aftermath of 
future disasters, FEMA will more actively involve local government, 
non-profits, and family and child advocates in planning safe and 
appropriate housing options for displaced families.
    Second, I am surprised that the CDC waited so long to initiate 
formaldehyde testing of occupied travel trailers given the stated 
concerns of some of their own representatives as early as July 2006 and 
given the reports by ATSDR in February of 2007 that cited formaldehyde 
levels greatly above their own defined ``minimal risk level'' for long-
term exposure. At the recent public forum in Baker, Louisiana, on CDC's 
recently released study, I was shocked by the statement of the 
representative present that the CDC was not aware there was a potential 
problem with elevated levels of formaldehyde in the travel trailers 
until July of 2007.
    Third, formaldehyde exposure is just one of the many problems being 
faced by families displaced by Hurricanes Katrina and Rita. People are 
still struggling with fractured support systems, loss of property, 
sense of self, income, community and loved ones, stigma, unstable 
living situations, transportation problems, and difficulty accessing 
quality health care and child care. It is unacceptable that many 
families must endure uncertainty and concerns regarding possible short 
and long-term effects of on-going exposure to elevated levels of 
formaldehyde in addition to the daily anxieties and stresses of 
displacement.
    Fourth, as FEMA works with local agencies to find more appropriate 
and safe housing solutions for families, we recommend that coordinated 
efforts be made to prevent any further disruption and endangerment of 
families. While priority is being placed on removing families from 
their potentially toxic living environment, consideration must also be 
given to families' very real educational, employment, child care, 
health care and transportation needs. Children and families must not be 
forced to move from one difficult environment to another.
    Finally, I recommend that the CDC consider expanding their proposed 
child health study to a wider sample of children displaced/affected by 
Hurricane Katrina and look forward to contributing to such a study in 
anyway I might be able. Thank you.

References

Agency for Toxic Substances and Disease Registry, Formaldehyde (HCHO) 
        CAS 50-00-0; UN 1198, UN 2209 (formalin).

Agency for Toxic Substances and Disease Registry, Health Consultation, 
        Formaldehyde Sampling at FEMA Temporary Housing Units, Baton 
        Rouge, LA, February 1, 2007.

FEMA: Statement of Administrator R. David Paulison, HQ-No: 07-143, July 
        20, 2007.

    FEMA: Interim Direction on use of Temporary Housing Units, July 31, 
2007.

FEMA: CDC Releases Results of Formaldehyde Level Tests, Release Number: 
        HQ-08-021, February 14, 2008.

Flynn, Elizabeth, MD; Matz, Paul, MD; Woolf, Alan, MD; Wright, Robert, 
        MD, MPH; Indoor Air Pollutants Affecting Child Health, American 
        College of Medical Toxicology, November 2000.

Homeland Security: Background Health Information on Formaldehyde, July 
        23, 2007.

Mendell, M.J., Indoor residential chemical emissions as risk factors 
        for respiratory and allergic effects in children: a review, 
        Indoor Air 2007:17:259-277.

Sierra Club: Testing By Sierra Club Shows Abnormal Levels of 
        Formaldehyde in FEMA Trailers, May 16, 2006.

U.S. Department of Health and Human Services, Public Health Service, 
        Agency for Toxic Substances and Disease Registry, An Update and 
        Revision of ATSDR's February 2007 Health Consultation: 
        Formaldehyde Sampling of FEMA Temporary-Housing Trailers, Baton 
        Rouge, LA, September-October, 2006, October 2007.

                      Biography for Heidi Sinclair

Post Graduate Medical Training

Louisiana State University--July 2000-July 2004
New Orleans, LA
Residency, Internal Medicine/Pediatrics

Medical Education

Tulane University School of Medicine--Aug. 1996-May 2000
New Orleans, LA
MD

Post Graduate Education

Tulane University School of Public Health--June 1997-May 2000
and Tropical Medicine
New Orleans, LA
MPH, Tropical Medicine

Undergraduate Education

University of Pittsburgh--May 1993-May 1995
Pittsburgh, PA
Post-Baccalaureate

University of California, Berkeley--Aug. 1987-May 1990
Berkeley, CA
BA, South Asian Studies

Medical Licensure

Louisiana State Board of Medical Examiners
Medicine and Surgery L#025106

DEA #BS8964505

Board Certification Pediatrics--Oct. 2004

Board Certification Internal Medicine--Dec. 2006

Work Experience

Louisiana State University--June 2006-present
Health Sciences Center
Baton Rouge, LA
Department of Pediatrics
Assistant Professor
    As Medical Director of the Baton Rouge Children's Health Project, 
responsible for direct clinical care of children and families served by 
the medical mobile unit as well as supervision of staff and 
coordinating mobile medical and mental health services as part of 
LSUHSC Department of Pediatrics and the Children's Health Fund's 
national network of mobile pediatric care providers.

Louisiana State University--Aug. 2004-June 2006
Health Sciences Center
New Orleans, LA
Department of Pediatrics, Ambulatory Division
Assistant Professor
    As Medical Director of Bridge City Center Youth, responsible for 
clinical care of youth in custody of Bridge City Center for Youth, 
supervision of 24 hour on-site clinical nursing services, supervision 
of on-site pharmaceutical and dental service and coordinating youth 
care with Office of Youth Development. Other clinical responsibilities 
have included providing clinical services and Pediatric resident and 
student supervision at UNO Student Health Clinic, New Orleans 
Adolescent Hospital and Level 1 Well-Baby Nursery at University 
Hospital, LSUHSC-New Orleans. Other administrative responsibilities 
have included assisting in developing lectures and rotations in 
conjunction with the Adolescent Medicine division.

Louisiana State University School of Public Health--Oct. 2004-June 2006
New Orleans, LA
Adjunct Assistant Professor
Juvenile Justice Program
Medical Director, Bridge City Center for Youth
    Participation in on-going program evaluation and monitoring, 
education and program development in conjunction with LSU Juvenile 
Justice Program.

Americorps/VISTA--Aug. 1995-Aug. 1996
Beaumont, Texas
Project Supervisor, Henry's Place
    Implemented community project to set-up drop-in day center for 
mentally-ill homeless, recruited, trained and managed volunteers, 
counseled and provided referrals to center guests, supervised daily 
activities of Henry's Place.

University of Pittsburgh--1993-1994
Athletic Support Services
Pittsburgh, PA
    Math and Science Tutor

Caring Teachers, English Arts--1992-1993
Makuhari, Japan
    Developed curriculum, taught conversational English to children and 
adults using creative and interactive methods.

Transworld Teachers--1991
San Francisco, CA
    Trainee, Student Teacher

Volunteer Experience

Common Ground Clinic--Oct. 2005-May 2006
Clinical Care Provider
    After hours clinical service and supervision of volunteer medical 
service providers: nurses, medical students and nurse practitioners.

Covenant House Student Clinic--Aug. 2004-June 2005
Staff MD
    Oversight of LSU medical student volunteer adolescent medicine 
clinic in rotation with fellow LSUHSC Pediatric faculty.

Community Medicine Interest Group--1997-2000
Co-Founder, Treasurer
New Orleans, LA
    Sponsored talks by representatives from Department of Health and 
Human Services, Medicaid/Medicare, Health Care for the Homeless, St. 
Thomas Clinic, Adolescent Drop-in Center and on loan repayment, 
alternative medicine, midwifery, HIV, prison health care, and 
international medicine.

Sierra Club, Inner City Outings--1996-1999
Trip Leader, Volunteer Recruitment
New Orleans, LA
    Organized and led outdoor trips for urban youth in association with 
Gert-Town Resource Center and the Pediatric AIDS Program. Fundraising.

New Orleans Center for Science and Math--1996-1997
Math and Science Tutor
New Orleans, LA
    Participated in Saturday morning tutoring program for high school 
students from New Orleans Center for Science and Math.

Western Psychiatric Institute and Clinic--1993-1994
Remedial Math Tutor
Pittsburgh, PA
    Taught basic money management and math skills to clinic 
outpatients.

Calcutta Rescue--1993/1988
Clinic Volunteer
Calcutta, India
    General medical assistance.

Research Experience

Tulane Infectious Diseases Section--1997-1999
Student Researcher
New Orleans, LA
    In association with Health Care for the Homeless: to document the 
prevalence of tuberculosis infection and active disease, the 
effectiveness of a centralized directly observed preventative treatment 
(DOPT) program and factors related to adherence to DOPT.

University of Pittsburgh, Department of Biology--1994-1995
Student Researcher
Pittsburgh, PA
    Research to identify genes involved in growth of Mycobacterium in 
order to provide new targets for anti-mycobacterial drug design.

Publications

Building Integrated Mental Health and Medical Programs for Vulnerable 
        Populations Post-Disasters: Connecting Children and Families to 
        a Medical Home, Pre Hospital Disaster Management, Jan. 2008.

Directly observed preventative therapy at a TB clinic for the homeless 
        (abstract). H. Sinclair; R.W. Little, MD; N.E. Hyslop, MD; R. 
        Mera, Ph.D. Journal of Investigative Medicine 47, 111A, 1999.

Honors/Awards

Adopt-A Student Scholarship--1996-2000

MD/MPH Combined Degree Fellowship--1996-2000

Dean's Award for Excellence in Research and Presentation by a Medical 
        Student--1998

Novartis Community Service Award--1997

Recent Training

Center for Mind-Body Medicine--Jan. 2007

Language Fluency

    French, Spanish, Hindi, Japanese, American Sign Language

    Introductory level proficiency

    Chairman Miller. Thank you. Neither the Chair nor the 
Ranking Member set a good example in staying within the five 
minutes, and we will be somewhat indulgent, but we want to bear 
in mind that there is at least a five-minute suggestion of the 
limit of the oral testimony.
    Mrs. Huckabee.

 STATEMENT OF MRS. LINDSAY HUCKABEE, RESIDENT OF FEMA-PROVIDED 
MOBILE HOME IN KILN, MISSISSIPPI, FROM OCTOBER, 2005 TO MARCH, 
                              2008

    Mrs. Huckabee. I would first like to thank the Committee 
for bringing this up and Congress and holding somebody 
accountable for what has been going on.
    My name is Lindsay Huckabee. I am not an expert on 
formaldehyde. I am not a scientist. I am a woman, a wife, and a 
mother, who spent countless hours dealing firsthand with the 
effects of formaldehyde.
    On August 29 of 2005, our apartment was destroyed along 
with all its belongings. We contacted FEMA and were told that 
we qualified for their housing, temporary housing program. We 
received a trailer in December of 2005. It was a single-wide 
mobile home, not a travel trailer like many people believe.
    Whenever we first entered it, we noticed that there was a 
real strong, offensive smell. We had sinus issues going on. My 
six-year-old immediately started having nosebleeds, along with 
my four-year-old. In the 29 months since we received our first 
FEMA trailer, our family has suffered many health issues. Four 
of my five children have been treated for asthma. Four of them 
are currently on prescriptions for breathing treatments, none 
of which were asthmatic before we moved into the trailer. My 
husband and I have allergy symptoms, sinus symptoms, and we 
have been tested for allergies and nothing shows up on a test.
    My husband had a tumor in his soft pallet that was removed. 
It was considered non-cancerous but still malignant because of 
its rate of growth. Our ear, nose, throat doctor feels that 
formaldehyde could have been a contributing factor to this. 
While it cannot be proven, he said that he will make a note of 
it for further study.
    My daughter, Lelah, was four when we moved into the 
trailer. She is now six. She developed moderate asthma. She has 
had sinus infections severe enough to require two surgeries. 
Whenever I ask the ENT if these surgeries were really necessary 
because they were very invasive, he asked me if I could be out 
of that trailer in 30 days or less. I told him that, no, I had 
nowhere to go. He said, then she must be put through this 
because he fears that her nasal passages would not be wide 
enough to exchange air.
    We had formaldehyde tests done on our trailer in April of 
2007. Our first trailer was a Fleetwood home built in November 
of 2005. The test came back at 0.18 parts per million, which is 
above the 0.1 believed to be harmful to humans. There is no way 
to know how high it was in the 16 months we lived there before 
having it tested. Since FEMA and the CDC suggests that opening 
windows will out-gas the fumes and lower the level, I have to 
believe it was much higher, since we did this repeatedly.
    We reported our findings to FEMA. We were told that we 
would be provided with a replacement unit that would be 
formaldehyde free. The second trailer was a 2005 model built by 
Destiny Homes. We had a formaldehyde test done on it before we 
moved into it, found that its levels were 0.018 parts per 
million. It was lower than the ones that we had received but in 
researching I found that 0.008 is what is considered safe for 
long-term use. This was still above that. Whenever I informed 
FEMA of our new findings, they said it is lower than the one 
you had before so we are good, right?
    I testified in a hearing in Washington, D.C. in July of 
2007, regarding the FEMA and the formaldehyde issue. Whenever I 
got back, we received a pamphlet saying that they were working 
with the CDC to find safe levels. When I called FEMA to the 
help number they gave us, she told me I needed to call the CDC 
to find out what was a safe level of formaldehyde. We called 
the CDC number that was provided by FEMA. First we were told to 
call FEMA back, the CDC wasn't handling that. After insisting 
that I had already called FEMA and were told to call the CDC 
number, I was transferred to six different people, none of 
which were willing to give me a name or an employee ID number. 
Each one told us they knew nothing about formaldehyde, that 
they didn't know anything about any levels, and one of them 
even told us she didn't know anything about working with FEMA 
on this. So whenever we got off the phone we were just as 
confused as we were in the beginning.
    I was able to meet with some of the CDC directors or some 
of the CDC employees at a town meeting held. I was told by one 
of them they knew nothing about the formaldehyde until after 
the July, 2007, hearing. I find this really hard to believe 
considering my own pediatrician had spoken with the CDC about 
doing a child health study.
    We went back and forth with the CDC trying to get a safe 
number to find out, you know, we were running air purifiers, 
trying to find out if our trailer was, indeed, safe. We saw a 
decrease of symptoms once we had the air purifiers running. We 
were told that there is no safe level of formaldehyde for 
living in 24 hours a day.
    I feel like since the CDC and FEMA and the ATSDR all knew a 
year in advance from today about the formaldehyde in the 
trailers, I feel like essentially we were lab rats. We were put 
in this situation, we were exposed to this, and seeing as this 
large group of scientists knew about it, it seems like they 
should have at least been doing studies to find out what the 
effects were. This is not a new chemical. It has been around, 
used in everything for decades, if not longer. I think that it 
is a shame that this high-tech agency has no more information 
on this than they do have.
    [The prepared statement of Mrs. Huckabee follows:]
                 Prepared Statement of Lindsay Huckabee
    I would like to start by thanking the Members of this Congressional 
Committee for taking the time to address this issue and for allowing me 
the honor of coming before you to speak. My name is Lindsay Huckabee 
and I currently am currently living in Diamondhead, Mississippi in a 
hotel with my husband and our five children.
    On August 29, 2005, our apartment and all of its contents were 
destroyed by Hurricane Katrina. We contacted the Federal Emergency 
Management Agency (FEMA) and were granted immediate assistance. In 
early October, we received a travel trailer to use as a temporary 
shelter. We were unable to stay in the travel trailer because of the 
many maintenance problems it had. After six weeks of no response from 
the maintenance department, we contacted FEMA about a replacement unit. 
We were told that we qualified for a single-wide mobile home because of 
our family size so we cleared a site and provided septic, water and 
power to the site at our expense. We met all of the requirements and 
the trailer was delivered December 14, 2005. We could smell something 
in the trailer as soon as we entered and it made our noses, eyes and 
throats burn, but we thought it was normal for a new trailer to smell 
this way. We had no idea that we were moving into a home that would be 
making our family sick. We aired out the trailer and, eventually we 
became accustomed to the smell and did not notice it unless we were 
gone for a day or more.
    In the twenty-nine months since we received our first FEMA trailer, 
our family has suffered many health issues. Four of my five children 
have been treated for asthma and all four of them have current 
prescriptions for breathing treatments. All five children, my husband 
and I have allergy and sinus symptoms with no positive allergen that 
shows up on a test. We all keep the ``allergic black eyes;'' that is 
what doctors call the purple circles under our eyes that give us a 
constant tired and sick look.
    My husband has been on a daily sinus and allergy medication, had a 
tumor removed from the soft pallet of his mouth, and been on 
antibiotics about every other month. Our Ear, Nose and Throat doctor 
(ENT) said that while he could not be sure that the formaldehyde caused 
the tumor, it was in a location he had never personally seen before and 
he would not rule it out as it is known to cause cancer of the nasal 
passages and lungs.
    My daughter Vicki is 13 years old and has had a sore throat off and 
on since moving into the first FEMA trailer. Vicki keeps mild 
congestion in her sinuses and has been on antibiotics several times, 
but has never been hospitalized.
    My daughter Caitlin will be nine this month, she has had sinus 
infections, pneumonia, asthmatic bronchitis, sore throat, nosebleeds, 
headaches and asthmatic symptoms. Caitlin is currently on a daily 
allergy medication and inhaled asthma medication as needed. Prior to 
living in the trailers Caitlin had never been treated for any breathing 
problems. Caitlin has had many x-rays and been on antibiotics again and 
again, but she has only been hospitalized once.
    Lelah is six years old and since moving in to our first FEMA 
trailer she has developed moderate asthma and has also had sinus 
infections severe enough to need an operation to widen her sinus 
passages. Lelah's doctor said that with the sinus tissue staying 
inflamed from the constant irritation, there was nowhere for the sinus 
fluid to drain. Lelah has had pneumonia, ear infections, throat 
infections, asthmatic bronchitis, nosebleeds, headaches, two MRIs and 
has been put under for surgery four times. Lelah is currently on three 
daily medications with two more as needed. In the past Lelah has been 
on as many as eight daily medications at one time and she has been 
hospitalized three times.
    Steven is four years old and has been pretty fortunate health-wise. 
Steven is on a daily allergy medication and he has had asthmatic 
bronchitis, pneumonia, sinus infections and nosebleeds. Steven has also 
been treated with breathing treatments for asthma. Prior to living in 
the FEMA trailers Steven had never had breathing problems of any kind. 
Steven has only been hospitalized once.
    Michael is two years old and he was born prematurely after we moved 
into our FEMA trailer. Michael has had sinus infections off and on 
since he was six days old; he has also had asthmatic bronchitis, 
pneumonia, laryngitis, only a few nosebleeds and undergone cardiac 
testing because he occasionally turns blue for an unknown reason. 
Michael is currently on two daily allergy medications, a nasal steroid, 
and antibiotics for the sixth strait week. Michael has been 
hospitalized three times.
    I have had migraine headaches, sinus infections, throat infections, 
bronchitis, and sleep deprived. My doctor has given me sleeping 
medication; muscle relaxers and we have spoken about anti depressants 
to handle the stress of taking care of sick children while I myself am 
sick too. I decided against the anti depressants because while I am 
stressed, I don't feel like I am depressed and I don't need anything 
that would alter my thinking.
    Were all these caused by formaldehyde? I believe that they were 
either caused by it or made worse by it. Everywhere I look for an 
answer I come up empty. No one seems to know enough about it to say for 
sure. We know that it CAN cause all these and many more health effects. 
I don't think that it is just by chance all my children were healthy in 
the years before the hurricane and once getting into trailers changed. 
We have no way of knowing what Michael's health would have been like 
were he not born into a FEMA trailer.
    I was told by our E.N.T. that we needed to get out of the trailer 
as soon as we could. He had many repeat patients with the same symptoms 
all living in FEMA trailers. He said that there were chemicals that 
could be making my children sick. Both Lelah and Michael have been to 
an Allergy and Asthma specialist. He has done allergy test and found 
nothing. He said that there must be exposure to some sort of irritant 
rather than an actual allergy to something. Then he asked if we were in 
a FEMA trailer. He too had seen an increase of patients with inactive 
or mild asthma having more severe problems upon moving into these 
trailers. .
    After months and months of office visits and phone calls, I was 
frustrated and upset. Before moving into the FEMA trailer, I can't 
remember going to the doctor other than for well-child checks and a few 
times with Lelah when she was very young. To date I am still at the 
doctor's office or calling just about every week. Our pediatrician, Dr. 
Needle, told me that there seemed to be a trend among patients in FEMA 
trailers and increased office visits with allergy-like symptoms. He had 
been doing some research and thought that formaldehyde may be our 
problem. It was through him that a Sierra Club member contacted me 
about a formaldehyde test to see if we were living in levels that
    could be dangerous. I really did not want this to be the answer, 
since we had nowhere else to go.
    We had a formaldehyde test done on our trailer in April of 2007. 
Our first trailer was a Fleetwood home built in November of 2005. The 
test came back as 0.18 ppm, which is well above the 0.10 ppm believed 
to be harmful to humans according to one agency. There is no way to 
know how high it was in the 16 months we lived in the trailer prior to 
having it tested. Since FEMA suggested that ``opening windows would 
out-gas the fumes and lower the level,'' I have to believe that the 
level was much higher when we moved in. When we told FEMA about the 
test, we met much opposition. FEMA representatives were rude when I 
called them. I was forced to call more than five different 
representatives, and my request for a new mobile home was lost twice 
before anything was done to help solve my problem. Finally, FEMA agreed 
to replace our mobile home. We were told that the new trailer would be 
``formaldehyde free.'' It was supposed to be a used FEMA trailer built 
in 2005 by Destiny. We had a formaldehyde test done on the new FEMA 
trailer before we started to move anything into it. An inspector from 
FEMA saw the tester hanging and asked what it was. When I told him it 
was used to test for formaldehyde, he said that people were claiming to 
have high formaldehyde levels so they could get bigger and better 
trailers. When I asked if FEMA had done test to find this out, he said 
NO. The test on the new trailer came back at 0.108 ppm, which is still 
above the level believed to be harmful, but lower than the last 
trailer. When we called FEMA to tell them what the results were, the 
lady said, ``it is lower than the other trailer, so we are good, 
right?''
    After returning from Washington DC in July of 2007, we received 
information from FEMA on formaldehyde. The information sheet gave a 
number for FEMA to call for more details on what levels were acceptable 
and what the long-term health effects would be. The number proved to be 
useless. After talking to the woman at FEMA about our symptoms and our 
concerns we were told that it did not sound like we had a problem with 
formaldehyde. We had already had a test done on our trailer so we knew 
what our problem was. We were told that we did not qualify for the 
formaldehyde-testing program. We then asked what level was considered 
safe for us to live in and her response was ``I don't know you have to 
call the CDC for that information.'' We called the CDC number we were 
given and it proved to be as useless as the FEMA number. First we were 
told to call FEMA. After insisting that we had already called them and 
been told to call the CDC number, we were transferred to six different 
desks of people in different departments and levels of management where 
the final answer we received was that we needed to talk to FEMA about 
our concerns. The CDC representatives said that they did not have 
information on levels of formaldehyde and what was safe and what was 
not. We were told that the employees could not give us their names or 
even an employee number therefore there was no way for us to follow up 
on the conversations or have anyone to hold accountable for the lack of 
information.
    I was able to meet with several CDC officers at a meeting held in 
Bay St. Louis, Mississippi on March 6th 2008. I found them very willing 
to answer our questions about the formaldehyde and possible effects on 
people. I was surprised to learn how little is known about formaldehyde 
and long-term effects. While searching for the magic ``safe'' level of 
formaldehyde, we found several different numbers through the Internet. 
The level of 0.1 ppm, the most commonly accepted safe limit, was not 
intended to gage how safe exposure was for children, people with 
breathing problems, or even healthy adults for longer than the average 
workday. According to the CDC representative I spoke with at the 
community meeting that was held to answer questions about formaldehyde, 
there is ``No safe level for exposure in a residence.'' I was told at 
the meeting that CDC was not aware of the issue until after the July 
17th hearing last year. I personally find this hard to believe. It is 
my understanding that the ATSDR did the original testing for FEMA and 
OSHA when they wanted to know what the levels were for employees and 
how to bring them down. They reported the levels to FEMA and agreed to 
not share the information. They even sent a revised letter making sure 
the FEMA knew that there was no known SAFE level for people to live in 
since formaldehyde is a know carcinogen. ATSDR is a part of CDC. 
According to everything I can find on the CDC and ATSDR, both claim to 
exist to protect us from toxic substances--like formaldehyde. What I 
can't understand is, how an agency set in place to protect the people, 
failed to let the people know about this problem. I did not think it 
was there to help the government find out how much it messed up and 
then help them keep quiet about it. I know that at least one 
pediatrician contacted the CDC to find out about starting a study and 
researching what was going on down here with the kids in the FEMA 
travel trailers and mobile homes.
    There is now evidence that FEMA knew about the formaldehyde as 
early as December of 2005, which is the same time that I get my first 
mobile home. They covered up the problem, hid behind lawyers and made 
sure they could not be held responsible. FEMA made people feel like 
they were being picky, and ungrateful for mentioning the illnesses and 
requesting assistance. While FEMA was covering their behinds, my 
children were staying sick. I blamed myself for not doing enough to 
keep them well, but when FEMA took on the role of landlord for the 
thousands of people, they took on the responsibility to provide a safe 
and healthy living environment for these people.
    While no one should have been exposed to a toxin for over two 
years, I think that the CDC should take advantage of this disaster and 
learn everything they can about formaldehyde. It is bad enough that was 
question every symptom and the length of every illness wondering if we 
would have gotten sick in the first place, or why all the other kids 
that caught this cold at the same time have been done with it for 
weeks, but the fact that NO ONE can tell us how long the effects of 
formaldehyde will stay with us, is horrifying. This is not a new 
chemical. There should be more information on it. When the CDC and 
ATSDR first knew that people were living in these levels and there was 
even a possibility that they were getting sick, they should have 
stepped in and found out what was going on. Two years later, after so 
many people have moved on, some even died in these trailers, it may be 
too late to know the full extent of what effect formaldehyde has on 
people. There were people of every age, race, and economic status in 
these trailers. I fell like after it was fist known that the 
formaldehyde was a problem, we were lab rats subjected to the toxin, 
but no one wanted to record the results.

    Chairman Miller. Thank you, Mrs. Huckabee.
    Ms. Gillette.

    STATEMENT OF MS. BECKY GILLETTE, FORMALDEHYDE CAMPAIGN 
DIRECTOR, SIERRA CLUB GULF COAST ENVIRONMENTAL RESTORATION TASK 
                             FORCE

    Ms. Gillette. My name is Becky Gillette, and I am 
Formaldehyde Campaign Director for Sierra Club.
    After Katrina it became common knowledge that the FEMA 
trailers had serious air quality problems; people complained 
about burning eyes, respiratory problems, rashes, headaches, 
even bloody noses. Sierra Club began formaldehyde testing in 
April of 2004, and continued through 2007. What we found was 
that 61 out of our 69 tests, 88 percent, were over the 0.1 ppm 
limit that EPA had set. And when you use the much lower levels 
recommended by the ATSDR recommendations, not a single trailer 
was safe.
    We tested 17 different brands of trailers and all had at 
least one high test, and there were three deaths of people in 
the trailers that we tested that we believe could have been 
caused by the formaldehyde.
    Finally, in October of 2006, over a year after Katrina, 
many people had been in the trailers for over a year, EPA 
tested the trailers, but there was delay after delay in 
releasing the results of those. FEMA has asked ATSDR to 
reevaluate those test results. I also contacted ATSDR several 
times, and no one ever got back to me.
    When it was finally released, the ATSDR health consultation 
was a huge disappointment. The report said that formaldehyde 
averaged 1.2 parts per million at the beginning of the test and 
dropped to 0.3 ppm after four days of constant ventilation. 
This was shocking because 1.2 parts per million is extremely 
high, and I found it incredible that ATSDR could say 0.3 parts 
per million was below the level of health concern. At that 
level most people that walk into a trailer will experience 
immediate distress, and ATSDR's own standards were many 
magnitudes lower. ATSDR gave completely erroneous advice, 
covering up this problem with the health of tens of thousands 
of families at stake.
    Finally, in October of 2007, over two years after Katrina, 
a year after the EPA testing, ATSDR revised its health 
consultation to more accurately report the problem, but that 
was two years that women were living in these trailers, getting 
pregnant, having miscarriages, having still births, and losing 
babies to SIDS. Adults and children were getting cancer. People 
with asthma were literally finding it difficult to breathe, and 
mothers were getting up in the middle of the night to give 
breathing treatments to their children.
    I recall calling Earl Shorty to give him the results of 
their FEMA trailer testing. His wife, Desiree Collins, was 
coughing so bad in the background that it was painful to hear 
her. A few days later she passed away. One woman I tested, 
Theresa Coggins, a diabetic, went into a coma for eight days, 
running up a $100,000 hospital bill. Another woman, Christine 
Lawrence, told me that her head felt like a balloon that was 
about to burst. But did FEMA and ATSDR care? No. There was a 
callous disregard for the health of the trailer residents, and 
there was an appalling lack of urgency.
    But this negligence is only the tip of the iceberg. 
Contaminated communities often feel let down by ATSDR. Attorney 
Monique Harden, coauthor of a report that details the 
injustices of ATSDR in Mossville, Louisiana, says, ``Any help 
that you can provide in getting the Science and Technology 
Committee to connect the dots between ATSDR's role in the toxic 
FEMA trailers with its ``public health'' work in communities 
plagued by pollution would be greatly appreciated. The problem 
that we have is that ATSDR's conduct in the FEMA trailer crisis 
is not an aberration but is consistent with the way it has 
always worked.''
    Sal Mier, who retired from the CDC as Director of the 
Division of Prevention in the Dallas Regional Office wrote, 
``We strongly believe there is a national pattern in the manner 
in which ATSDR conducts their consultations and assessments and 
that this pattern could result in great risks to the public 
health of many communities. It is our perception that ATSDR 
embodies a philosophy and consequently a methodology and 
guidance this is designed towards the non-identification or 
trivialization of public health problems.''
    Our tax dollars are being used to lie to us about the 
impact of toxic pollution. The harmful and inaccurate advice 
regarding formaldehyde in FEMA trailers is just the latest 
example. Congress could help by calling for an independent 
National Academies of Science investigation into the process by 
which health consultations are developed and communicated.
    Katrina was ``the perfect storm'' to expose formaldehyde 
poisoning that has been allowed in our buildings now for 
decades. FEMA just purchased what was available to sell for the 
general public. There are many other people other than disaster 
victims who are at risk here. The CDC needs to take immediate 
steps to do a nationwide health survey and consultation 
regarding formaldehyde and building materials. If there is one 
benefit that can come out of all the misery and death that has 
resulted from formaldehyde and FEMA trailers, let it be that 
the citizens of the U.S. are finally afforded the same 
protections that are provided under law in Europe, Japan, and 
even China.
    Thank you.
    [The prepared statement of Ms. Gillette follows:]
                  Prepared Statement of Becky Gillette
    My name is Becky Gillette, Formaldehyde Campaign Director for 
Sierra Club. After Katrina, it soon became common knowledge that the 
FEMA trailers being used to house people who had lost their homes had 
serious air quality problems. People reported that being in the 
trailers caused burning eyes, respiratory problems, coughing, 
headaches, rashes and even bloody noses. Many people had what came to 
be known as ``trailer cough,'' a cough that wouldn't go away.
    After Paul and Melody Stewart of Bay St. Louis, MS, found high 
levels of formaldehyde in their FEMA trailer in early March 2006, 
Sierra Club funded work to test FEMA trailers to see how widespread the 
problem was. We began those tests in April of 2006 and continued 
testing later that year and again in 2007 because FEMA kept saying that 
all people had to do was ventilate the trailers and the problem would 
go away.
    What we found was very alarming. Overall, 61 out of 69 tests--or 88 
percent--were over 0.1 ppm.\1\ OSHA, EPA and other agencies all agree 
that health effects from exposure to formaldehyde may begin at 0.1 
ppm.\2\ When you use the lower limits recommended by the Agency for 
Toxic Substances & Disease Registry (ATSDR) for long-term exposure, not 
a single one of the trailers tested was in the safe range. The ATSDR 
Minimal Risk Levels is 0.04 ppm for 1-14 days exposure, 0.03 ppm for 
14-364 days exposure and 0.008 ppm for 365 or more days exposure.
---------------------------------------------------------------------------
    \1\ Sierra Club Fact Sheet ``Toxic Trailers? Tests reveal high 
formaldehyde levels in FEMA trailers.''
    \2\ National Cancer Institute Fact Sheet ``Formaldehyde and Cancer: 
Questions and Answers, http://www.cancer.gov/cancertopics/factsheet/
Risk/formaldehyde
---------------------------------------------------------------------------
    When we initiated testing, we suspected just a couple trailer 
brands had the problem. But out of 17 brands of trailers tested, all 
had at least one high test. And it was also alarming to us that there 
were three deaths of people in the trailers that we tested that we 
believe could have been caused by the formaldehyde. That is just the 
deaths we know of because it wasn't possible to keep up with all 69 
families tested because FEMA trailer residents are very migratory.
    Sierra Club did everything possible to publicize the high 
formaldehyde levels in the trailers that were being used at one point 
to house more than 100,000 families. There were numerous articles and 
television news programs on the issue, but FEMA continued to deny there 
was a problem and said people just needed to open their windows and let 
the campers' air out. At the same time people were moving out of their 
FEMA trailers to live in tents, storage sheds and even their vehicles 
because the formaldehyde was so bad. People were experiencing numerous 
health problems such as repeated respiratory infections, migraine 
headaches and cancer.
    Finally in September to October 7, 2006--more than a year after 
Katrina--EPA undertook testing of the trailers for FEMA. We were very 
glad that more expensive, extensive testing was being done to evaluate 
the problem since FEMA had discounted the Sierra Club testing. But we 
were extremely disappointed when there was delay after delay in 
releasing the results of the EPA testing. When we asked why, FEMA said 
the results were sent to the Agency for Toxic Substances and Disease 
Registry (ATSDR) for evaluation. I knew the test results had to be bad 
or FEMA would have announced them immediately. Four months after EPA 
did that testing, I sent a Freedom of Information Act request to get 
the EPA testing results, and started sending e-mails to a contact at 
ATSDR.\3\
---------------------------------------------------------------------------
    \3\ ATSDR e-mails between Becky Gillette and James Durant, 
February-May 2007.
---------------------------------------------------------------------------
    In an e-mail to James Durant, an environmental health scientist for 
the ATSDR, Feb. 27, 2007, I wrote: ``We have been very frustrated with 
the widespread poisoning of tens of thousands of people in FEMA 
trailers due to high levels of formaldehyde. FEMA and the (Mississippi) 
Health Dept. refuse to do anything about it. Would this be something we 
could request investigated by ATSDR? Any tips for us on how to do 
that?''
    Mr. Durant responded: ``I am sorry that it has taken a while to get 
back to you. My supervisor and I have been trying to track down who in 
CDC/ATSDR has been heading up this issue. This was not as straight 
forward as we thought it would be. We have found the person heading 
this up, but she is out of the office. Hopefully, we will be able to 
get an answer to you on what is going on with the formaldehyde soon.''
    I never heard anything back, and on May 7--seven months after the 
EPA testing was concluded--I once again wrote Mr. Durant and asked: 
``Did you ever find out who is handling the FEMA request for 
information from ATSDR regarding formaldehyde in FEMA trailers? FEMA 
just put out a release showing their testing showed very high levels of 
formaldehyde even after ventilation. But FEMA says that is below the 
ATSDR threshold, which is several times higher than the EPA and 
American Lung (Association) guidelines.
    ``I just tested a family with .32 ppm . . . they have spent over 
$700 on medical bills related to the toxic exposure. It is very wrong 
to suggest these levels--so strong they make your eyes burn--are 
acceptable.
    ``Do you have a contact at ATSDR on this?''
    Mr. Durant responded: ``So you are telling me that no one has 
contacted you regarding formaldehyde at all? When you contacted me, we 
attempted to have the person who is heading this up contact you. It was 
my understanding that you would be contacted. I will flag this issue 
and try to get someone to contact you that knows what is happening.''
    My response was: ``No, I never heard from anyone. ATSDR, we have 
been told, has been asked to give recommendations to FEMA. Ventilation 
simply doesn't work here in the summer as it is too hot and humid. If 
you do ventilate, the humidity can actually make out-gassing worse.''
    In early 2007 when I first contacted the ATSDR, the agency had 
already produced a Health Consultation. It was dated Feb. 1, 2007. But 
that information was not released to the public until months later and 
then the report went counter to the agency's own formaldehyde 
standards.
    When it was finally released, the ATSDR's Health Consultation was a 
huge disappointment. I'm quoting excerpts from a FEMA press release May 
4, 2007 titled FEMA Study: Ventilating Travel Trailers Can 
Significantly Reduce Formaldehyde Emission Levels:\4\
---------------------------------------------------------------------------
    \4\ http://www.fema.gov/news/newsrelease.fema?id=36010

         ``FEMA said today that its study of air samples collected from 
        travel trailers in the Gulf shows that formaldehyde emission 
        levels in the units can be significantly reduced through 
        adequate ventilation. The study involved collecting air samples 
        from 96 new, unused travel trailers from Sept. 19 to Oct. 7, 
---------------------------------------------------------------------------
        2006, at a staging area in Baton Rouge, La.

         ``The baseline for concentrations of formaldehyde in the units 
        averaged 1.2 ppm (parts per million) at the beginning of the 
        test. . . .According to the evaluation report provided to FEMA 
        by ATSDR, the average concentration of formaldehyde per day in 
        the units using open window ventilation dropped below 0.3 ppm 
        after four days of ventilation and remained low for the rest of 
        the test period. The level for health concerns for sensitive 
        individuals was referenced by ATSDR at 0.3 ppm and above.''

    This is shocking because 1.2 ppm is extremely high. I found it 
incredible that ATSDR could say that 0.3 ppm was below the level of 
health concerns. At that level, most people experience extreme 
distress. It was far, far too high. ATSDR's own standards are many 
magnitudes lower at 0.04 ppm for 1-14 days exposure and far lower than 
that for long-term exposure.
    In a nutshell, the formaldehyde levels with ventilation went from 
astronomical to extremely toxic and the ADSDR told the public: No 
problem! ATSDR gave completely erroneous advice. What ATSDR did was 
criminal negligence covering up this problem when the health and lives 
of tens of thousands of Americans were at stake.
    Finally in October of 2007 the ATSDR revised the February Health 
Consultation to more accurately reflect the scope of the problem. But 
that means it was one year between the time ATSDR was asked to evaluate 
the EPA test results and when the agency delivered the second Health 
Consultation that more accurately described the risks. That was one 
year of time where tens of thousands of families were exposed to this 
toxic gas. It was one entire year when women were getting pregnant and 
sometimes having miscarriages, stillbirths or losing their children to 
Sudden Infant Death Syndrome (SIDS). Children and adults were getting 
cancer. And people with pre-existing conditions like asthma were 
finding it literally hard to catch a breath. Mothers were getting up in 
the middle of the night to give breathing treatments to children.
    I had no sense that there was any bureaucrat in Atlanta or 
Washington who even had a clue the amount of suffering and illness that 
was resulting from this long-term exposure to a toxic gas. I recall 
calling to give the bad news to Earl Shorty in Baker, La. about their 
trailer's high formaldehyde levels. His wife Desiree Collins was 
coughing so bad in the background it was painful to hear her. A short 
time later she passed away.
    One woman I tested, Theresa Coggins, a diabetic, had gone into a 
coma for eight days, running up a $100,000 hospital bill. Another woman 
whose trailer tested high, Christine Lawrence, told me her head felt 
like a balloon that was about to bust.
    FEMA and ATSDR showed an appalling lack of urgency. There was a 
callous disregard for the health of FEMA trailer residents. I didn't 
get the sense there was anyone in FEMA or ATSDR waking up in the middle 
of the night worrying about families being poisoned. Instead, all we 
got was a cover-up and denial of the problem.
    If it was possible to file a malpractice lawsuit against a federal 
agency, the ATSDR would not only end up owing millions of dollars for 
harming the health of people, but it would lose its license to practice 
medicine.

Other concerns about ATSDR

    But the thousands of people who have suffered from this agency's 
negligence on formaldehyde are only the tip of the iceberg. For many 
years now the ATSDR has been called in when communities are concerned 
about health impacts from massive amounts of toxic pollution. 
Contaminated communities often feel let down by how little ATSDR 
studies can tell them about associations between millions of pounds of 
toxic releases and rampant illness and early death nearby. And they are 
frustrated by the long amount of time it takes for ATSDR to complete 
studies.
    I would like to introduce into the record a report that details the 
injustices of ATSDR in Mossville, LA.\5\ One of the authors of that 
report, attorney Monique Harden, wrote the following:
---------------------------------------------------------------------------
    \5\ ATSDR's Misinformation Campaign on Dioxin Exposures in 
Mossville, Louisiana, August 2007.

         ``Any help that you can provide in getting the Science & 
        Technology Committee to connect the dots between ATSDR's role 
        in the toxic FEMA trailers with its ``public health'' work in 
        communities plagued by pollution would be greatly appreciated. 
        The problem that we have is that ATSDR's conduct in the FEMA 
        trailer crisis is not an aberration but is consistent with the 
---------------------------------------------------------------------------
        way it has always worked.''

    The ATSDR has also suppressed a report on Great Lakes health risks 
showing people living in polluted areas around the Great Lakes face 
higher rates of lung, breast and colon cancer.
    Sal Mier, a concerned grandparent in Midlothian, Texas, who retired 
from the CDC as Director of the Division of Prevention in the Dallas 
Regional Office, says:

         ``We strongly believe there is a national pattern in the 
        manner in which ATSDR conducts their Consultations and 
        Assessments and that this pattern could result in great risks 
        to the public health of many U.S. communities. It is our 
        perception that ATSDR embodies a philosophy and consequently a 
        methodology and guidance that is designed toward the non-
        identification and/or trivialization of public health 
        problems.'' \6\
---------------------------------------------------------------------------
    \6\ Letter from Sal Mier to House Science and Technology Committee: 
ATSDR's Conduct with Public Health Consultations/Assessments, A 
Possible Systemic Nationwide Problem, Feb. 20, 2008.

    Mr. Mier says the most people who request Health Consultations end 
up wishing they hadn't. That is because ATSDR issues a report 
whitewashing any health impacts form the pollution, and it removes any 
leverage local communities had with the polluters. Mr. Mier says: ``It 
puts last nail in the coffin because it exonerates the polluter. I 
think there is a pattern nationally.''
    The Olympic Environment Council (OEC) is another environmental 
group that regretted ever petitioning for the help of ATSDR to assess 
the link between 67 years of releases of dioxin, PCBs, phthalates, 
heavy metals, and other contaminants released from a local chlorine 
dependent pulp mill in Port Angeles, Washington, and high incidences of 
illness in the community. In a letter to the ATSDR, Darlene Schanfald, 
Ph.D., OEC Project Coordinator, Rayonier Hazardous Waste Site Cleanup, 
said:

         ``There are so many flaws in this report that rather than 
        enumerating/citing each, the report can be summed up as a 
        corruption of science. Maybe even a corporate corruption of 
        science since it is evident the staff did not want to rule 
        against the polluter when there was substantial evidence to do 
        so.'' \7\
---------------------------------------------------------------------------
    \7\ Letter to Julie L. Gerberding, ATSDR Administrator, RE: FINAL 
PUBLIC HEALTH ASSESSMENT FOR RAYONIER, INC. MILL, PORT ANGELES WA--EPA 
FACILITY ID WAD000-490169, from Darlene Schanfald, Ph.D., OEC Project 
Coordinator, Rayonier Hazardous Waste Site Cleanup, Oct. 22, 2004.

    Numerous flaws in the ATSDR consultation were detailed in a report 
prepared by Dr. Peter deFur.\8\
---------------------------------------------------------------------------
    \8\ Comments of Dr. Peter L. deFur on behalf of the Olympic 
Environmental Council (OEC) on the Public Health Assessment for 
Rayonier Mill; Port Angeles, Clallam County, Washington; CERCLIS No. 
WAD000-490169, September 6, 2000.
---------------------------------------------------------------------------
    Even when the agency does find a link between pollution and health 
problems, it tries to shield industry. At case in point was an ATSDR 
investigation of DuPont Delisle on the Mississippi Gulf Coast, one of 
the largest sources of dioxin emissions in the country. After Katrina 
ATSDR did find dioxin levels in crabs can make them unsafe for 
consumption by girls and women of childbearing age. But ATSDR denied 
there was any link between the dioxin found in the crabs and DuPont, 
which is the only large industry on the Bay of St. Louis.

Conclusions and Recommendations

    These cases are all clear evidence of a pattern of ATSDR betraying 
the public's trust when doing public Health Consultations. Our tax 
dollars are being used to lie about the impact of toxic pollution. The 
harmful and inaccurate advice regarding formaldehyde in FEMA trailers 
is just the latest egregious example. At the end of the press release 
for the first formaldehyde Health Consultation, it says: ``ATSDR serves 
the public by using the best science, taking responsive public health 
actions, and providing trusted health information to prevent harmful 
exposures and diseases related to toxic substances.'' This mission 
statement is contradictory to the advice given in the first 
formaldehyde Health Consultation. Congress could help address this 
problem by calling for an independent federal National Academy of 
Sciences investigation of the process by which Health Consultations are 
developed and communicated.
    Now that the scope of the formaldehyde problem is apparent, 
immediate steps need to be taken to provide health care to the many 
thousands of families who have been sickened. Many of these families 
lost everything in the storms, and don't have health insurance. The 
government needs to set up free health clinics and work diligently to 
help physicians and other health professionals determine the best 
methods to treat the wide variety of health problems that have 
resulted. The Children's Health Care Fund has studied the health of 
residents of the FEMA trailers and determined there is an urgent need 
for a health care ``Marshall Plan'' to respond to an emerging 
humanitarian crisis in Louisiana and Mississippi.\9\ Sierra Club 
endorses this recommendation.
---------------------------------------------------------------------------
    \9\ The Recovery Divide: Poverty and the Widening Gap among 
Mississippi Children and Families Affected by Hurricane Katrina, http:/
/www.childrenshealthfund.org/whatwedo/operation-assist/pdfs/
TheRecoveryDivide<INF>-</INF>Full%20Report.pdf, February 2007.
---------------------------------------------------------------------------
    The CDC has already announced a study monitoring the health of 
children who lived in the FEMA trailers that will eventually be 
expanded to a study of the health of adults. This is badly needed and 
these studies can't end in a few months because the health effects of 
this exposure can be expected for the lifetimes of those people 
exposed. The CDC also needs to study mental heath as some professionals 
suspect the high rates of depression and suicide on the Gulf Coast 
could be linked to the toxic exposure.\10\
---------------------------------------------------------------------------
    \10\ Statement from Ph.D. Psychologist Dr. Lou Finkle of Gulfport, 
MS, March 24, 2007.
---------------------------------------------------------------------------
    Katrina was the largest natural disaster in our nation's history, 
and the formaldehyde in FEMA trailers was the second disaster that 
harmed the health of people far more than the original disaster. I 
strongly urge you to realize that the storm is not over. Katrina merely 
was a ``perfect storm'' to expose the formaldehyde poisoning that has 
been allowed in our buildings now for decades.
    ATSDR, FEMA and HUD are still not responding adequately to results 
that showed high levels of formaldehyde in RVs, trailers and other 
products that are sold to the general public. FEMA just purchased what 
was available for sale to the public. Manufacturers have said they 
didn't do anything different in manufacturing trailers for sale to FEMA 
than to the general public.
    The fact is that formaldehyde has been a big problem for many, many 
years. The CDC needs to take immediate steps to do a nationwide survey 
of how big the problem is not only in RVs and manufactured housing, but 
also in temporary classrooms that have tested high. We have even seen 
high formaldehyde levels in government office buildings such as one 
occupied by U.S. Rep. Diane Watson.\11\
---------------------------------------------------------------------------
    \11\ U.S. Rep. Diane Watson statement at formaldehyde hearing 
before U.S. House Committee on Government Oversight and Reform, July 
19, 2007.
---------------------------------------------------------------------------
    Many millions of Americans live in manufactured housing. A lot of 
people retire to live in a RV at least part of the year. With the 
declining economy, many people who are losing their homes are moving 
into trailers. At my blogsite www.toxictrailers.com many people have 
written about high formaldehyde levels in RVs, trailers, regular homes 
and offices. It isn't just victims of disaster who are at risk here. 
The CDC needs to immediately launch a nationwide investigation into 
formaldehyde levels in RVs, mobile homes, temporary classrooms and 
other housing that may be contaminated. It there is one benefit that 
can come from all the suffering resulting from formaldehyde in FEMA 
trailers, let it be that we finally get this toxic gas out of building 
materials providing the citizens of the U.S. the same protections 
provided under the law in Europe, Japan and even China.

                      Biography for Becky Gillette
    Becky Gillette is a free-lance writer/photographer and an 
environmental activist currently living in Eureka Springs, AR. She was 
living on the Mississippi Gulf Coast when Hurricane Katrina hit. After 
repairing flood damages to her home, she became aware of problems with 
formaldehyde levels in FEMA trailers. She received a grant from Sierra 
Club to organize a testing program for the trailers and publicized the 
results which showed about 90 percent of FEMA trailers have excessive 
formaldehyde levels.
    She launched the web site www.toxictrailers.com to publicize the 
problems, and helped organize a Congressional hearing on the subject 
that led to FEMA halting the use of the travel trailers. In 2007 she 
received an Environmental Hero Award from Louisiana Environmental 
Action Network recognizing her formaldehyde work. She is currently 
Formaldehyde Campaign Director for Sierra Club's Gulf Coast 
Environmental Restoration Task Force.
    Gillette's writing and photography have been published in about 50 
magazines and newspapers nationwide. Her article have appeared in 
Ladies Home Journal, Organic Gardening, Utne Reader, E, The 
Environmental Magazine, Builder, BioScience, In Business, Mississippi 
Business Journal, In Business and Furrow.
    Gillette was Chair of the Mississippi Chapter Sierra Club for five 
years, and in 2002 she received the National Conservation Achievement 
Award from National Wildlife Federation for communications. She has 
been named Mississippi 2008 Small Business Journalist of the Year by 
the Small Business Administration. She is currently Formaldehyde 
Campaign Chair for the Sierra Club Gulf Coast Environmental Restoration 
Task Force.

                               Discussion

                  ATSDR Response to Sierra Club Tests

    Chairman Miller. Thank you. We will now have our first 
round of questioning, and my hope is that this panel will be 
limited to one round of questioning because we have more to go. 
I can tell that none of you appear disappointed that there will 
only be one round of questioning from each of us.
    Ms. Gillette, you just testified about the Sierra Club's 
initial testing as early as April of 2006. You released those 
publicly, they were in the press. Did you get contacted by 
anyone at ATSDR, CDC, FEMA about the results of your test, 
about your test, and what they showed?
    Ms. Gillette. No. ATSDR, I just got the runaround from 
them. They kept saying on e-mail they would get back with me, 
and they never did. Finally over July, last July someone with 
NIOSH wrote and asked for the results of our testing, but we 
were never, you know, given the opportunity to tell them about 
the scope of the problem.
    And the thing that really bothered me is that I didn't feel 
like there was any bureaucrat that was actually coming and 
spending even 15 minutes in these trailers, let alone stay 
overnight in them and find out what it is really like to have 
to live with those kind of high formaldehyde levels.

                    Health Effects From Formaldehyde

    Chairman Miller. Okay. Mrs. Huckabee, I think that Ms. 
Gillette just said that she thought that there was a 
trivialization of health consequences. The ATSDR health 
consultation in February of 2007, described that results below 
the 0.3 level, parts per million, as being a nuisance affect. 
Would you describe the effect on your family?
    Mrs. Huckabee. If you consider nosebleeds, sinus 
infections, asthma attacks, repeat hospitalizations for 
pneumonia, asthmatic bronchitis, tumors, if you consider all of 
these minor nuisances, then I guess you could agree with it. I 
mean, after all, it could be worse, I suppose.
    Chairman Miller. And advised by our able staff that that 
was not actually in the written report, but that is based upon, 
the nuisance effect is based upon interviews with staff.
    Dr. Sinclair, I know if you have tens of thousands of 
Americans over the course of a couple of years they are going 
to have bad things happen to them. You heard Ms. Gillette 
describe deaths in the trailers. Do you concur that the 
formaldehyde exposure may very well have been a contributing 
factor in some of those deaths?
    Dr. Sinclair. I would say it very well may have been a 
contributing factor. You cannot prove cause and effects, but 
many of the symptoms that our family's children exhibited while 
common in a general pediatric population, are also associated 
with formaldehyde exposure.
    Chairman Miller. You described in your testimony the 
affects that, the health affects that may come from 
formaldehyde exposure. What did you observe personally in your 
treatment in seeing families that lived in those trailers?
    Dr. Sinclair. The travel trailers in our area may not have 
had as high levels of formaldehyde as those in the Mississippi 
Gulf Coast because most of them were put together before 
Katrina and not put together as quickly after Katrina as those 
in the Mississippi Gulf Coast. The symptoms that many of my 
patients were exhibiting were not as dramatic as many of those 
reported by pediatricians and families in the Mississippi Gulf 
Coast area, however, they were persistent and difficult to 
treat.
    What I am more concerned about are the possible long-term 
health affects of these families' exposure to formaldehyde over 
the past two and one-half years.

              Tracking Trailer Residents' Long-term Health

    Chairman Miller. And what do you think should be the--what 
should we do to track the health of those folks who have been 
in the trailers for health consequences? Should there be a 
continuing effort to pay attention to their--what happens to 
them medically?
    Dr. Sinclair. I believe so. First of all, families should 
never have been put in these travel trailers to begin with. 
They are not meant for living. They are not up to electrical 
standards. They have stoves that would explode. They are not up 
to storm standards. They are very small, 200 square feet.
    That being said, now that people have lived in these travel 
trailers for a year, two years, two and one-half years, I think 
it would be very beneficial to create a data bank to track 
families and children and to follow their long-term health and 
so if there is certain concerning symptoms, that future health 
care providers could be alerted to the fact that they had lived 
in the travel trailers and maybe have a little bit higher level 
of concern that some of the symptoms might not just be your 
general cold, asthma, allergies but maybe a symptom of 
something more concerning.
    Chairman Miller. Ms. Gillette, what effort do you think 
there should be to follow the longer-term health of the people 
in the trailers?
    Ms. Gillette. Well, I actually think it is not enough to 
follow their health, but you need to provide free health care 
to people that have been poisoned by their own government, and 
the problem is that many of these people are still struggling 
to get their lives back together. They lost everything in the 
storm. There is no affordable housing that you can get into. 
Rental rates have doubled. The government needs to get some 
sort of formaldehyde swat team together that really bones up on 
how do you treat people that are exhibiting the symptoms of 
formaldehyde poisoning. Because a lot of the health care 
providers don't know, and they are actually in some cases 
giving treatment that we think may be doing more harm than 
good.
    So we really need this concerted effort on training people 
that are specialists in treating families that have been 
exposed to formaldehyde this long. After people have been 
exposed to high levels of it, they become more sensitive. Many 
of them make get multiple chemical sensitivity. So there really 
needs to be some free clinics provided for these people, and, 
again, as far as tracking, I will just say one thing. Some of 
these people have moved all over the U.S., and it is going to 
be difficult to track them. But definitely it needs to be done 
and not just for children but also for adults.
    Chairman Miller. Thank you. As an example to the other 
Members of the Committee, I will limit my five minutes of 
questioning to six and one-half minutes.
    Mr. Sensenbrenner. For five minutes more or less.

                           Failings of ATSDR

    Mr. Sensenbrenner. It will be less. There are two aspects 
to this issue. One is the aspect of the fact that there have 
been people who have been exposed to unacceptably high levels 
of formaldehyde because the ATSDR did not do its job properly. 
The other issue to make sure that a catastrophe like this never 
happens again.
    And I think that this committee could probably be the most 
constructive in getting on the back of ATSDR to make sure that 
their medical and scientific review process passes the smell 
test. And this obviously did not pass that test because it 
certainly was not acceptable science and what is more 
problematical in my opinion is that the deficiencies in the 
ATSDR report should have been caught earlier on and were not.
    Now, this is not the only case where the ATSDR has not only 
dropped the ball but fumbled it in the end zone. And in my 
opening remarks I did refer to the issue of the public health 
implications of hazardous substances in 26 U.S. areas of 
concern in the Great Lakes. Let me say that there was a 
premature release of that report. The public health officials 
both in Wisconsin and Minnesota reviewed the prematurely-
released report and have sent letters to Dr. Howard Frumkin, 
who is the director of the ATSDR, stating that his report 
failed. And this is a little bit closer to home for me than the 
Gulf Coast is, but it shows that the problems of inadequate and 
erroneous scientific review in the ATSDR are not limited to the 
issue of formaldehyde in the trailers that FEMA provided to 
people who were displaced by the two storms.
    In analyzing toxic substances and what I think is probably 
the greatest natural resource in the United States, and that is 
the Great Lakes, which are the largest body of fresh water in 
the world, I ask unanimous consent to include the letter from 
the State of Wisconsin, Division of Public Health, signed by 
the Chief Medical Officer, Henry Anderson, M.D., as well as a 
letter that was sent to Dr. Frumkin by the Minnesota Department 
of Public Health and specifically by John Link Stein, who is 
the Director of the Environmental Health Division in Minnesota. 
And I want to have the record be as complete in its indictment 
of how bad the ATSDR has been and how much they have opened up 
the population of this country to disease and serious medical 
conditions because they haven't done their job properly.
    And I would hope that this hearing at minimum would be a 
lesson to them that this should never happen again, and if it 
does happen again, if folks here from the ATSDR, the CDC think 
that today's price to pay is pretty high, to quote Ronald 
Reagan, ``You ain't seen nothing yet.''
    I yield back the balance of my time to the Chairman.
    Chairman Miller. Thank you. Without objection the documents 
that Mr. Sensenbrenner has moved be entered into the record are 
so admitted.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Miller. The Chair recognizes Ms. Hooley for five 
minutes of questioning.

                Dr. Sinclair's Experience in Her Trailer

    Ms. Hooley. Thank you, Mr. Chair. I will be rather brief. I 
have a couple of questions for Dr. Sinclair.
    First of all, I understand that your own mobile unit had 
high levels of formaldehyde in it. Did you experience any 
symptoms firsthand?
    Dr. Sinclair. First of all, as a displaced person I was 
actually living in a FEMA trailer in New Orleans for half the 
week while I was commuting back and forth the first year before 
I relocated to Baton Rouge, and I had headaches the whole time 
I was there. I had difficulty sleeping. This was before I knew 
anything about formaldehyde. I always kept my windows open and 
the doors open, and I assumed that my headaches were because I 
wasn't sleeping well.
    As far as our own medical mobile unit, when we come on in 
the mornings, especially in the hot weather, you do have--you 
notice the smell, and you do have burning eyes, and we run the 
air, we open the windows and vents, and by the time we start 
clinic, we are, you know, we are not noticing the effects of 
formaldehyde.
    One thing I would like to point out is that we retested the 
trailers, that, our medical mobile unit, for just eight hours, 
which is our workday.
    Ms. Hooley. Uh-huh.
    Dr. Sinclair. And it tested lower. It was still above what 
EPA recommends for an eight-hour workday exposure, which is 100 
parts per billion but was less than what OSHA recommends for an 
eight-hour workday exposure, which is the 300 parts per 
billion. So this is where some of this confusion has come up is 
that the 0.3 parts per million or 300 parts per billion is 
considered an acceptable level by OSHA for an eight-hour 
workday exposure but not an acceptable level for long-term 
exposure in a living environment.

                       Obstacles to Safe Housing

    Ms. Hooley. And when you found that you were having 
headaches and not sleeping well and all of that, and as you 
understood better what was going on, what did you do about 
getting people out of these mobile homes that had such high 
levels of formaldehyde?
    Dr. Sinclair. This is the real challenge because the cure 
is really to get out of the mobile, of the travel trailers. And 
Mayor Nagin's request that families be sent to their doctors 
and doctors give them advice about what to do about their 
formaldehyde exposure is frustrating for me as a health care 
provider because my advice is to get out of the travel 
trailers.
    So that is basically what we have been doing, is just 
advising people until you can get out, run the air 
conditioners, don't smoke inside, don't use----
    Ms. Hooley. Did you work with other agencies, though, to 
find them other housing? I mean, if this was a high exposure, 
and how successful were you in getting them out of these travel 
trailers?
    Dr. Sinclair. The rental market in Baton Rouge is extremely 
tight right now, as is the rental market in New Orleans, and 
the list of housing that our case manager was able to find in 
the Baton Rouge area, we managed to find three apartments for 
about 300 families. We talked, she also talked with a FEMA case 
manager. They weren't much more successful. They had about five 
apartments. Catholic Charities has been very helpful in 
assisting families. They managed to place 367 families last 
fall, but it has been a real challenge. And so the other real 
issue here is the fact of the housing shortage.

                       More on Tracking Residents

    Ms. Hooley. The question is that I am concerned about, two 
things, is one, that this never happen again, and two, what are 
you going to do to track all of those people that were living 
in these travel trailers that had the high level of 
formaldehyde?
    Dr. Sinclair. This has also been a great area of 
frustration for me because we want to keep track of our 
families as they move out so that we can continue providing 
care to them. What we do is we basically just let them know 
where we are, they have our phone numbers, but there has not 
been a data bank to keep track of families that have been in 
the travel trailers.
    Ms. Hooley. Don't you think that would be a good idea?
    Dr. Sinclair. I definitely think that would be a good idea.
    Ms. Hooley. What is it, what do you need to do to make that 
happen?
    Dr. Sinclair. FEMA, I talked to FEMA, and they said that 
they have only kept track of those families that they are still 
providing rental assistance to. Louisiana Family Recovery Corps 
is not keeping a list of families that have lived in the travel 
trailers.
    Ms. Hooley. Well, maybe all of you--excuse me for 
interrupting you.
    Dr. Sinclair. Yeah.
    Ms. Hooley. But it seems to me that you have got several 
agencies involved and that you might sit down and talk to one 
another and say, this is something that we really need to do 
and begin that process and who is in charge and who is going to 
do it, how are you going to do that in a concerted effort, 
because it is not okay to say, well, you know, this agency is 
doing this, this agency is doing that, and then when you end up 
nobody is really doing it.
    Dr. Sinclair. I agree.
    Ms. Hooley. Okay. I hope that happens.
    Do I have any time left? No.
    Dr. Sinclair. I agree, because it has been really difficult 
to find out where people are going and follow their health.

                      Trivializing Health Concerns

    Ms. Hooley. Okay. But I think it is incumbent upon all the 
agencies that are involved to, in fact, do that.
    I just have a quick question for Ms. Gillette. Why do you 
think they have trivialized the health problems? I mean, that, 
you brought that up in your testimony.
    Ms. Gillette. I think there are a couple of things. One is 
I don't think that, I think it was hard for people to believe 
that this housing was as toxic as it was because it is stuff 
that is sold to the general public. And so then there was the 
issue, well, what do we do about it, and there aren't 
affordable housing out there. I know people who have loved ones 
who have died in the trailers they think were killed by the 
formaldehyde. They are still living in the trailers. They don't 
have anywhere else to go.
    Ms. Hooley. So what do you see the solution?
    Ms. Gillette. Well, the big--the one bigger solution is 
that you have to reform how the CDC works and so that it stops, 
you know, covering for big polluters. It is more interested 
really in corporate America than it is the health of the 
people. And that is a big problem. These health consultations 
that are done across the country almost never find any 
connection between huge amounts of pollution and people being 
sick and dying all around there.
    And so until you change that mindset that, oh, we really 
just can't prove that all that toxic pollution is causing these 
people to die, you know, it harms all of us. Because if you 
have pollution on the Gulf Coast that is not controlled because 
the ATSDR says there is no connection between the pollution and 
the health affects, well, guess where you get a lot of seafood 
from? People all over the U.S. are eating seafood that is 
contaminated by dioxin and other pollutants.
    Ms. Hooley. So I shouldn't eat seafood from the South?
    Ms. Gillette. Well, they don't want, you know, the South is 
not going to want you to say that, but especially the bigger 
fish you don't want, you know, that magnify the pollution. But 
my point is like when dioxin goes up in the air and it, you 
know, the whole population of the U.S. is overexposed to dioxin 
now. We are getting it in our food, we are getting it in our 
air, and we need to reduce our pollution, and we can't do that 
as long as we have a federal agency that keeps telling people 
that pollution doesn't matter, that it is not really harmful.
    Ms. Hooley. Mrs. Huckabee, I just have one thing. It is not 
really a question. I am so sorry this happened to your family 
and hopefully this won't happen in the future.
    Chairman Miller. Thank you, Ms. Hooley. The fact that 
things happen in the South doesn't mean that it wasn't 
Northerners doing it.
    Mr. Lampson for five minutes.

                           Health Care Costs

    Mr. Lampson. Thank you, Mr. Chairman. I particularly want 
to thank you for letting me sit in on your committee, and I 
want to commend you and Ranking Member Sensenbrenner for the 
work that you have both done in bringing out these atrocities, 
and they are atrocities. It is hard to believe that something 
like this could happen in our country, particularly following a 
time when so many people have had trauma already.
    But I just, a couple of questions because most of what I 
wanted to ask has been put into the record, but let me start 
with Mrs. Huckabee.
    Many families have to bear the brunt of thousands of 
dollars of health care costs. I know that FEMA established a 
program to reimburse for many of the medical bills. Do you know 
about how much you have spent? Have you asked for that money 
back? Have you asked for a reimbursement, and have you received 
any reimbursement from FEMA at this point?
    Mrs. Huckabee. No. Absolutely no reimbursement. In fact, I 
heard a rumor that there was--that they were doing that. We 
faxed in all of our medical information, notes from our 
doctors, and heard absolutely nothing back from FEMA. So if 
they are, in fact, reimbursing people, that is brand new news 
to me.
    Mr. Lampson. Thank you. Do you think they should?
    Mrs. Huckabee. I believe so. I mean, if it is, you know, if 
you have got, you know, several doctors saying, look. This was 
if not 100 percent caused, it was definitely made worse, but I 
think FEMA is having enough problems coming up with the things 
that they have already said they are going to do as far as food 
vouchers and things like that. They haven't got a grasp on that 
yet either.

             Formaldehyde's Effects on Reproductive Health

    Mr. Lampson. Dr. Sinclair, do we know the long-term health 
affects of chronic formaldehyde exposure, and can the toxicity 
be passed on to future children and grandchildren of these 
residents?
    Dr. Sinclair. We do not know. There have been fairly 
convincing links to formaldehyde exposure to nasal-pharyngeal 
cancer and nasal cancers and probably throat cancer, lung 
cancer, and possibly blood disorders such as leukemias. There 
is conflicting evidence about affects on reproductive health. 
There are possible correlations from occupational studies that 
may have, may link formaldehyde to premature births and 
miscarriages, but, again, there haven't been long-term studies 
of exposure in living environments. There have been cell 
studies that show that formaldehyde at fairly low levels can be 
genotoxic and cause changes to chromosomes and breakage of 
sister chromatids and may be related to birth defects. But this 
isn't clear.

                            Population Size

    Mr. Lampson. Do you know how many people have been involved 
with these trailers? Do we know that number?
    Dr. Sinclair. Tens of thousands have lived in the travel 
trailers.
    Mr. Lampson. We have got an approximate number. We don't 
know the number.
    Dr. Sinclair. FEMA has an exact number of families that 
have lived in the travel trailers.
    Voice. One hundred and forty thousand.
    Dr. Sinclair. Yeah. One hundred and forty thousand.
    Mr. Lampson. One hundred and forty thousand trailers.
    Dr. Sinclair. Families.
    Mr. Lampson. Families.
    Dr. Sinclair. Yeah. At Renaissance Village, which is the 
largest FEMA trailer village in Louisiana, there have been over 
800 families that have moved in and out of Renaissance Village, 
and the peak population there, estimates range from 1,400, the 
official number, to about 2,500, the unofficial number, 
including friends and families that were living with others in 
the travel trailers.
    Mr. Lampson. I thank you very much, and I will yield back 
my time, Mr. Chairman.
    Chairman Miller. Thank you. And I thank this first panel. 
We will now take just a two-minute break and have our second 
panel.
    [Recess.]

                               Panel II:

    Chairman Miller. I would now like to introduce our second 
panel. Dr. Meryl Karol is a Professor Emerita of Environmental 
and Occupational Health Sciences at the University of 
Pittsburgh. She is a former President of the Society of 
Toxicology and the former Secretary General of the 
International Union of Toxicologists. Dr. Christopher De Rosa 
is the former Director of the Division of Toxicology and 
Environmental Medicine at ATSDR, the former and his title is 
now a matter of dispute.
    As our witnesses should know, the, from having observed the 
previous panel and from what we have already told them, the 
oral testimony, the spoken testimony should be limited to five 
minutes each with some indulgence, after which the Members of 
the Committee will ask five minutes of questions each. It is, 
again, the practice of the Subcommittee to take testimony under 
oath. Do either of you have any objection to being sworn in, to 
be, swearing an oath?
    Okay. You also may be represented by counsel. Is, are 
either of you represented by counsel at this hearing today? If 
you would now please stand and raise your right hand.
    [Witnesses sworn]
    Chairman Miller. Both the witnesses have taken the oath.
    Dr. Karol, you may begin.

STATEMENT OF DR. MERYL H. KAROL, PROFESSOR EMERITA, UNIVERSITY 
                         OF PITTSBURGH

    Dr. Karol. Chairman Miller, Mr. Sensenbrenner, Members of 
the Subcommittee, thank you for inviting me to testify today. 
In describing my background I am a former President of the 
Society of Toxicology. I was also the Secretary General of the 
International Union of Toxicologists. This is an association of 
toxicologists from all six continents.
    Academically I was Associate Dean for Research and Academic 
Affairs at the Graduate School of Public Health at the 
University of Pittsburgh, and currently I am Professor Emerita 
of Environmental and Occupational Health Sciences at the 
University. I wish to stress that my testimony today reflects 
only my opinions.
    As a toxicologist I have conducted research for 34 years on 
mechanism of chemically-induced lung and skin diseases. I have 
conducted research on formaldehyde, focusing on allergic 
sensitization following both skin and lung exposure. This 
research was supported by both the NIEHS and by NIOSH.
    I have published nearly 200 scientific articles, books, 
book chapters, and monographs. Particularly relevant is a 2007, 
monograph entitled, Improving Indoor Environmental Quality for 
Public Health, and that discusses effects of indoor 
environments on human health.
    In the brief time that I have available today, and it will 
be five minutes, I would like to comment on one of the major 
recommendations of the ATSDR February, 2007, health advisory. 
Specifically, that 0.3 ppm concentration of formaldehyde be 
designated a level of concern for sensitive individuals. The 
level of concern being defined as a level above which 
individuals with hypersensitivity to formaldehyde would suffer 
adverse health affects. In my opinion this level has to be 
lowered.
    In outdoor air formaldehyde is normally present in 
concentrations around 0.002 parts per million. Indoors the 
concentration is typically ten to 20 times higher, depending on 
various factors such as construction materials, furnishings, 
the age of the housing. With newer homes typically releasing 
more formaldehyde by off-gassing. Heat and ventilation also 
affect the formaldehyde concentration.
    Most people can detect the presence of 0.5 ppm formaldehyde 
by its odor. This and higher concentrations typically causes 
eye, nose, and throat irritation with symptoms of eye tearing 
or perhaps eye, nose, and throat burning, hoarseness, cough, 
difficulty in breathing.
    However, formaldehyde can be irritating at a concentration 
that is even lower. A percentage of the population develops eye 
irritation when exposed to a concentration below the odor 
threshold and around the 0.3 stated level of concern.
    Sensitive individuals may have adverse affects when exposed 
to yet lower concentrations. Such individuals would include 
those with hyperactive or twitchy airways, those with 
underlying disease or with a viral infection of the lungs, 
among other concerns. Infants and the elderly would reasonably 
be expected to be more responsive to irritants such as 
formaldehyde. Their narrower airways make children more 
susceptible than adults to agents such as irritants that cause 
airway constriction.
    The ATSDR proposal of February, 2007, suggests 0.3 ppm 
formaldehyde as a level of concern for sensitive individuals. 
The basis for this proposal was the OSHA guideline for 
acceptable workplace exposures, with a maximum of 0.7 ppm 
formaldehyde averaged over an eight-hour work shift. It must be 
emphasized that the OSHA permissible exposure is an 
occupational standard established for healthy adults expected 
to have only an eight-hour exposure.
    In order to apply this guideline to indoor environments 
that would be safe for the general population, one must lower 
their permissible concentration because the population is 
diverse, not only with respect to age but with respect to 
underlying health status and concurrent environmental 
exposures. And they may be exposed for 24 hours a day.
    Ten years ago a review was published that critically looked 
at 150 scientific articles on formaldehyde and concluded that 
eye irritation occurred at 0.24 ppm in about 20 percent of the 
population, and these are non-sensitive subjects. The authors 
of that article concluded that an indoor environment where 
exposures might occur 24 hours a day could maintain a 
concentration of formaldehyde below 0.1 ppm, and that would 
protect virtually all persons.
    In summary, to protect residents against adverse affects 
from formaldehyde inside their trailers, guidelines must take 
into consideration the diversity of the exposed population, as 
well as the diversity of the indoor environment, including the 
temperature, ventilation, furnishings, and other chemicals. 
Suggestion that 0.3 ppm be designated a level of concern for 
formaldehyde might protect non-sensitive individuals, but it 
would not protect those that are sensitive. The level of 
concern should be lowered and should not exceed 0.1 ppm.
    Uncertainty remains regarding the likelihood of chronic 
health affects resulting from continued formaldehyde exposure 
in trailers. And for this reason the level of concern have to 
be revisited periodically.
    [The prepared statement of Dr. Karol follows:]
                  Prepared Statement of Meryl H. Karol
    Chairman Miller, Mr. Sensenbrenner, Members of the Subcommittee. 
Thank you for inviting me to testify today. In describing my 
background, I am a former President of the Society of Toxicology, USA, 
a professional organization of approximately 6,000 scientists from 
academia, government, and industry. I am also a former Secretary-
General of the International Union of Toxicologists, an association 
comprised of 51 national societies of toxicology from all six 
continents. The goal of the International Union is to increase the 
knowledge base of toxicology and to extend this knowledge to other 
nations and societies. Academically, I am the former Associate Dean for 
Research and Academic Affairs at the Graduate School of Public Health 
at the University of Pittsburgh, in Pennsylvania. Currently, I am 
Professor Emerita of Environmental and Occupational Health Sciences at 
the University. I wish to stress that my testimony today reflects only 
my opinions.
    As a toxicologist, I have conducted research for 34 years on 
mechanisms of chemically-induced lung and skin diseases. This research 
has been supported by the NIEHS, NIOSH, USDA, and grants from 
industrial corporations and professional associations. I have published 
more than 170 refereed scientific articles that are focused on chemical 
toxicity and have authored and edited several books, book chapters and 
monographs. Particularly relevant is a monograph (of which I was an 
editor) entitled, Improving Indoor Environmental Quality for Public 
Health. The monograph (1), published in the June 2007 issue of 
Environmental Health Perspectives, is comprised of six articles by 
international experts in indoor air quality. It contains discussion of 
the effects of indoor environments on human health.
    I have lectured extensively, both nationally and internationally on 
indoor environmental quality, including meetings organized by the World 
Health Organization. I have taught graduate classes in environmental 
and occupational health, principals of toxicology, and methods in 
toxicology. I currently serve on the Scientific Advisory Board of the 
EPA, and on the National Research Council's (NRC) Committee on 
Toxicology. I chair the NRC Committee on Toxicologic and Radiologic 
Effects from Exposures to Depleted Uranium During and After Combat.
    Regarding my work with formaldehyde, I have conducted research that 
focused on the potential allergic sensitization from skin and pulmonary 
exposure to formaldehyde. This research, supported by both NIEHS and 
NIOSH, resulted in the development of an animal model of formaldehyde 
sensitization, and also led to the development an immunologic assay to 
detect the presence in serum of antibodies directed to formaldehyde 
(2).
    In the brief time I have available today, I would like to comment 
on the ATSDR's health advisory (issued February 2007) on formaldehyde 
levels in FEMA-provided trailers, and to specifically address one of 
its major recommendations, i.e., that a 0.3 ppm concentration of 
formaldehyde be designated a ``level of concern'' for sensitive 
individuals. A level of concern has been defined as the level above 
which individuals with hypersensitivity to formaldehyde would suffer 
adverse health effects.

What is Formaldehyde Hypersensitivity?

    Formaldehyde is normally present in low concentrations, around 3mg/
m<SUP>3</SUP> (2.5 ppb), in the outdoor air. Indoor, the concentration 
is usually higher and may reach 25-50 ppb depending on numerous factors 
that include: the construction materials used, furnishings, the age of 
the housing (newer homes would be expected to release formaldehyde by 
off-gassing from materials). Other factors that also contribute to 
formaldehyde concentrations within homes include the heating and 
ventilation systems.
    Most people can detect the presence of 500 ppb (0.5 ppm) 
formaldehyde in the atmosphere by its characteristic odor. At this and 
higher concentrations, it typically causes eyes, nose and throat 
irritation with symptoms of eye tearing or perhaps eye, nose and throat 
burning, hoarseness, cough, or difficulty breathing. However, 
formaldehyde can be irritating, especially to the eyes when present in 
a concentration that is lower than this odor threshold. As I will 
discuss later, it is known that a considerable percentage of the 
population develops eye irritation when exposed to 0.24 ppm 
formaldehyde, a concentration considerably below its odor threshold (3) 
and the ``level of concern.''
    There exist sensitive individuals, people who may have an adverse 
response when exposed to still lower concentrations of formaldehyde, 
i.e., concentrations that are below the level that causes health 
effects in the majority of people. Such individuals would include those 
with hyperreactive ``twitchy'' airways, those with underlying 
respiratory disease, with a viral infection of the lungs, among others. 
Infants and the elderly would reasonably be expected to be more 
responsive to irritants such as formaldehyde. Their narrower airways 
make children more susceptible than adults to agents such as irritants 
that cause airway constriction.

The Formaldehyde ``Level of Concern''

    The ATSDR Health Consultation of February 1, 2007 offers 0.3 ppm 
(369mg/m<SUP>3</SUP>) formaldehyde as a concentration associated with 
the narrowing of the lung bronchi in sensitive individuals (4). This 
statement implies that most individuals (i.e., those without 
sensitivity) would not be adversely affected upon exposure to 0.3 ppm 
formaldehyde. Unfortunately, the Consultation statement is contrary to 
published reports that provide evidence that 0.3 ppm is not a 
protective concentration even for the general population. It certainly 
would not be protective for the more susceptible persons, i.e., those 
described above.
    The basis for establishment of the 0.3 ppm level of concern is a 
2001 ATSDR document (5) that lists OSHA permissible exposure limit 
(PEL) of 0.75 ppm formaldehyde (averaged over an eight-hour workshift) 
as a guideline for an acceptable exposure level. However, it must be 
emphasized that the PEL is an occupational standard, established for 
healthy adults, individuals expected to have only an eight-hour 
(workday) exposure. In order to use this guideline to set indoor 
environmental exposures that are safe for the general population, one 
must consider applying safety factors that would lower the permissible 
concentration of formaldehyde to make it appropriate for a population 
that is diverse with regard to age, underlying health status, 
concurrent environmental exposures, and may be exposed for 24 hr/day.

October 2007 Revision of the Feb. 2007 ATSDR Health Consultation

    The October 2007 revision sought to address, among other items, the 
deficiency in the Feb. 2007 report regarding the insufficient 
discussion of the health implications resulting from formaldehyde 
exposure. It addressed the question, ``Are air formaldehyde levels in 
closed, unventilated trailers high enough to be associated with health 
effects in humans?''
    When corrected, the air samples taken in closed trailers yielded an 
average value of 1.04 ppm formaldehyde (with some values extending to 
3.5 ppm). Concentrations in air-conditioned trailers averaged 0.39 ppm, 
whereas concentrations in trailers with open windows were 0.09 ppm. The 
advisory correctly concluded that the levels in the air-conditioned 
trailers exceeded federal exposure guidelines. OSHA warns that 
``Airborne concentrations of formaldehyde above 0.1 ppm can cause 
irritation of the respiratory tract'' (6).

Guidelines for safe formaldehyde exposure

    What are the known effects of formaldehyde on humans? Which are the 
susceptible populations? What guidelines are appropriate to protect the 
health of human sub-populations?

Irritation
    Formaldehyde is known to cause irritation of the eyes, nose, throat 
and respiratory tract. During the past 60 years, the Occupational 
Exposure Guideline for formaldehyde (to prevent irritation reactions in 
workers) has been revised downward from 10 ppm in 1947 to 0.3 ppm (as a 
ceiling value) in 1992. In 1997, a panel of experts critically reviewed 
150 scientific articles related to formaldehyde to derive an 
occupational exposure limit that would prevent irritation (3). The 
panel found that eye irritation occurred at concentrations lower than 
those that caused nose/throat irritation and concluded that it was the 
most sensitive irritative effect. They found reports of eye irritation 
at 0.24 ppm (19 percent of 16 subjects) clearly indicating the 
variation that exists among humans with regard to this endpoint. The 
panel concluded that maintaining a formaldehyde concentration below 0.1 
ppm in the indoor environment where exposures might occur 24 hour/day 
might avoid irritation in virtually all persons. In agreement, the 
current OSHA guideline states that between 0.1-0.5 ppm, irritation may 
occur in some individuals.

Chronic airway disease
    Formaldehyde does not appear to pose a hazard for pulmonary 
emphysema or chronic obstructive pulmonary disease (COPD).

Allergic sensitivity
    Formaldehyde has been associated with allergic skin sensitivity in 
humans and animals (2). It remains uncertain whether inhaled 
formaldehyde will or will not induce lung sensitization in humans (7) 
although controlled animal studies have failed to detect this response 
(2).

Cancer
    Based on the reported concentration-dependent carcinogenic effect 
of formaldehyde in rats and mice, and on inadequate epidemiologic data 
on the cancer risk in humans, ACGIH (1989) recommended that workplace 
formaldehyde exposures be reduced to the ``lowest possible level.'' 
ACGIH has adopted the 0.3 ppm TLV-CV (ceiling value) for formaldehyde 
and lists it as an A2 suspected human carcinogen.
    There is considerable controversy regarding the conclusion that 
formaldehyde causes cancer in humans. In 2004, the International Agency 
for Research on Cancer (IARC) reclassified formaldehyde as a Group 1 
carcinogen based largely on the results of the National Cancer 
Institute (NCI) study on nasopharyngeal cancer (NPC). However, the NPC 
findings in the NCI study were driven by a large excess in one plant (6 
or 10 cases from that one plant). Nine other plants collectively had no 
NPC excess, nor was an NPC excess observed in two other cohort studies, 
one by NIOSH and one in the UK.
    The NCI nasal pharyngeal excess driven by one plant was the subject 
of several papers by the Marsh group. In a recent update (8), the 
investigators found that the large NPC excess in this plant appears to 
be due to prior employment in the metal working industries of the local 
area, where exposures to many agents known or suspected to cause upper 
respiratory cancers (e.g., sulfuric acid mists, mineral acid, metal 
dusts and heat) have occurred.
    The causal association of formaldehyde with leukemia has also been 
questioned. A reanalysis (9) of the data provided little evidence to 
support a causal association between formaldehyde exposure and 
mortality from leukemia.

Summary and Recommendations

    The literature regarding the adverse effects from formaldehyde 
indicates the potential for both acute and chronic health effects. 
Guidelines for safe exposure to formaldehyde to protect against these 
effects have been established for the workplace. To protect residents 
against adverse effects from formaldehyde inside their trailers, 
guidelines must take into consideration the diversity of the exposed 
population (including age and underlying health conditions) as well the 
diversity of the indoor environment (including the temperature, 
ventilation, furnishings, other airborne chemicals). The suggestion 
that 0.3 ppm be designated a ``level of concern'' for formaldehyde 
would not protect sensitive or nonsensitive individuals from irritation 
reactions. The level of concern should be lowered and not exceed 0.1 
ppm. Uncertainty remains regarding the likelihood of chronic adverse 
health effects resulting from continued formaldehyde exposure in 
trailer residences.

References

1.  Wu F., Jacobs D., Mitchell C., Miller D., Karol M.H. Improving 
indoor environmental quality for public health: impediments and policy 
recommendations. Environ Health Perspect 115:953-957, 2007.

2.  Lee, H.K., Alarie, Y. and Karol, M.H. Induction of formaldehyde 
sensitivity in guinea pigs. Toxicol App Pharmacol 75:147-155, 1984.

3.  Paustenbach D., Alarie Y., Kulle T., Schachter N., Smith R., 
Swenberg J., Witschi H., and Horowitz S. A recommended occupational 
exposure limit for formaldehyde based on irritation. J Toxicol Environ 
Health 50:217-263, 1997.

4.  Agency for Toxic Substances and Disease Registry, Health 
Consultation, Formaldehyde sampling at FEMA temporary housing units, 
February 1, 2007.

5.  Agency for Toxic Substances and Disease Registry, Managing 
Hazardous Materials Incidents, Medical Management Guidelines for Acute 
Chemical Exposures, Formaldehyde. Atlanta, ATSDR, 2001.

6.  OSHA Fact Sheet 2002.

7.  Kranke B. and Aberer W. Indoor exposure to formaldehyde and risk of 
allergy. Allergy 55:402-404, 2000.

8.  Marsh G., Youk A.O., and Morfeld B. Mis-specified and non-robust 
mortality risk models for nasopharyngeal cancer in the National Cancer 
Institute formaldehyde worker cohort study. Regulatory Toxicol and 
Pharmacol 47:59-67, 2007.

9.  Marsh G. and Youk A.O. Reevaluation of mortality risks from 
leukemia in the formaldehyde cohort study of the National Cancer 
Institute. Regulatory Toxicol and Pharmacol 40:113-124, 2004.

    Chairman Miller. Thank you, Dr. Karol.
    Dr. De Rosa.

STATEMENT OF DR. CHRISTOPHER T. DE ROSA, ASSISTANT DIRECTOR FOR 
      TOXICOLOGY AND RISK ASSESSMENT, NATIONAL CENTER FOR 
 ENVIRONMENTAL HEALTH/AGENCY FOR TOXIC SUBSTANCES AND DISEASE 
  REGISTRY, CENTERS FOR DISEASE CONTROL AND PREVENTION, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. De Rosa. Good morning, Chairman Miller and Ranking 
Member, Mr. Sensenbrenner, and other distinguished Members of 
the Subcommittee. I am Chris De Rosa, and I have been working 
for the Federal Government for 28 years. Today I will respond 
to the issues posed in your letter of invitation dated February 
27, 2008. I would like to note for the record that I am not 
here as a representative of ATSDR, but rather as an individual. 
I would also like to emphasize that my remarks today and other 
stated concerns should no way be construed as a reflection on 
many of the highly-talented and motivated, well-intentioned 
staff of my agency.
    I served as the Director for the Division of Toxicology and 
Environmental Medicine at ATSDR from 1991, until 2007. I have a 
degree in ecology, Master's degree, and a Ph.D. in biology from 
Miami University of Ohio and have held academic appointments at 
the Universities of Virginia and Maine over a period of 10 
years. Before coming to ATSDR in '91, I worked for the EPA's 
Office of Research and Development for 10 years as Branch Chief 
and then Acting Director of the Environmental Criteria and 
Assessment Office.
    I am author or coauthor of over 200 peer-reviewed 
publications and have served on the editorial review committees 
of over ten professional journals. I have been a charter member 
of the World Health Organization Steering Group for Risk 
Assessment since 1994. I am a member of the American College of 
Toxicology and one of the 180 elected fellows of the Collegium 
Ramazzini.
    The mission of ATSDR is to serve the public by using the 
best science, taking responsive public health actions, and 
providing trusted health information to prevent harmful 
exposures and disease related to toxic substances.
    There are a range of activities that ATSDR undertakes as a 
response to the health mandates outlined in the CERCLA or Super 
Fund Legislation. Of these, one of these is a health 
consultation, developed as a formal response to time-sensitive 
issues as was the case in the aftermath of Hurricane Katrina. 
Following the Agency's initial response to this tragic event, 
ATSDR was also engaged in ongoing verbal and written 
evaluations and discussions for a wide range of information on 
behalf of EPA and FEMA.
    These included the evaluation of formaldehyde levels in the 
air of unoccupied FEMA trailers. In contrast to a health 
consultation, such evaluations are more informal, usually 
verbal, periodic discussions of available data as it emerges. 
Initial discussions regarding sampling protocols and data 
collection of formaldehyde in trailers used by EPA, used by 
FEMA, and analyzed by EPA began in June of 2006.
    Because of the sensitivity of emergency events and 
preparedness and other coordination activities, I began a 
series of weekly reports in 1999, for all senior staff 
including senior agency leadership. These reports summarized 
significant events in these often time-sensitive programmatic 
areas. The details that we provided regarding the work we did 
in support of EPA and FEMA were frequently included in these 
reports.
    In early December 2006, Dr. Howard Frumkin stated to me I 
had not kept him adequately informed of the fact that we were 
evaluating samples on behalf of FEMA that were collected by 
EPA. I advised Dr. Frumkin that this was a routine 
collaboration that has occurred between ATSDR and EPA over a 
period of 25 years, especially dealing with time-sensitive 
events of environmental contamination. Dr. Frumkin requested 
that his name be deleted from the mailing list for these weekly 
reports in September of 2007, because he found them to be 
unhelpful.
    In early December 2006, my division's Emergency Response 
Team, ERT, was asked to provide an evaluation of EPA's sampling 
data regarding the levels of formaldehyde in unoccupied 
trailers. Dr. Frumkin was aware of this evaluation as early as 
December 4, 2006. At the specific direction of FEMA, its 
attorney for the Office of Legal Counsel, my division's ERT did 
not share the evaluation through the usual division review and 
approval channels. Instead they provided the drafts of the 
consultation to the Director's Office of Preparedness, 
Terrorism, and Emergency Response, OPTER. This was done without 
my knowledge, and I was unaware of the role of Dr. Frumkin's 
office in the oversight of this effort until summer 2007. It 
was through this channel that Drs. Frumkin and Sinks provided 
review and comment on the draft.
    During the period between which--is this indicating my time 
is up, Mr. Chairman?
    Chairman Miller. No.
    Mr. De Rosa. Okay. Thank you. I appreciate that. This was 
done without my knowledge, and I was unaware of the role of Dr. 
Frumkin's office in the oversight of this effort until summer 
2007. It was through this channel that Drs. Frumkin and Sinks 
provided review and comment on the draft consultation.
    During the period intervening between the point at which 
the sampling data was provided to my division's ERT and the 
release of the consultation to FEMA on February 1, 2007, Drs. 
Sinks and Frumkin provided review and comment on the draft 
consultation during this period. At no time did I have any 
contact regarding this effort with either FEMA or EPA.
    The health consultation was forwarded to FEMA February 1, 
2007. I was unaware of this until receipt of the health 
consultation on February 27, when a copy of the report appeared 
upon my desk. After an initial review of the consultation, I 
immediately contacted Dr. Frumkin's office by telephone and e-
mail to state my concerns regarding the limitations of the 
consultation. I stated the report failed to address longer-term 
health affects, especially the issue that formaldehyde is a 
carcinogen. That same day I sent a second e-mail transmitting a 
proposed amendment to the consult to address these longer-term 
health concerns.
    After repeated requests to issue an amendment to the 
original consult, I was directed by Dr. Frumkin to forward my 
proposed response to Dr. Mark Keim, then acting Director of 
OPTER. At this point I concluded that the lead for this effort 
resided solely within the Office of the Director, specifically 
the Office of Preparedness, Terrorism, and Emergency Response 
(OPTER).
    I had no further involvement with the FEMA consultation 
until late June 2007, when there was a briefing for 
Congressional Staff regarding this issue. However, in the 
interim I repeatedly cautioned Dr. Frumkin and other senior 
staff regarding the issues confronted by the agency in this 
matter. For example, on June 1 I wrote to Dr. Frumkin outlining 
my concerns in response to a request from FEMA to identify, 
``safe levels of exposure to formaldehyde.'' I----
    Chairman Miller. Dr. De Rosa, if you could summarize your 
testimony.
    Mr. De Rosa. Okay. So despite the repeated efforts to bring 
these issues to the attention of my management, we had very 
little constructive follow-up effort. I recommended that we use 
the Health Guidance Values in the toxicological profile for 
formaldehyde as a point of departure for any discussion 
regarding safe levels.
    This was after repeated requests from FEMA to restrict our 
evaluations to short-term exposures. I did state that as our 
efforts went forward that health interventions must be pursued 
to address the clinical manifestations of acute formaldehyde 
toxicity. I stated that such clinical signs were harbinger of a 
pending public health catastrophe that may be trans-
generational in its impact.
    And I stressed the importance of alerting residents to the 
potential reproductive, developmental, and carcinogenic affects 
of formaldehyde. The response I received was that such matters 
should not be discussed in e-mails, since they might be 
misinterpreted.
    Chairman Miller. Thank you. If you have anything further--
--
    Dr. De Rosa. I think I would simply close by saying that I 
know that this has been a complicated matter for everyone 
involved, that there are often no straightforward answers to 
complicated situations. However, I think that we need to invoke 
the maxim of public health practice articulated by Bernardino 
Ramazzini four centuries ago, that, ``It is better to prevent 
than cure.'' And that the precautionary principle should be 
invoked in matters of this nature.
    Thank you.
    [The prepared statement of Dr. De Rosa follows:]
              Prepared Statement of Christopher T. De Rosa

INTRODUCTION

    Good Morning, Chairman Miller, and Ranking Minority Member Mr. 
Sensenbrenner other distinguished Members of the Subcommittee. I am 
Christopher De Rosa and I have worked for the Federal Government for 28 
years. Today I will respond to the issues posed in your letter of 
invitation dated February 27, 2008. I would like to note for the record 
that I am not here as a representative of The Agency for Toxic 
Substances and Disease Registry (ATSDR) but as an individual scientist. 
I would also like to emphasize that my remarks today and other stated 
concerns should in no way be construed as a reflection on the highly 
talented, motivated and well intentioned staff at all levels of the 
ATSDR, as well as the Centers for Disease Control and Prevention (CDC).
    At present I serve as the Assistant Director for Toxicology and 
Risk Analysis at the National Center for Environmental Health/Agency 
for Toxic Substances and Disease Registry, Centers for Disease Control 
and Prevention. Previously, I served as the Director, Division of 
Toxicology and Environmental Medicine, Agency for Toxic Substances and 
Disease Registry (ATSDR) from 1991 to 2007. Prior to my selection as 
Division Director, I was the Deputy Associate Administrator for 
Science, also at ATSDR.
    After receiving my Master's Degree in Ecology and Ph.D. in Biology 
from Miami University, Oxford, Ohio, I held academic appointments at 
the Universities of Virginia and Maine over a period of ten years. 
Before coming to ATSDR in 1991, I worked for the Environmental 
Protection Agency's Office of Research and Development (EPA/ORD) for 
ten years. With the EPA, I served as Branch Chief of the Chemical 
Mixtures Assessment Branch and Acting Director of the Environmental 
Criteria and Assessment Office (ORD).
    I have been the recipient of the U.S. EPA Bronze Medal four times 
and continue to serve on a number of EPA advisory committees. I have 
also served in a similar capacity for the Departments of Justice, 
Energy, and Defense and other federal agencies, the World Health 
Organization (WHO) and a range of foreign countries in Europe, Asia, 
South America and Africa. I am an author/co-author of over 200 peer-
reviewed publications and have served on the editorial/review boards of 
over ten professional journals.
    I have been a charter member of the World Health Organizations' 
Steering Group for Risk Assessment since 1994, and I am a member of the 
American College of Toxicology, the American Association for the 
Advancement of Science, and the Research Society of North America and 
other professional organizations. I am one of 180 elected fellows of 
the Collegium Ramazzini in the world, a credentialed member of the 
Senior Biomedical Research Service (1998-2007) and now am classified as 
a ``Distinguished Consultant'' (ATSDR/CDC).
    The ATSDR is one of eight operational units within the Department 
of Health and Human Services, and is co-located with the CDC in 
Atlanta, Georgia.
    The mission of ATSDR is ``to serve the public by using the best 
science, taking responsive public health actions, and providing trusted 
health information to prevent harmful exposures and disease related to 
toxic substances.'' It is the primary federal agency that addresses the 
health mandates of the Comprehensive Emergency Response, Compensation 
and Liability Act (CERCLA) often referred to as Superfund.
    ATSDR's mission is remarkably congruent with my own personal 
mission statement that is ``to be an advocate for public health by 
translating science into public health service and policy.'' My 
opinions regarding the range of potential health affects to 
Formaldehyde exposure are those articulated in ATSDR's Toxicological 
Profile on this substance. ATSDR's Toxicological Profiles on priority 
chemicals are peered and publicly reviewed in accordance with the 
Superfund Authorization Reauthorization and Amendment Act (SARA 1994).
    There are a range of activities and programs that have been 
developed to fulfill CERCLA public health mandates. One of these is a 
``Health Consultation,'' developed as a formal response to what may be 
time sensitive issues as was the case in the aftermath of Hurricane 
Katrina, which occurred in August 2005. Following the Agency's initial 
response to this tragic event, ATSDR was also engaged in ongoing verbal 
and written evaluations and discussions for a wide range of information 
on behalf of EPA and FEMA.
    This included the evaluation of formaldehyde levels in the air of 
unoccupied FEMA trailers. In contrast to a Health Consultation, such 
evaluations are more informal, usually verbal, periodic discussions of 
available data. Initial discussions regarding sampling protocols and 
data collection of formaldehyde in trailers used by the EPA began in 
late June of 2006.
    Because of the sensitivity of emergency event, preparedness and 
coordination activities, I began weekly reports in 1999 for all senior 
staff including senior Agency leadership. These reports summarized 
significant events in these often, time sensitive programmatic areas. 
The details regarding the work we did in support of EPA and FEMA were 
frequently reported in these reports.
    In early December of 2006, Dr. Howard Frumkin stated to me that I 
had not kept him adequately informed of the fact that we were 
evaluating air samples from FEMA trailers collected by EPA and in 
support of EPA's efforts following Hurricane Katrina. I advised Dr. 
Frumkin that this was the product of a routine collaboration between 
ATSDR and EPA for approximately 25 years for time sensitive events 
involving environmental contamination. These efforts had been reported 
frequently in the weekly reports to senior management. Dr. Frumkin 
requested that his name be deleted from the mailing list for these 
weekly reports in September of 2007 since he found them to be 
unhelpful.
    In early December 2006, two members of my division's Emergency 
Response Team (ERT) were asked to provide an evaluation of EPA's 
sampling data regarding the levels of formaldehyde in unoccupied 
trailers. Dr. Frumkin was aware of this evaluation as early as December 
4, 2006. At the specific direction of FEMA's attorney, these two 
members of my division's ERT did not share the evaluation through the 
usual division review and approval channels. Instead they provided the 
drafts of the consultation to the Director's Office for Preparedness, 
Terrorism and Emergency Response (OPTER). However, this was done 
without my knowledge and I was unaware of the role of Dr. Frumkin's 
office in the oversight of this effort until summer 2007. It was 
through this channel that Drs. Frumkin and Sinks provided review and 
comment on the draft Health Consultation.
    During the period intervening between the point at which the 
sampling data was provided to my division's ERT by FEMA's Office of 
Legal Council (OLC) on December 4, 2006 and the release of the Health 
Consultation to FEMA on February 1, 2007, Drs. Sinks and Frumkin 
provided review and comment on the draft consultation. During this 
period, at no time did I have contact with either FEMA or EPA on this 
issue.
    This Health Consultation was forwarded to FEMA on February 1, 2007. 
I was unaware of this until the receipt of the Health Consultation on 
February 27, 2007, when a copy of the report appeared on my desk. After 
an initial review of the Health Consultation, I immediately contacted 
Dr. Frumkin's office by telephone and e-mail to state my concerns 
regarding the limitations of the Health Consultation. I stated that the 
report failed to address longer-term health effects especially the 
issue that formaldehyde is a carcinogen. That same day I sent a second 
e-mail transmitting a proposed amendment to the consult to address 
these longer-term health concerns.
    After repeated requests to issue an amendment to the original 
consult, I was directed by Dr. Frumkin to forward my proposed response 
to Dr. Mark Keim, acting Director of the Office of Preparedness, 
Terrorism and Emergency Response. This letter amending the February 1st 
consult was subsequently sent to FEMA over the signature of Dr. Mark 
Keim on March 17, 2007. At this point, I concluded that the lead for 
this effort resided solely within the Office of the Director.
    I had no further formal involvement with the FEMA consultation 
until late June, 2007, when an impromptu briefing for Congressional 
Staff occurred, regarding this issue. However, in the interim, I 
repeatedly cautioned Dr. Frumkin and other senior staff regarding the 
formaldehyde issue in FEMA trailers. For example, on June 1, 2007, I 
wrote to Dr. Frumkin outlining my concerns in response to a request 
from FEMA to identify ``safe levels of formaldehyde exposure.'' I 
cautioned that since formaldehyde is a carcinogen, it is a matter of 
U.S. Federal Government science policy, that there is technically no 
``safe level'' of exposure. I wrote that the Department of Health and 
Human Services had classified formaldehyde as ``reasonably anticipated 
to be a human carcinogen.'' I also wrote that in 1995, the World Health 
Organization's (WHO), International Agency for Research on Carcinogens 
(IARC) had classified formaldehyde as ``probably carcinogenic to 
humans'' while EPA had determined that formaldehyde is a ``probable 
human carcinogen.''
    I further cautioned that:

        <bullet>  formaldehyde may be a reproductive and developmental 
        toxicant;

        <bullet>  it is a irritant as evidenced by the reported 
        symptoms of the children in the trailers in Mississippi; and

        <bullet>  that the overt symptoms would probably trigger 
        sensitization in some proportion of the population, to varying 
        degrees in children and others housed in the FEMA trailers.

    I also recommended that ATSDR's Health Guidance Values for short-
term, intermediate and long-term exposures to formaldehyde be used in 
assessing the hazards posed by formaldehyde in the FEMA trailers. Dr. 
Frumkin concurred with my concerns with an e-mail response.
    Finally, I wrote that to my knowledge this was the third time that 
we had been approached by FEMA requesting that we provide health 
guidance on safe levels of exposure to formaldehyde and that we 
restrict our evaluation to short-term exposures.
    The first instance occurred in the Spring of 2006 when FEMA 
requested that I review a draft statement that encompassed only the 
short-term health information that had been abstracted from our 
Toxicological Profile. I indicated that FEMA had neglected to address 
longer-term exposures and indicated that failure to address longer-term 
health effects could be misleading.
    Subsequently, starting in the summer of 2007, particularly after 
Congressional hearings and reports in the media, I repeatedly requested 
that we initiate health interventions to interdict these exposures and 
mitigate health effects. This was based on reports of acute clinical 
signs consistent with formaldehyde toxicity and presented by residents 
of FEMA trailers. Most importantly, I pointed to the primal need to 
alert the trailer residents regarding all health hazards.
    In August 2007, ATSDR began to respond to Congressional requests 
for documents related to the FEMA trailers. It was during this time 
that I first became aware that the scope and content of the February 
1st consult was specifically directed by Dr. Frumkin's office. Drs. 
Frumkin and Sinks and senior management of Dr. Frumkin's OPTER, had 
reviewed and/or had been made aware of the ongoing evaluation of 
sampling data on behalf of FEMA as early as December 2006. Mr. Don 
Benkin then Acting Director for OPTER, was involved from the beginning 
of this activity dating back to June 19, 2006.
    In discussing this issue at the weekly Senior Staff meeting on Aug. 
29, 2007, Dr. Frumkin addressed the need for all staff to grasp the 
broader public health implications of any request we received from 
outside agencies. He indicated that it was a failure of my division's 
ERT to take into account the broader implications of the FEMA request 
by restricting the review to short-term exposures only (as directed by 
FEMA's Office of Legal Council), even though the ERT believed they were 
following the instructions issued by Dr. Frumkin's office.
    As our efforts in the Gulf Coast Region and elsewhere went forward, 
I repeatedly requested (albeit without success), that health 
interventions be pursued to address the clinical manifestations of 
acute formaldehyde toxicity presented in clinical settings by residents 
of the FEMA trailers. I stated that such clinical signs were a 
``harbinger of a pending public health catastrophe'' that may be 
``transgenerational'' in its impact. I stressed the importance of 
alerting the trailer residents to the potential reproductive, 
developmental and carcinogenic effects of formaldehyde exposure.
    The only response I received was that such matters should not be 
discussed in e-mails since they might be ``misinterpreted.'' In March 
of 2007, after I reviewed a draft of CDC Director, Dr. Julie 
Gerberding's proposed response to Congressman Taylor's letter, I 
responded that there was still no mention of carcinogenicity and that 
it was not appropriate to compare formaldehyde exposures in trailers to 
that of conventional housing.
    Based upon follow-up discussions with my ERT staff regarding the 
February Health Consultation it was clear to me, Drs. Frumkin and Sinks 
provided review and comment on multiple occasions prior to the 
development of the Health Consultation and that they must have been 
aware of the content and scope of the February 1st consult. I found 
this to be deeply troubling since the Emergency Response Team's efforts 
were now being identified as the primary basis for Congressional 
concerns about the scope and nature of the Agency's conclusions as 
stated in the first Health Consultation. Internally, Dr. Frumkin stated 
that the ERT should have been aware of the broader implications of the 
FEMA request particularly since it involved FEMA's Office of Legal 
Council.
    On August 10, 2007 Dr. Frumkin assigned to my division the lead to 
develop a revised Health Consultation based upon the sampling data 
provided by FEMA. On September 19, 2007, I forwarded a draft, but 
unedited, revised consultation, to Dr. Frumkin in response to his 
comments received the previous day.
    At that point the document had been completed to the satisfaction 
of three other divisions within ATSDR who had been involved in the 
review, data analysis and authorship of the revised consultation. The 
following day Dr. Frumkin reassigned the lead to his Office of Science. 
The resulting consultation that appeared in October was notable in that 
the executive summary was changed to read that health interventions to 
interdict exposures and or mitigate health effects should be 
``identified'' as opposed to ``identified'' and ``implemented.'' 
Further, some of the references addressing reproductive and 
developmental effects were deleted.
    Based upon my concerns, as previously outlined, I wrote a letter on 
September 21st addressing these and other issues were based on 
important health findings were not being shared with the public. In 
this letter I requested a meeting with senior management to identify 
``a constructive path forward.'' Drs. Falk, Frumkin, Sinks, and Louise 
Galaska met with me on October 5, 2007.
    At that meeting, I was asked what I proposed as a constructive path 
forward. In response to that question, I stated that it was my hope 
that they would provide such guidance, since I had already stated my 
concerns in my letter of September 21, 2007. In response, they stated 
that they had no guidance to provide. As a result, the meeting was 
adjourned within 15 minutes and I was told by Dr. Frumkin that he would 
provide a written response to my letter.
    After my September 21st letter to Dr. Frumkin, my evaluation, which 
was scheduled for October 4, 2007, was then deferred until October 22, 
2007. The meeting was then rescheduled three different times. 
Originally it was scheduled to be at 7:30 AM, then at 4:00 PM and then 
finally at 3:00 PM. Drs. Frumkin and Sinks knew that I was preparing to 
leave on international travel within the next hour of the appointment 
scheduled 3:00 PM. The proposed evaluation of my performance was not 
presented to me for review five days in advance in accordance with 
Agency guidelines and policy. Due to complications in preparing for my 
travel, the evaluation was done telephonically, as it was done in the 
previous evaluation cycle. I was told that my evaluation was 
``unsatisfactory.'' When I asked why, I was told that I was not a 
``team player.''
    Subsequently my written evaluation was presented to me by Dr. 
Frumkin three minutes before the beginning of the Ramazzini Award 
Ceremony and Presentation in Carpi, Italy. This was done in a public 
forum, in the presence of my father, who attended the meeting as my 
guest, as well as colleagues with whom I was seated near the front of 
the auditorium. At that same time, Dr. Frumkin also presented me with a 
memorandum stating that I was being removed from my position as 
Division Director. This memorandum stated that I was being reassigned 
to a position that had no job description until December 20, 2007. 
Since this was the first day of my annual holiday leave, I did not 
receive the written job description until January 7, 2008 when I 
returned to work. My office was moved in November 2007; in December 
2007 and again in February 2008 involving three offices and two 
geographic locations.
    In summary, I was removed from my position after 16 years of 
superior performance and having met or exceeded 95 percent of all of my 
division's performance objectives in the past three years. In 2006, an 
independent year long external peer review of all division activities 
concluded that my former division was ``meeting an important national 
need,'' that our Division's consensus based ``goals and objectives'' 
were consistent with this ``national need and the mission of the 
Agency'' and was ``performing at a high level.''
    As a voting member of the credentialing committee for the Senior 
Biomedical Research Service since 1998, one of 180 elected Fellows of 
the Collegium Ramazzini, and having served on the editorial boards for 
over 10 professional journals, I know that scientists can make 
mistakes. However, the only rationale provided to me at the time of my 
evaluation was that I was not a ``team player.'' There were no written 
narratives associated with the evaluation presented to me in Italy, 
addressing the rationale for the elements in my performance plan that 
were rated as unsatisfactory.
    As documented in my curriculum vitae, I have served as an expert 
witness on behalf of the U.S. Government on multiple occasions (in 
which the government prevailed). I currently serve on approximately 25 
committees of national and international significance and have served 
as author or co-author on approximately 200 publications. I have made 
numerous invited and plenary presentations on behalf of multiple 
organizations, including: the National Academy of Sciences, the 
Institute of Medicine and the National Institutes of Health, The EPA, 
and the WHO. Nevertheless, in Dr. Frumkin's response to my September 
21st letter, he maligned my technical ability, communication skills, 
managerial competence and my professional reputation.
    The issues addressed in my testimony today, as well as others 
conveyed in my September 21, 2007 memo to Dr. Frumkin presented me with 
a profound professional dilemma. In addressing this dilemma, I recalled 
a framed document entitled The Centers for Disease Control and 
Prevention's ``Pledges to the Citizens of the United States'' which was 
displayed in my former office. One of the five points in this pledge, 
that served as a key point in my own deliberative process was that ``We 
will place the benefit to society above the benefits to the 
institution.'' I also recalled the first time when I was undergoing the 
background investigation for top secret security clearance several 
years ago. The best advice I was given was to ``speak the truth even 
when it hurts.'' Finally, I recalled the central core of public health 
practice and environmental medicine first articulated by Bernardino 
Ramazzini four centuries ago. ``That it is better to prevent than 
cure.'' This is what I have attempted to do addressing the FEMA 
trailers issue. This is what I am continuing to pursue in this and 
other matters.
    In addition to the FEMA consultation, my letter of September 21, 
2007 also addressed the Great Lakes Report and the presence of the 
carcinogen 1,4-Dioxane in baby shampoos, bubble bath and approximately 
30 percent of cosmetic products. These were the three issues that were 
addressed in Dr. Frumkin's response to my letter, and that were used to 
justify my unsatisfactory rating. I pursued these issues because I 
believe important public health information, that had been vetted in 
accordance with all Agency review and clearance procedures, was being 
withheld from the public. Accordingly, it was not available to promote 
the best informed public health decisions by citizens, community 
leaders, health care professionals and those responsible for the 
oversight of public health more generally.
    Given the visibility of my former position within the Agency, and 
what had been viewed as a respected contribution to the Agency's goals 
and mission, my removal, which closely followed my attempt to speak the 
truth to authorities, sends a chilling message, not only to other 
Agency employees, but to all federal employees and more importantly 
those dependent upon support from our nation's federal agencies. 
Citizens of the United States who pay for the services provided by 
these agencies should benefit from the best possible scientific 
information in a timely, responsive, and responsible fashion. Because 
of my commitment to this concept, it is my ardent desire to be 
reinstated to my former position as Director of the Division of 
Toxicology and Environmental Medicine which has been the very heart of 
my professional career.
    I would like to express my sincere thanks to the Members and staff 
of this subcommittee for their time and attention concerning these 
matters.

                  Biography for Christopher T. De Rosa
Born: Cincinnati, Ohio, June 18, 1949.

Married (28 years), four children (ages 27, 24, 21, 18).

EDUCATION:

B.A. Ohio Wesleyan University, Delaware, Ohio, 1971 (Pre-professional).

M.S. Miami University, Oxford, Ohio, 1974 (Ecology).

Ph.D. Miami University, Oxford, Ohio, 1976 (Biology).

    CERTIFICATION:

Credentialed Distinguished Consultant (2007-present)

Credentialed Member of the Senior Biomedical Research Service (SBRS). 
        ATSDR/CDC (1997-2007)

Security Clearance: Top Secret

Elected Fellow of the Colloquium Ramazzini (1995-present)

POSITIONS:

2005-Present

Director, Division of Toxicology and Environmental Medicine, Agency for 
Toxic Substances and Disease Registry, Atlanta, Georgia.

Duties: As below and

1.  Coordinates professional development programs across ATSDR and with 
external partners.

2.  Develops educational materials in support of Environmental 
Medicine.

1992-2004

Director, Division of Toxicology, Agency for Toxic Substances and 
Disease Registry. Atlanta, Georgia.

Duties:

1.  Development and implementation of an integrated program of 
toxicology, encompassing the listing and prioritization of hazardous 
materials identified at National Priorities List Sites, a critical 
assessment of the available world literature on priority chemicals, and 
identification of priority data needs.

2.  Supervise a scientific and technical support staff of 60 
individuals in three Branches, two Sections and the Office of the 
Director, and 12 on site contractors.

3.  Direction of strategic planning for implementation of applied 
research.

4.  Coordination of programs with the EPA, NTP, WHO, IPCS, and NIEHS, 
the public, the private sector, and other interested parties.

5.  Development and implementation of ATSDR's emergency response, 
preparedness, and prevention programs based upon peer review research 
findings and scientifically sound decision support methods.

6.  Coordinates professional development programs across ATSDR and with 
external partners.

7.  Develops educational materials in support of environmental 
medicine.

Reason for leaving: Reorganization

1991-1992

Deputy Associate Administrator for Science and, Acting Director, 
Division of Toxicology, Agency for Toxic Substances and Disease 
Registry. Atlanta, Georgia.

Duties:

1.  Direct and manage the technical planning and implementation of a 
scientific health risk assessment and related methodology research 
program for the agency.

2.  Provide leadership for the agency's determination of public health 
action levels.

3.  Provide leadership and agency-wide coordination and evaluation of 
the agency's risk assessment activities.

4.  Share with the Associate Administrator responsibility for 
developing and implementing research plans and science policy for the 
agency, including: interagency liaison (CDC/NIH/EPA), five-year 
research plans, liaison with WHO, United Nations, coordination of 
research with other relevant programs, quality assurance strategy for 
research activities, and management of the agency's Board of Scientific 
Counselors.

5.  Serve as agency spokesperson in matters of science, especially 
regarding risk assessment and exposure action levels.

Reason for leaving: Selection as Director, Division of Toxicology. 
Agency for Toxic Substances and Disease Registry, Atlanta, Georgia.

1989-1991

Acting Director, Environmental Criteria and Assessment Office. United 
States Environmental Protection Agency. Cincinnati, Ohio.

Duties:

1.  Responsible for the oversight of the technical planning and 
implementation of a scientific health risk assessment and related 
assessment methodology research program. This includes responsibility 
for the oversight of approximately 40 technical staff and an annual 
budget of five million dollars.

2.  Provide leadership for the establishment and operation of the 
administrative/resource management/supervisory and scientific/technical 
support systems and office infrastructure necessary for the daily 
operation of the office.

3.  Provide scientific leadership to the ECAO office, and also to the 
Office of Health and Environmental Assessment, Office of Research and 
Development, and other EPA offices in the area of health risk 
assessment and research to insure the technical quality of activities.

4.  Function as a senior scientist, manager, and policy-making official 
of the Office of Health and Environmental assessment, Office of 
Research and Development, and EPA and represent these organizations in 
appropriate professional, scientific, regulatory, public health, and 
public policy-making activities.

Reason for leaving: Growing Interest in Public Health Practice and 
Policy.

1986-1989

Branch Chief: Chemical Mixtures Assessment Branch, Environmental 
Criteria and Assessment Office. United States Environmental Protection 
Agency. Cincinnati, Ohio.

Duties:

1.  Planning and coordination of office activities in support of 
Superfund (CERCLA) and Solid Waste (RCRA) legislative mandates.

2.  Group leader of ECAO scientists with the specific mission of 
providing scientific and technical expertise assessment of chemical 
mixtures.

3.  Oversight of authorship, review of methods and technical reports in 
the fields of ecotoxicology and health effects assessment.

3.  Provision of technical advice to public and private sector 
scientists.

Reason for leaving: Promotion

1985-1986

Acting Branch Chief: Chemical Mixtures Assessment Branch, Environmental 
Criteria and Assessment Office. U.S. Environment Protection Agency. 
Cincinnati, Ohio.

Duties: As above

1984-1985

Group Leader, Chemical Mixtures Assessment Group, Environmental 
Criteria and Assessment Office, U.S. Environmental Protection Agency, 
Cincinnati, Ohio.

Duties: As above but without budgetary responsibility.

Reason for leaving: Promotion

1982-1984

Assistant Professor of Botany/Zoology. University of Maine, Oromo, 
Maine.

Duties:

1.  Development of introductory biology lectures (enrollment 1,500 
students/year, 20 graduate teaching assistants).

2.  Development of introductory biology laboratories.

3.  Participation in team taught courses and seminars for undergraduate 
and graduate students.

4.  Design, implementation and funding procurement for research 
projects, publications in appropriate journals, presentations at 
professional meetings, and supervision of student research.

Reason for leaving: Recognized impact of environmental programs on 
human health.

1980-1982

Environmental Health Scientist/Ecologist, Environmental Criteria and 
Assessment Office, U.S. Environmental Protection Agency, Cincinnati, 
Ohio.

Duties:

1.  Provide office expertise on health and ecological effects of 
environmental pollutants.

2.  Document manager, contributor for 11 water qualifies criteria 
documents.

3.  Preparation of other criteria documents, hazard profile summaries, 
scientific and technical assessment reports, risk assessment methods 
for single chemicals and complex mixtures, and special reports.

4.  Project officer on contracts pertaining to the effects of 
environmental agents on health and the stability of exposed ecosystems; 
ensure the adequacy of extramural scientists' reviews and evaluations, 
review drafts for scientific and technical accuracy, assure conformance 
to agency policy, and make revisions and modifications as necessary.

Reason for leaving: Interest in teaching and basic research.

1977-1980

Assistant Professor, Department of Biology, University of Virginia, 
Charlottesville, Virginia.

Duties:

1. Development and delivery of introductory biology lectures 
(enrollment 1,000 students/year.

2.  Development and delivery of additional courses in Genetics, Cell 
Physiology, and Biochemistry, Behavioral Ecology and Specialty Seminars 
for advanced students.

3.  Design, implementation, and funding procurement for research 
projects, publications in appropriate journals, presentations at 
professional meetings and supervision of student research.

Reason for leaving: A growing interest in applied aspects of ecological 
and environmental health research.

1976-1977

Instructor, Department of Biology, University of Virginia, 
Charlottesville, Virginia.

Duties:

1.  Lecturing in introductory biology.

2.  Supervision, development, and coordination of undergraduate 
laboratories, including equipment, experiments, demonstration 
materials, organizational format and staff.

3.  Initiation of personal research program in applied ecology.

4.  Development of Advanced Placement (AP) Curriculum for High School 
Biology in State of Maine.

Reason for leaving: Promotion.

1975-1976

National Science Foundation Research Fellowship, Department of Zoology, 
Miami University, Oxford, Ohio.

Duties:

Design and implementation of environmental research projects. These 
responsibilities included the development of equipment, definition of 
research aims, utilization of computer programs for statistical 
analysis of data, and publication of results.

Reason for leaving: Graduation and faculty appointment at University of 
Virginia.

1973-1975

Teaching Assistantship, Department of Zoology, Miami University, 
Oxford, Ohio.

Duties:

Preparation and implementation of undergraduate and graduate biology 
laboratories in biochemistry, zoology, physiology, and ecology.

Reason for leaving: Research appointment.

1972-1973

Laboratory Assistant, Laboratory Assistant, Miami University, Oxford, 
Ohio.

Duties:

Preparation of solutions and laboratory materials for use by students.

Reason for leaving: Teaching appointment.

HONORARY AND PROFESSIONAL ORGANIZATIONS:

American Society of Integrative and Comparative Biology.

American Association for the Advancement of Science.

Animal Behavior Society.

Ecological Society of America.

Society of the Sigma Xi (Scientific Research Society of North America).

Society for Risk Analysis.

American College of Toxicology.

Elected Fellow, Collegium Ramazzini.

Credentialed Member of the Senior Biomedical Research Service, CDC/
        ATSDR.

New York Academy of Sciences.

Society of Occupational and Environmental Health.

                               Discussion

    Chairman Miller. Thank you, Dr. De Rosa.
    The Chair now recognizes himself for five minutes, and the 
Chair may call time, but the Chairman will try to do it more 
gently than to sound a horn to let either Members or witnesses 
know that their time has expired.

                   Safe Formaldehyde Exposure Levels

    Dr. De Rosa, it does appear that there was testing at 
various points, first by the Sierra Club, then by FEMA, that 
there were different standards for safe exposure or concern 
from exposure, and that this particular exposure didn't fit 
neatly into some standard. But based upon the testing that had 
already occurred by February of 2007, and despite the fact that 
there wasn't a specific standard in existence for these 
particular circumstances, did you, do you think that the ATSDR 
and CDC knew enough in February 2007, to know that there was 
something to worry about?
    Dr. De Rosa. I think that the reports in the media and 
elsewhere were strikingly consistent with the health affects of 
formaldehyde. I felt that the level that had originally been 
used was not an appropriate level, that the levels I referred 
to just recently were many times lower than that, .008 parts 
per million. If people were going to be there for a period of a 
year or longer, less than that, perhaps .03 parts per million. 
Those would have been the values that I would have insisted be 
included in such a consultation as a point of departure looking 
at the other parameters that may govern exposures and the 
health effects of formaldehyde in the situation presented by 
the trailers.
    Chairman Miller. Dr. Karol, do you have anything to add on 
that topic?
    Dr. Karol. Yes. There are other agencies in other countries 
that have established guidelines for safe indoor air. One of 
them is the Canadian health concern, and they established 0.1 
ppm as safe for indoor air, WHO recommends a level of .12 ppm, 
so these are all very consistent that this should have been the 
safe level and that this should have been measured in the 
trailers, see what the levels actually were.

                          ATSDR Review Process

    Chairman Miller. Thank you. Dr. Frumkin, you said in your 
testimony that you were not here to--excuse me. Dr. De Rosa. 
You said in your testimony you were not here testifying on 
behalf of ATSDR. I do think that is abundantly clear. In the 
early stages of our investigation there was some suggestion 
that there was actually a conscious effort to exclude you from 
the review chain for the report, and your superiors adamantly 
deny because they knew what your position would be. Your 
superiors adamantly deny that is the case, and they say that 
they put into place expedited review procedures because of the 
urgency surrounding Katrina and Rita. And I certainly applaud 
the government trying to act quickly on its feet when 
circumstances require that.
    But were you part of, did you design the review procedures 
that excluded you, that did not include you in the review?
    Dr. De Rosa. I did not.
    Chairman Miller. Okay. Did you review, in fact, review this 
report?
    Dr. De Rosa. I did not review the February 1 consultation 
at all.
    Chairman Miller. Okay. And when did you first see it again?
    Dr. De Rosa. February 27.
    Chairman Miller. And how quickly after that did you, when 
did you do something, if ever?
    Dr. De Rosa. Upon reading the report I called the Office of 
the Director, I spoke with personnel there, and indicated that 
we had a significant issue with this document because it was 
incomplete and perhaps misleading. I followed that up with an 
e-mail to that effect. I then rapidly drafted a proposed 
amendment, pointing out that there was a concern regarding the 
longer-term health affects that same afternoon and that this 
was the letter that could be forwarded over my signature or 
forwarded over anyone's signature for that matter to amend our 
initial consult.
    Chairman Miller. I understand that your superiors both, at 
ATSDR both in their interviews with our staff and then their 
expected testimony later today, will say that you were 
responsible for the work of your team, even though it was not 
directly reviewed by you. Do you have a response to that?
    Dr. De Rosa. In fact, that was the reason I was most 
concerned in my initial review. I felt that our internal 
procedures governing the review of any division document had 
not been followed and that this was why the consult turned out 
as it did. I later learned that that was not the case. I later 
learned that this was being dealt with in the aftermath of 
Katrina, where staff were tasked as needed, independent of 
giving management chain to provide the needed input on a 
consultation or other evaluation. Typically, this would have 
gone through several levels of review prior to that. Not 
knowing the involvement of Dr. Frumkin and Sinks at the time, I 
did meet with my staff to reaffirm our standard operating 
procedures in clear terms and didn't learn about the other 
aspects of the review and clearance process prior to summer of 
2007.

                   Dr. De Rosa's Performance Reviews

    Chairman Miller. In the last few months it is apparent that 
your superiors at ATSDR have grown to view you as a problem 
employee, but I know that the Federal Employment System had 
incented bonuses for the best employees, to keep them in 
federal employment.
    Have you gotten one of those in the past?
    Dr. De Rosa. In 2006, I received a very substantial and 
generous bonus and salary raise based on my performance.
    Chairman Miller. And how much was that?
    Dr. De Rosa. It was five percent of my salary as an 
increase I believe, and 10 percent bonus.
    Chairman Miller. And that was the most recent review before 
the one at which you were found to be lacking?
    Dr. De Rosa. It was.

    Consequences of Inaction: Health Effects of Additional Exposure

    Chairman Miller. Okay. For both Dr. Karol--the Chair now 
warns himself that he is over his time.
    It does appear that the conduct of ATSDR in issuing the 
report in February of 2007, and then failing to act with some 
urgency when it was very clear that FEMA was continuing to tout 
that report as authority for their needing to do nothing more 
than what they were doing, may have delayed, may very well have 
delayed moving people out of the trailers for a year.
    Some people have been in the trailers for two and one-half 
years, some people much less. How much can we calculate or 
estimate what difference it might make for the families, for 
children, for pregnant mothers, for the older folks to have had 
an additional year of exposure to formaldehyde fumes?
    Dr. Karol.
    Dr. Karol. The important thing to do now is to track those 
people to get good records and to have a health assessment so 
that you have got good data to evaluate in the future, and it 
is difficult to evaluate what the effect might have been. But, 
you know, right now what you can do is to track the people, get 
them evaluated, and get the trailers evaluated as well.
    Chairman Miller. Dr. De Rosa.
    Dr. De Rosa. I would agree. I think that what we refer to 
as a health registry of those individuals who had been exposed 
throughout that period should be instituted to the extent that 
it can be so that the people can be followed through time. 
Because we know many of the affects that Dr. Karol referred to 
have a latency of 10 to 20 years. And so this is something that 
may not manifest itself for a period of time. We do know that 
people have already been clearly affected by the reports of 
sensitization and as well as the other classic signs of acute 
formaldehyde toxicity.
    Chairman Miller. The Chair's time has expired.
    The Chair now recognizes Ms. Eddie Bernice Johnson for five 
minutes.

                         Protecting the Public

    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. De Rosa, the mission of your agency is to be protective 
toward the public with scientific information, isn't it?
    Dr. De Rosa. Yes, ma'am.
    Ms. Johnson. Do you feel confident that your agency is 
fulfilling that mission?
    Dr. De Rosa. I believe that there are many ongoing efforts 
that meet that criteria of protecting the public's health. I 
believe in some areas, and again, I am speaking personally, not 
for my agency----
    Ms. Johnson. Uh-huh.
    Dr. De Rosa.--that perhaps a more precautionary approach 
could be taken in dealing with the uncertainties that surround 
many of these types of unfortunate incidents that occur 
throughout our country and elsewhere.
    Ms. Johnson. Is there a procedure by which once information 
is gained and it is, it lends itself to being a rather negative 
about what is going on, how is it received by the leadership of 
the agency?
    Dr. De Rosa. There have been many instances in which such 
concerns have been raised and have resulted in the development 
of health alerts that are, again, developed in coordination 
with other agencies and placed on our website and duly noted. 
In other instances there seems sometimes I would suggest a 
reluctance to deal with things such as multiple chemical 
sensitivity.
    Ms. Johnson. Uh-huh.
    Dr. De Rosa. My own view is that we should be addressing 
this issue, agreeing on what we know, agreeing on what we don't 
know, and identifying how to deal with the latter.

                   More on Long-term Health Tracking

    Ms. Johnson. When you arrive at a position that there is 
some question about the effects of an environment or whatever, 
and perhaps a person is exposed, need to be tracked, how is 
that handled?
    Dr. De Rosa. Generally speaking when we have a group of 
individuals that have been exposed, we will attempt to follow 
those individuals through time to identify subsequent health 
issues that they may experience.
    Ms. Johnson. Do you know whether or not this has been 
instituted with Katrina victims?
    Dr. De Rosa. To my knowledge it has not been, but I believe 
it is being considered, and I would think that it would be an 
appropriate path forward.
    Ms. Johnson. Well, thank you very much.
    Dr. Karol, being an expert on toxicology, I noticed that 
you just mentioned that some tracking would probably bring 
forth future information. Do you feel that your consultation 
with the ATSDR has been useful?
    Dr. Karol. Well, I think that there has to be a systematic 
approach in the future to document who is living in the 
trailers, what the conditions are, what are the other exposures 
in the trailer, and what are the health concerns. I, you know, 
I think that is absolutely essential to go forward.
    Ms. Johnson. Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Ms. Johnson.
    The Chair now recognizes not a Member of this committee but 
the Chairman of the Environment and Energy Subcommittee, Mr. 
Lampson.

                Dr. De Rosa Excluded From Past Reviews?

    Mr. Lampson. Thank you, Mr. Chairman.
    Dr. De Rosa, have you been left out of reviews and other 
times, other circumstances do you recall?
    Dr. De Rosa. I have not had further involvement with the 
ongoing activities regarding formaldehyde in trailers issue, 
nor with what was referenced earlier as the report on the Great 
Lakes, 26 areas of concern. I have had very limited involvement 
since October with reviews of that nature.
    Mr. Lampson. What about before that? Were there other times 
that you were left out of a review?
    Dr. De Rosa. It is hard to know if one has been left out of 
a review, but, you know, it is certainly possible, you know. I 
would not be aware if I had been left out.
    Mr. Lampson. Generally, how have you been treated of late 
in the agency?
    Dr. De Rosa. My experiences in the last period of months 
since October have been complicated. I have been removed from 
my position as I mentioned as the Director of the Division of 
Toxicology and Environmental Medicine. I have limited 
opportunity to interact with my peers in terms of technical 
exchange due to my physical relocation on three different 
instances since October; October, December, and February. I 
have been put on a performance improvement plan as of February 
21, as I recall, 90-day period, after which my performance will 
be evaluated.

                   ATSDR Emergency Health Evaluations

    Mr. Lampson. I am at a loss of words to follow that 
comment, so let me switch. You indicate that you requested that 
health interventions be pursued to address the clinical 
symptoms that people were experiencing. Are you, are there 
protocols of ATSDR in place for dealing with emergency 
situations, situations where people are experiencing health 
effects and some intervention is needed immediately?
    Dr. De Rosa. There are, but I would have to point out that 
ATSDR is an advisory and not a regulatory agency, though we do 
serve in an advisory capacity to organizations such as FEMA and 
EPA. And there are things that have been done in the past, for 
example, providing alternative drinking water supplies to 
communities whose water has been contaminated. There are also a 
range of health education activities that can be pursued that 
people can readily invoke that represent relatively low-hanging 
fruit. And generally speaking when people are given appropriate 
information, they act in the interest of their health.
    Mr. Lampson. How typical, I guess that is what I am trying 
to understand, how typical the situation is that or has been at 
your agency? It seems poor science was converted to poor 
information that, and the result was inaction. And I would add 
that the process took far too long to provide an emergency 
response. So how do we fix this?
    Dr. De Rosa. The initial response of the agency was very 
proactive. We had individuals deployed in the field prior to 
Katrina. We had stood up the range of resources available to us 
and had participated extensively in some of the initial 
triaging of people that were affected by Hurricane Katrina. I 
think the issue becomes what happens in the longer-term 
aftermath of these events.
    What do we do to take into account that something that 
happens in a very short timeframe for a very--at an extended 
level of exposure, perhaps. How do we track those individuals 
longer-term to understand what the longer-term consequences 
might be? And what interventions might be pursued to minimize 
any consequences of those acute exposures?

                      More on Reproductive Health

    Mr. Lampson. Are you aware of whether or not any of this 
can be passed onto future generations?
    Dr. De Rosa. Well, I did say that there were, potentially 
trans-generational impacts. That means in my mind that the 
developing fetus may well be affected by this, that there may 
well be reproductive developmental outcomes that would be 
evident in the children perhaps not yet born. That is an area 
in which there is some scientific debate. It is important to 
note that while the debate occurs that these reports have been 
described as inconsistent as opposed to contradictory, 
inconsistent means that because of the variable nature of the 
different studies that have been done, different findings will 
be reported by different studies at different points in time 
using different protocols. But the International Agency for 
Research on Carcinogens from a consult on occasion has 
indicated that the evidence in this case is suggestive but 
inconsistent.
    Mr. Lampson. My time has expired. I have other questions. I 
will submit them for the record, and I think that it would be--
I want to say that we appreciate the service that you have 
given to us and your willingness to stand up and speak about 
the things that you believe so strongly in. We need more people 
like you, not fewer.
    Thank you very much. I yield back my time.

         Deficiencies in the February 2007 Health Consultation

    Chairman Miller. Thank you. Just one question on 
clarification.
    Dr. Karol, the reason we have asked you to be a part of 
this panel is that you are obviously an expert in toxicology, 
and you were not involved in this in any way. And we are, we 
expect you to be a neutral witness. You don't have a dog in 
this fight except the public health generally.
    When you reviewed the February, 2007, health consultation, 
how much research, how much thought, how apparent was it to you 
was required, how much, how apparent was it to you that there 
was some deficiencies in that consultation?
    Dr. Karol. The best way to answer that was to, is to say 
that after I read that consultation, I immediately went into 
literature to see what else was known, because it seems 
insufficient as far as its coverage of long-term chronic 
effects. And as far as its coverage of sensitive, asthmatic 
individuals, hypersensitivity, allergic sensitivity so that, 
you know, I think it could have been done in a much more 
thorough manner. And it should have been done. There is a lot 
in the literature as far as reviews from the National Research 
Council, from the WHO, from numerous groups that have looked at 
formaldehyde as far as long-term consequences. And I don't 
think that is reflected adequately in the ATSDR document.
    Chairman Miller. Well, I still, I am not quite clear. Did 
you put the consultation down and say, well, that sounds right, 
but let me do a little research and see what the other 
literature says? Or did you put it down and say, and think to 
yourself, this just doesn't ring true?
    Dr. Karol. Well, parts of it I said, there has got to be 
more than this, and this isn't what sounds right to me, and 
that is why I went into the literature. Parts of it covering 
the acute effects, I think they tried hard to look at what was 
known but did not do a sufficient job.
    So I think it really falls down in the area of chronic 
effects, possible reproductive effects, possible carcinogens in 
someone.
    Chairman Miller. Dr. De Rosa, I want to join in--you can 
relax. I don't have any more questions, but I want to join in 
what Mr. Lampson has said. It is not second nature for many 
managers to value whistleblowers. There is some tendency to see 
them as insubordinate, as disloyal to their superiors. But the 
loyalty we expect is a loyalty to the mission of the agency, 
the loyalty to the mission to protect the public health, and we 
appreciate your willingness to step forward and say that when 
that, you think that the agency is not faithfully serving that 
mission.
    So we so value, we do appreciate whistleblowers, and would 
be deeply disappointed if you had adverse employment 
consequences as a result of blowing the whistle on conduct that 
we needed to know about.
    You may. You don't have to but you may.
    Dr. De Rosa. Just briefly I would comment that in 
struggling with what was a dilemma for me in pursuing this 
issue, I referred to a plaque that hung on my wall that was a 
pledge to the citizens of the United States by the CDC at that 
time in 1990. One of the elements, five elements was that we 
will put the benefits to society above the benefits to the 
institution, and so that is what I tried to do.
    Chairman Miller. Thank you, Doctor. This, we have now 
completed this panel. We will again take a two-minute break 
before beginning the next panel. Thank you.
    [Recess.]

                               Panel III:

    Chairman Miller. I would now like to welcome our third 
panel, our final panel. Dr. Howard Frumkin is the Director of 
the National Center for Environmental Health in the Agency for 
Toxic Substances and Disease Registry, the Centers for Disease 
Control, the ATSDR. Dr. Frumkin is joined by Dr. Tom Sinks, the 
Deputy Director at the National Center for Environmental Health 
at the ATSDR, and our final witness is Vice Admiral Harvey 
Johnson, Jr., the Deputy Administrator of the Federal Emergency 
Management Agency, FEMA.
    You each have five minutes for your spoken testimony, your 
oral testimony. Your written testimony will be included in the 
record. When you complete your testimony, we will begin with 
questions, and each Member will have five minutes to question 
the panel. It is the practice of the Subcommittee to take 
testimony under oath. Do any of you have an objection to 
swearing an oath, being sworn in? You also may be represented 
by counsel. Do any of you have counsel in this hearing today? 
The witnesses have all said that they do not object to swearing 
an oath, and they have no counsel with them. Would you please 
all now stand and raise your right hand?
    [Witnesses sworn]
    Chairman Miller. Thank you. The witnesses have all entered 
into the oath.
    Dr. Frumkin, I understand that you will be reading a joint 
statement for yourself and Dr. Sinks. You may begin.

   STATEMENT OF DR. HOWARD FRUMKIN, DIRECTOR, AND DR. THOMAS 
SINKS, DEPUTY DIRECTOR, AGENCY FOR TOXIC SUBSTANCES AND DISEASE 
REGISTRY, AND NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Dr. Frumkin. Good morning, Chairman Miller, other 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to be here today. I am Dr. Howard Frumkin, Director 
for the Centers for Disease Control and Prevention's National 
Center for Environmental Health and the Agency for Toxic 
Substances and Disease Registry. I am accompanied, as the 
Chairman said, by Dr. Thomas Sinks, Deputy Director of NCEH/
ATSDR. We share with the Committee a firm commitment to strong 
science, to public health protection, and to good government. 
We recognize the need to be accountable. Perhaps most 
importantly, we know that the tens of thousands of people 
throughout the Gulf Region who suffered through the 2005 
hurricanes and then lived for too long in structures not 
intended for long-term residence deserve our very best. We have 
accomplished a great deal in protecting public health, and I 
welcome the opportunity to describe our work. I will do so in 
three parts.
    First, in our overall response to Hurricanes Katrina and 
Rita, we did a great deal to protect public health. Hundreds of 
CDC and ATSDR staff were deployed to the Gulf Region, and 
hundreds more back in Atlanta supported their work. Setting 
aside our general public health work and focusing on 
environmental health alone, we helped restore safe drinking 
water and safe food; we helped evaluate all superfund sites in 
the damage zone for hazardous conditions; we mapped and 
assessed industrial facilities to identify hazards; we 
protected the public from carbon monoxide poisoning linked with 
generator use; we investigated mold in buildings and protected 
the public from that hazard; we assessed hospitals, clinics, 
schools, and other facilities and cleared them for re-entry as 
appropriate; and we assessed dozens of sets of environmental 
sampling data for health risks. Our work was extraordinarily 
effective and successful in protecting public health.
    Second, with respect to the specific focus of today's 
hearing, formaldehyde exposure in FEMA-supplied trailers and 
mobile homes, as I have previously acknowledged, our initial 
work could have been better. In retrospect, there were 
indications of a formaldehyde problem as early as the first 
half of 2006, and we could have engaged the issue earlier and 
more aggressively. Our initial work product, our February 2007 
report on formaldehyde in unoccupied trailers was narrowly 
focused, used an inappropriate level of concern, and did not 
deliver a sufficiently clear and complete public health 
message. The steps we took to rectify the report, while 
ultimately successful, took several months to complete, longer 
than they should have.
    Our initial formaldehyde work did not meet our own 
standards of excellence. We have carefully reviewed the factors 
that contributed, and we have taken concrete corrective 
actions. Some were immediate. For example, since irregular 
communication between FEMA and our agency contributed to the 
problem, we clarified with our own staff and with FEMA the 
appropriate channels of communication. Other corrective actions 
are ongoing, a review by our expert external Board of 
Scientific Counselors of our scientific clearance procedures, 
and an external review of our management procedures. I regret 
that our initial work on formaldehyde in trailers did not meet 
our own expectations. I am confident that we have learned 
important lessons, that we are acting on those lessons, and 
that we will be an even stronger, more effective agency moving 
forward.
    Third, I wish to update the Subcommittee of our ongoing 
work on formaldehyde in trailers. Our portfolio is broad and 
deep.
    Our study of 519 occupied trailers whose results are shown 
on the graphic provide the most solid evidence to date that 
formaldehyde levels were high. These data led to action, FEMA's 
decision to relocate trailer residents to more permanent 
housing and to discontinue the use of travel trailers. Our 
study of trailer structures with Lawrence Berkeley Laboratory 
is examining what features of trailers contribute to 
formaldehyde emissions. A remediation study with NASA is 
examining technologies that could lower formaldehyde levels. 
Our clinical record review of children in Mississippi will help 
clarify respiratory health implications of the hurricane 
aftermath including living in trailers. A long-term cohort 
study of children who resided in trailers will yield extensive 
data on the health implications of that experience. We will 
work with FEMA to create a registry of trailer registrants to 
facilitate follow-up and tracking over time as was discussed in 
the earlier panels. Our expert panel continues to meet to 
review our science and to advise us on our work. Our extensive 
communication effort continues our outreach to the public with 
health information. We are updating our toxicology profile on 
formaldehyde, and we have engaged other agencies to move toward 
long-term coordinated approaches to safe, healthy manufactured 
housing. This is a record of active, sustained, successful 
protection of public health.
    We share with the Members of the Subcommittee a common 
goal, to serve the public and to bring to bear the best science 
in doing so. As public servants, we are accountable for 
achieving this goal. I am very proud of our overall efforts to 
protect public health following Hurricanes Katrina and Rita, 
including our more recent efforts relating to formaldehyde. I 
recognize that in some respects we could and should have done 
better. We welcome the oversight of the Committee as we strive 
constantly to improve, and we stand ready to cooperate as we 
move forward.
    Thank you.
    [The prepared statement of Dr. Frumkin and Dr. Sink 
follows:]
         Prepared Statement of Howard Frumkin and Thomas Sinks
    Good morning Chairman Miller, Mr. Sensenbrenner, and other 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to be here today. I am Dr. Howard Frumkin, Director of the 
Agency for Toxic Substances and Disease Registry (ATSDR) and the 
Centers for Disease Control and Prevention's (CDC's) National Center 
for Environmental Health (NCEH). ATSDR and CDC/NCEH are separate 
Department of Health and Human Services agencies that are managed 
jointly from an administrative perspective. I am accompanied by Dr. 
Thomas Sinks, Deputy Director of ATSDR and CDC/NCEH.
    I am a physician with 26 years of experience in environmental and 
occupational medicine and epidemiology. I have been Director of NCEH/
ATSDR since September 2005. Previously, I served as chairman of the 
Department of Environmental and Occupational Health at Emory 
University's Rollins School of Public Health and professor of medicine 
at Emory Medical School. Dr. Sinks is a career CDC epidemiologist, 
having served in scientific and leadership positions for more than 23 
years.
    We share with the members of the Subcommittee a common goal--to 
serve the public, and to bring to bear the best science in doing so. As 
public servants, we are accountable for achieving this goal. I am very 
proud of our overall efforts to protect public health following 
Hurricanes Katrina and Rita, including our more recent efforts related 
to formaldehyde in Federal Emergency Management Agency (FEMA)-provided 
travel trailers, park and mobile homes (hereafter referred to as 
trailers). I recognize that in some respects we could and should have 
done better. There are key lessons to be learned, and we have taken 
important steps to ensure that our current and future work reflects 
those lessons we have learned. Our testimony will focus on three areas.
    First, I will provide an overview of NCEH/ATSDR activities and 
accomplishments related to Hurricane Katrina in general and 
formaldehyde and FEMA-provided trailers in particular.
    Next, I will discuss events leading to the original (2/07) ATSDR 
health consultation and management decisions during this period, and 
describe measures we have taken to ensure that as we move forward our 
work reflects lessons learned.
    Finally, I will summarize CDC/ATSDR ongoing and future scientific 
endeavors to further expand our understanding of, and ability to 
address, public health impacts of formaldehyde in FEMA-provided 
trailers.

Overview: NCEH/ATSDR Accomplishments and Activities Regarding Hurricane 
                    Katrina, Formaldehyde, and Health

    Under the leadership of the CDC Director's Emergency Operations 
Center, CDC and ATSDR took a wide range of actions to protect the 
public against even greater health impacts from devastation caused by 
Hurricanes Katrina and Rita. Our Agencies' contribution to the broader 
disaster response included----

        <bullet>  Deploying hundreds of CDC and ATSDR staff to the Gulf 
        Coast region to provide hands-on technical support.

        <bullet>  Staffing emergency response operations with several 
        hundred full-time staff to manage and triage requests for 
        assistance from state and local health departments and other 
        local partners.

        <bullet>  Taking measures to ensure early detection of possible 
        epidemics of infectious diseases and providing real-time 
        guidance on how to control and prevent future outbreaks.

        <bullet>  Monitoring the health needs of people in shelters and 
        providing printed public health education information.

        <bullet>  Protecting the health of emergency responders.

        <bullet>  Evaluating vaccination needs and practices.

        <bullet>  Supplying materials and medications through the 
        National Pharmaceutical Stockpile.

        <bullet>  Providing up-to-date communication materials to 
        health professionals, the media, and the public.

    NCEH/ATSDR served as the CDC/ATSDR lead for environmental health 
aspects of the response to Hurricanes Katrina and Rita. The list below 
provides several examples of NCEH/ATSDR accomplishments and other 
contributions.

        <bullet>  Supported federal, State and local officials in 
        restoring environmental public health services (safe drinking 
        water, food safety).

        <bullet>  In coordination with the Environmental Protection 
        Agency (EPA), evaluated all Superfund sites in the area for 
        hazards and assessed industrial facilities to identify 
        hazardous conditions related to hurricane damage.

        <bullet>  Anticipated and assessed well established hazards in 
        indoor environments related to carbon monoxide poisoning and 
        mold.

        <bullet>  Collaborated in assessing numerous community and 
        individual facilities such as schools to clear them for re-
        entry.

        <bullet>  Conducted state-of-the-art assessment of 
        environmental sampling data for human health implications and 
        made health recommendations to federal, State and local health 
        and environmental officials.

    In May of 2007, CDC launched a formal program to address the 
formaldehyde health concerns in FEMA-provided trailers. The program is 
led by the Director of the Division of Environmental Hazards and Health 
Effects within NCEH, with oversight from Dr. Sinks and me. We also 
developed an interagency agreement with FEMA to support the NCEH 
activities. The program has several components, described below:

        <bullet>  Expert Panel: We established an expert panel to 
        obtain individual guidance in developing CDC's methods for 
        studying aspects of formaldehyde exposure.

        <bullet>  Study of Occupied Trailers: Through an Interagency 
        Agreement with FEMA, CDC is conducting a formal study that 
        included testing formaldehyde levels in 519 occupied FEMA-
        provided trailers in Mississippi and Louisiana.

                  Interim results were announced on February 14, 2008. 
                The formaldehyde levels in indoor air were higher than 
                typical (based on recent data) levels of U.S. indoor 
                exposure in single family homes and apartments.\1\
---------------------------------------------------------------------------
    \1\ While this study was not designed to be nationally 
representative (for example 75 percent of homes did not have indoor 
carpet), these data represent some of the best available recent 
information.

                  Results were presented in person to occupants of 
                each of the 519 trailers that were tested as part of 
                the study, with assistance of the United States Public 
                Health Service Commissioned Corps. FEMA housing staff 
---------------------------------------------------------------------------
                also participated in these visits.

                  CDC/ATSDR recommended that individuals and families 
                be relocated from FEMA-provided trailers in the Gulf 
                Coast Region before warmer weather returns, based on 
                these interim findings. We also provided guidance on 
                setting priorities for relocation.

                  On March 3, 2008, we released a more detailed 
                interim report (available on our web site at http://
                www.cdc.gov/Features/FEMAtrailersFindings/). The 
                interim report provides additional findings, including 
                formaldehyde levels by trailer type and manufacturer.

                  We expect to issue a final report this Spring. This 
                report will contain a more detailed analysis than in 
                the interim report.

        <bullet>  Communications:

                  Our communication project team responded to more 
                than 6,000 calls for information related to 
                formaldehyde and/or FEMA-provided trailers since July 
                2007.

                  More than 1,000 persons attended 15 public 
                availability sessions in Louisiana and Mississippi to 
                learn about the results of CDC's formaldehyde sampling 
                of FEMA-provided trailers.

                  Health education materials were aggressively 
                distributed in locations frequented by residents of 
                FEMA-provided trailers.

                  New information has been released rapidly and made 
                available on CDC's web site.

        <bullet>  A chart review has been conducted of medical records 
        of children living in Hancock County, Mississippi, in 2005-
        2007, for respiratory illness, skin conditions, or 
        gastrointestinal illnesses. The review is expected to be 
        completed in the near future.

        <bullet>  Studies of Unoccupied Trailers: CDC is assessing 
        formaldehyde levels across different models and classes of 
        unoccupied travel trailers and mobile homes used by FEMA as 
        temporary housing. The purpose of this sampling is to identify 
        factors that may predict high exposure scenarios inside the 
        units, and to investigate cost effective solutions to reduce 
        the formaldehyde concentrations. CDC is conducting additional 
        work:

                  With the Lawrence Berkeley National Laboratory, to 
                test components of unoccupied trailers from FEMA's 
                inventory for off-gassing of formaldehyde.

                  With NASA, to evaluate potential methods to mitigate 
                formaldehyde levels in trailers.

                  To test unoccupied trailers to determine 
                formaldehyde levels by manufacturer, time of day, and 
                temperature.

Retrospective Look at the ATSDR Health Consultation

    The information below reflects the facts and events as I currently 
understand them regarding the February 2007 ATSDR health consultation 
and measures we have taken to insure that our work moving forward 
reflects lessons learned.
    In July 2006, a representative of EPA contacted members of ATSDR's 
Division of Toxicology and Environmental Medicine (hereafter referred 
to as Division of Toxicology) requesting that ATSDR participate in a 
conference call with representatives of FEMA. The purpose of the call 
was to discuss EPA's sampling for formaldehyde in FEMA-provided 
unoccupied trailers.
    After the initial contact, the Acting Deputy Director of NCEH/
ATSDR's Office of Terrorism Preparedness and Emergency Response 
(hereafter referred to as Office of Emergency Response), who was also 
NCEH/ATSDR's coordinator for Hurricane Katrina-associated actions, 
informed Dr. Sinks of the request for ATSDR participation in discussion 
with EPA and FEMA regarding EPA sampling of formaldehyde. This request 
was handled by staff of ATSDR's Division of Toxicology who routinely 
handled emergency requests. At the time, the request for assistance 
appeared to be consistent with previous efforts to support EPA in the 
aftermath of Hurricanes Katrina and Rita, and Dr. Sinks encouraged 
agency involvement.
    During the next several months, staff of ATSDR's Division of 
Toxicology managed and handled ATSDR's involvement in regular 
communications with representatives of FEMA and EPA on this issue. 
Specifically, the staff participated in conference calls with EPA and 
FEMA concerning sampling plans for measuring formaldehyde levels in 
unoccupied trailers. The resulting sampling design involved 96 
unoccupied travel trailers newly purchased by FEMA. The specific role 
of staff of the Division of Toxicology was to interpret the data 
generated by EPA sampling activities in order to: (1) evaluate levels 
of formaldehyde measured by EPA in closed, unoccupied trailers; and (2) 
determine whether two mitigation strategies (opening windows and 
running air conditioning) would substantially reduce formaldehyde 
levels. Staff of the Division of Toxicology regularly listed this 
project in their routine report of activities distributed through 
supervisory and management channels.
    EPA sampled the trailers in October 2006, and provided the data to 
FEMA on November 17, 2006. FEMA transmitted the data to staff of 
ATSDR's Division of Toxicology on December 1, 2006, for analysis. The 
data were accompanied by a cover letter from a FEMA attorney who had 
participated in the interagency conference calls regarding testing for 
formaldehyde in trailers. The letter did not restrict the scope of 
ATSDR's analysis or conclusions, nor am I aware of any communication 
from FEMA attempting to impose such a restriction.
    Upon completion of a draft of the report, Division of Toxicology 
staff provided a copy to the coordinating office for response 
activities related to Hurricanes Katrina and Rita, the Office of 
Emergency Response. Staff from that Office reported this status in 
early January 2007 at a routine meeting with Dr. Sinks and me. A 
follow-up e-mail from the Office of Emergency Response suggests that I 
looked at the draft report during the meeting and noted the absence of 
an executive summary and conclusions/recommendations. Following the 
meeting Dr. Sinks read the draft and provided handwritten comments on 
the hard copy. Those comments were relayed to the Division of 
Toxicology staff working on the project and they finalized the 
document. In his role as coordinator of our continued response to 
Hurricanes Katrina and Rita, the Acting Director of the Office of 
Emergency Response transmitted the health consultation to FEMA on 
February 1, 2007.
    As noted earlier, the focus of ATSDR's analysis was narrow. As 
stated in the health consultation, ``FEMA has not requested ATSDR to 
evaluate longer-term formaldehyde concentrations in trailers or health 
concerns related to potential exposures. ATSDR will be available to 
provide assistance if such data becomes available in the future.''
    In late February 2007, Dr. Christopher De Rosa, Director of the 
Division of Toxicology, notified Dr. Sinks that he had only recently 
reviewed the health consultation. Although this project was listed in 
regular reports of work in his Division, he stated that he had not seen 
the document previously and that it failed to address the potential 
long-term health consequences related to chronic exposure to 
formaldehyde. The Director of the Division of Toxicology had not raised 
this concern to staff in his Division earlier, prior to release of the 
report. Regarding health consequences of long-term exposure, I 
concurred with this concern once it was raised to me. I encouraged the 
Division Director to draft a letter to FEMA highlighting ATSDR's 
concerns and clarifying the scope of the health consultation. The 
letter, dated March 17, 2007, states:

         ``I am concerned that this health consultation is incomplete 
        and perhaps misleading. Formaldehyde is classified as 
        `reasonably anticipated to be a human carcinogen.' As such, 
        there is no recognized safe level of exposure. Thus any level 
        of exposure to formaldehyde may pose a cancer risk regardless 
        of duration. Failure to communicate this issue is possibly 
        misleading and a threat to public health.''

    During a hearing held by the House Committee on Oversight and 
Government Reform in July 2007, a witness questioned the ``level of 
concern'' referenced in the February 2007 ATSDR health consultation. 
This prompted a careful re-evaluation of the report. That re-evaluation 
revealed several issues. First, the report did not make sufficiently 
clear that the purpose of the health consultation was very narrow--
characterizing formaldehyde levels in closed unoccupied trailers and 
the effect of two mitigation strategies. Second, ATSDR's use of a 
``level of concern'' provided a false impression of what constitutes an 
acceptable health risk, further contributing to misinterpretation. 
Third, the analysis had not examined how formaldehyde levels varied by 
manufacturer, time of day, or temperature.
    In August 2007, because of these and other issues, Dr. Sinks 
recommended that the data be reanalyzed and the report completely 
rewritten. I concurred and in October the revised report was released. 
Both the original report and the final report remain available on the 
ATSDR web site at: http://www.atsdr.cdc.gov/substances/formaldehyde/
public<INF>-</INF>assessment.html

Lessons Learned

    CDC/ATSDR recognize that our agencies should have moved more 
forcefully to address the emerging concern related to formaldehyde 
levels in FEMA-provided trailers, particularly as it became apparent 
that people were living in them for longer periods of time, not as a 
short-term solution as they had been widely considered in the past. As 
Director of NCEH/ATSDR, I accept responsibility for shortfalls in our 
response, and for taking steps to prevent similar situations in the 
future.

    Issue: We addressed formaldehyde exposures too slowly and too 
narrowly.

    Issue: The initial health consultation fell short of our own 
standards.

    Lessons Learned/Actions Taken: Hurricane Katrina presented many 
scientific and organizational challenges. Through this experience, we 
identified gaps in how scientific work is assigned, supervised, and 
reviewed.
    We have taken responsibility ourselves and have directed all of our 
managers to implement several steps to address these issues. These 
include:

        <bullet>  Triaging key assignments to appropriate scientific 
        staff depending on the content of the request and staff 
        expertise

        <bullet>  Providing appropriate scientific and supervisory 
        oversight of all staff

        <bullet>  Applying consistent peer review across all divisions

    We have also requested that our Board of Scientific Counselors 
examine our review and clearance process for all scientific materials, 
and we have commissioned an external review of management procedures to 
identify opportunities for improvements.
    Finally, all of our staff have been asked to make sure that any 
contacts with other agencies are directed through the most appropriate 
channels to insure consistent and correct communication.

Moving Forward

    CDC/ATSDR now recognize formaldehyde in FEMA-provided trailers as 
an important public health issue, and have made research in this area a 
high priority to which we are devoting a tremendous amount of effort 
and are making significant progress. Beginning in May of 2007, before 
the hearing that prompted us to revisit the health consultation and 
reissue the report in October 2007, and continuing today, NCEH's 
Division of Environmental Hazards and Health Effects has been 
proceeding with a broad set of formaldehyde-related activities. These 
activities are being conducted with the full support of the NCEH 
Division Director as well as Center, Coordinating Center and Agency-
wide leadership. And, we have an extensive and transparent 
communication network through which we are keeping policy-makers and 
the public apprised of our activities and findings.
    CDC/ATSDR will continue to build the science base and to protect 
public health from formaldehyde exposures in indoor environments. To 
help clarify the health impacts of formaldehyde exposure, we are 
planning several additional activities, including:

        <bullet>  A five-year study of children who resided in FEMA-
        supplied trailers in Alabama, Louisiana, Mississippi, and Texas 
        is being initiated; the protocol currently is under review.

        <bullet>  A broad and proactive approach to formaldehyde in 
        manufactured structures. We have reached out to FEMA, HUD, and 
        other partners, and will collaborate with them in addressing 
        this multi-jurisdictional challenge.

        <bullet>  A registry/census of current and former residents of 
        FEMA-provided trailers, which would facilitate communication 
        with them in the future. For example, this could facilitate 
        conducting future studies.

    In summary, CDC/ATSDR remains firmly committed to building the 
science base and protecting public health from formaldehyde exposures 
in indoor environments, and more broadly, to helping assure safe, 
healthy indoor environments for all Americans. These are all important 
issues to assure that science and public health are fully addressed and 
CDC looks forward to the opportunity to work with the Committee on 
these important issues.

Conclusion

    As we continue our ongoing research, we recognize fully our 
obligation to the American public, to Congress, and most importantly to 
residents of the travel trailers, to deliver the independent, credible 
science that helps inform good decision-making by the individuals who 
were displaced by Hurricanes Katrina and Rita.
    Thank you for the opportunity to present this information to you 
today. We would be happy to answer any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Biography for Howard Frumkin
    Howard Frumkin is Director of the Agency for Toxic Substances and 
Disease Registry and also Director of the National Center for 
Environmental Health at the Centers for Disease Control and Prevention, 
U.S. Department of Health and Human Services. NCEH/ATSDR works to 
maintain and improve the health of the American people by promoting a 
healthy environment and by preventing premature death and avoidable 
illness and disability caused by toxic substances and other 
environmental hazards.
    Dr. Frumkin is an internist, environmental and occupational 
medicine specialist, and epidemiologist. Before joining the CDC in 
September, 2005, he was Professor and Chair of the Department of 
Environmental and Occupational Health at the Rollins School of Public 
Health of Emory University, and Professor of Medicine at Emory Medical 
School, in Atlanta. At Emory he founded and directed the Environmental 
and Occupational Medicine Consultation Clinic, the Occupational 
Medicine Residency training program, and the Southeast Pediatric 
Environmental Health Specialty Unit.
    Dr. Frumkin previously served on the Board of Directors of 
Physicians for Social Responsibility (PSR), where he co-chaired the 
Environment Committee; as president of the Association of Occupational 
and Environmental Clinics (AOEC); as Chair of the Science Board of the 
American Public Health Association (APHA), as a member of EPA's 
Children's Health Protection Advisory Committee, where he chaired the 
Smart Growth and Climate Change work groups; and on the National 
Toxicology Program Board of Scientific Counselors. He currently serves 
on the Institute of Medicine Roundtable on Environmental Health 
Sciences, Research, and Medicine. In Georgia, he was a member of the 
state's Hazardous Waste Management Authority, the Department of 
Agriculture Pesticide Advisory Committee, and the Pollution Prevention 
Assistance Division Partnership Program Advisory Committee, and is a 
graduate of the Institute for Georgia Environmental Leadership. In 
Georgia's Clean Air Campaign, he served on the Board and chaired the 
Health/Technical Committee. He was named Environmental Professional of 
the Year by the Georgia Environmental Council in 2004. He has served as 
a consultant to several corporations, including Hewlett-Packard, 
Southwire, Georgia Power, and Polaroid, and to several unions, 
including the Chemical Workers Association and the Utility Workers 
Union. His research interests include public health aspects of urban 
sprawl and the built environment; air pollution; metal and PCB 
toxicity; climate change; health benefits of contact with nature; and 
environmental and occupational health policy, especially regarding 
minority workers and communities, and those in developing nations. He 
is the author or co-author of over 100 scientific journal articles and 
chapters, and his books include Urban Sprawl and Public Health (Island 
Press, 2004, co-authored with Larry Frank and Dick Jackson), Emerging 
Illness and Society (Johns Hopkins Press, 2004, co-edited with Randall 
Packard, Peter Brown, and Ruth Berkelman), Environmental Health: From 
Global to Local (Jossey-Bass, 2005), and Safe and Healthy School 
Environments (Oxford University Press, 2006, co-edited with Leslie 
Rubin and Robert Geller).
    Dr. Frumkin received his A.B. from Brown University, his M.D. from 
the University of Pennsylvania, his M.P.H. and Dr.P.H. from Harvard, 
his Internal Medicine training at the Hospital of the University of 
Pennsylvania and Cambridge Hospital, and his Occupational Medicine 
training at Harvard. He is Board-certified in both Internal Medicine 
and Occupational Medicine, and is a Fellow of the American College of 
Physicians and the American College of Occupational and Environmental 
Medicine.
    Dr. Frumkin was born in Poughkeepsie, New York. He is married to 
Beryl Ann Cowan, an attorney and child advocate. They live in Atlanta 
with their two children, Gabriel (age 18) and Amara (age 14).

    Chairman Miller. Thank you. Admiral Johnson.

STATEMENT OF VICE ADMIRAL HARVEY E. JOHNSON, JR. (RET.), ACTING 
   DEPUTY ADMINISTRATOR AND CHIEF OPERATING OFFICER, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Vice Admiral Johnson. Good morning, Chairman Miller, 
Congressman Lampson, Members of the Committee. I am Harvey 
Johnson, the Acting Deputy Administrator and Chief Operating 
Officer of FEMA within the Department of Homeland Security. I 
am here this morning, Mr. Chairman, to assure the Committee 
that FEMA is taking responsible steps to address the concerns 
regarding the presence of formaldehyde in temporary housing 
units. I would like to do this by making three principal 
points. First, the health and safety of temporary housing 
occupants is of paramount importance to FEMA. One of our 
primary missions is to provide individual citizens, disaster 
victims; and communities and members of the FEMA team, many of 
whom are disaster victims themselves, take this very seriously. 
Since March of 2006 to the present, we have investigated each 
instance where an occupant has reported concern due to 
formaldehyde, and we sought to find remedy by swapping out the 
housing unit or relocating the family to a rental housing unit. 
FEMA has been aggressive to search within communities to find 
available housing options which sometimes have been rare to 
offer current occupants mobile homes and travel trailers. We 
have seen in the population of households, the temporary units 
dropped from a peak of almost 143,000 units to now just over 
now 30,000. Since February 14th and the release of the 
preliminary findings, FEMA has prioritized relocation of those 
occupants who have expressed a health concern, those who are 
most susceptible to health risks such as elderly to households 
with young children and those with respiratory challenges. That 
category is comprised of just over 12,000 households.
    For current and future disasters, FEMA will test the level 
of formaldehyde in every unoccupied unit prior to deployment 
and provide the certified results to the state as well as to 
the occupant. FEMA will deliver the units that are determined 
acceptable by the state. FEMA has also updated specifications 
for purchases of new manufactured housing units and park models 
to be more stringent on air quality.
    Second, FEMA has been completely transparent on this issue. 
FEMA sought to ensure that the occupants of temporary housing 
units have access to all of the available information about 
formaldehyde. We have established and still maintain an open 
call center where callers can talk to FEMA or representatives 
from the Centers for Disease Control. We maintain a website 
that provides access to all current formaldehyde information, 
and we have distributed fliers to occupants on three separate 
occasions informing occupants of the symptoms of formaldehyde 
exposure and suggesting actions they can take to reduce 
formaldehyde levels based on guidance from public health 
officials at the time.
    FEMA has provided more than 20,000 pages of documents to 
Congress, including this subcommittee. We have provided similar 
information to the Government Accounting Office to the 
department's Office of Inspector General. Our staffs have met 
with Congressional staff and various investigators on numerous 
occasions. FEMA has hosted meetings and provided information on 
various advocacy groups to ensure transparency of FEMA's 
actions regarding formaldehyde.
    And finally, FEMA recognizes the importance and 
significance of this issue and is intent on becoming part of 
the solution. FEMA recognizes our limitations as well. We are 
not a public health agency, and frankly, we are not a long-term 
housing agency, either. We have sought medical and 
environmental assistance from the very beginning, engaging with 
the Environmental Protection Agency, the Department of Health 
and Human Services, the Centers for Disease Control, and the 
Office of Health Affairs within the Department of Homeland 
Security. Even today we engage in all or some of them every day 
in our shared desire to best meet the health and safety 
challenges of disaster victims. We have tried to be a smart 
consumer of their advice and have tried to implement that 
advice in the practical settings of a disaster site. We have 
made some mistakes along the way. All of us have. But it has 
occurred as the act has been in the service of providing 
assistance to disaster victims with the best of intentions, and 
we have all learned and gained a significant knowledge along 
the way. At no time has FEMA ever turned from the challenge 
because of concern for litigation or thought that we might be 
criticized for our actions. We have also tried to learn more 
from the challenges. For example, we are working right now with 
a temporary housing manufacturer and believe that our public/
private cooperation will lead to a temporary housing unit at 
extremely low levels of formaldehyde and that these new units 
will be available for the upcoming hurricane season.
    Importantly, Mr. Chairman, FEMA shares the objectives of 
this committee that our collective efforts to examine this 
complex issue will result in better policy and greater 
awareness and more consistent assurance to the public, more 
specifically to current and prospective disaster victims, that 
FEMA and our federal and state partners can better ensure their 
health and safety.
    I am pleased to answer any of your questions.
    [The prepared statement of Vice Admiral Johnson follows:]
              Prepared Statement of Harvey E. Johnson, Jr.
    Good morning Chairman Miller, Congressman Lampson, and Members of 
the Committee. I am Harvey Johnson, Acting Deputy Administrator and 
Chief Operating Officer for the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA). Thank you for inviting me 
here and giving me an opportunity to assure this committee that FEMA is 
taking responsible steps to address the concerns regarding the presence 
of formaldehyde in temporary housing units provided to disaster 
assistance applicants.
    The health and safety of the residents of travel trailers provided 
to disaster victims is of paramount importance to FEMA. These are more 
than simple words, as they reflect an element of the ethos of FEMA--
providing effective assistance to communities and disaster victims.
    Today, I will briefly highlight actions FEMA took in 2006 and early 
2007 regarding the issue of formaldehyde in temporary housing units. 
Second, I will address FEMA's agreement with the Centers for Disease 
Control and Prevention (CDC) under which CDC performed testing of more 
than 500 units in the Gulf Coast and the actions taken based on the 
preliminary results. Third, I will highlight the additional actions 
FEMA is taking to provide for the safety and well being of the 
residents of these travel trailers by finding them alternative housing. 
Finally, I will address the additional interim measures regarding the 
use of temporary housing units that FEMA has adopted as a precaution, 
and which FEMA will employ for all disaster housing operations until 
permanent indoor air quality standards related to formaldehyde are 
developed by appropriate health officials.

2006-2007 Actions Taken Regarding Formaldehyde

    Formaldehyde is a substance that is widespread in today's 
environment. Indeed, formaldehyde is commonly found in a wide-range of 
manufactured items, including materials used to construct manufactured 
items, including materials used to construct travel trailers and 
manufactured housing (also known as ``mobile homes''). The trailers 
purchased by FEMA are not unique in this regard. At higher levels, 
especially indoors, formaldehyde can be irritating to the respiratory 
system, and has been identified by the National Toxicology Program 
(NTP) as reasonably anticipated to be a human carcinogen. The issue of 
formaldehyde in travel trailers is complicated by the fact that, 
despite over 30 years of research, no federal agency has determined an 
acceptable level of formaldehyde in residential indoor air. There is no 
established or recognized standard or benchmark for formaldehyde 
exposure in indoor residential air-quality. Nor are there any 
government standards relating to formaldehyde levels in the types of 
travel trailers provided by FEMA to Gulf Coast housing applicants.
    FEMA began tracking formaldehyde-related concerns by Gulf Coast 
travel trailer occupants in early 2006. FEMA addressed applicant 
concerns on a case-by-case basis in the Gulf Coast. FEMA's response to 
complaints about formaldehyde levels included sending a housing staff 
employee to visit with the occupants of the units to discuss mitigation 
techniques for the units including: increased ventilation, keeping 
indoor air temperatures moderate, lowering the humidity, and not 
smoking in the unit. In instances when these mitigation efforts did not 
resolve the residents' concerns, FEMA also offered to provide residents 
with a different unit.
    As FEMA continued to monitor formaldehyde reports throughout spring 
2006, FEMA became concerned that the complaints might not be isolated 
occurrences. As a result, FEMA began consulting with the Environmental 
Protection Agency (EPA), the Agency for Toxic Substances and Disease 
Registry (ATSDR) within the Department of Health and Human Services 
(HHS), and the manufactured home industry to gather information about 
the presence and effects of formaldehyde.
    We also began widespread distribution of information to travel 
trailer occupants across the Gulf Coast identifying potential sources 
of formaldehyde and explaining to applicants how they could mitigate 
the exposure to formaldehyde. Flyers capturing this information were 
hand delivered to all travel trailer occupants beginning in summer 
2006.
    In September 2006, FEMA began a study to test formaldehyde levels 
in travel trailers, and to identify the most effective methods for 
reducing formaldehyde levels in travel trailers and manufactured 
housing (also known as ``mobile homes'') in use in the Gulf Coast 
region. Given the lack of alternative housing in the Gulf, finding 
alternative housing for all mobile home and trailer occupants from 
their temporary housing would have taken too long, and would have left 
residents with no way to address their concerns in the immediate term. 
We had to find a way to mitigate the levels immediately. The mitigation 
study involved collecting air samples from new, unused travel trailers 
that were ventilated in various ways during the months of September and 
October at a staging area in Baton Rouge, Louisiana. FEMA modified an 
Interagency Agreement with EPA to perform this sampling.
    In November 2006, EPA provided the data gathered during the 
sampling phase to FEMA for further analysis. A FEMA staff attorney 
forwarded the data to ATSDR emergency response staff for evaluation. 
ATSDR's Health Consultation, provided to that FEMA staff attorney in 
February 2007, confirmed that proper ventilation (i.e., opening all 
windows, rather than using air conditioning) could reduce the 
formaldehyde levels. FEMA believed that this guidance was based on the 
best available published studies and standards in light of the absence 
of standards directly relating to formaldehyde and indoor air quality. 
FEMA developed information and guidance based on the results of the 
study and provided this information and guidance to the residents of 
the travel trailers.
    Given the absence of applicable indoor air-quality standards, the 
initial consultation with ATSDR was intended to evaluate the 
effectiveness of formaldehyde-mitigation measures rather than the long-
term health impacts associated with particular residential 
concentrations of formaldehyde. As is noted in the Health Consultation, 
``FEMA has not requested ATSDR to evaluate long-term formaldehyde 
concentrations in trailers or health concerns related to potential 
exposures.''
    In March 2007, the FEMA staff attorney who had requested the ATSDR 
analysis in November, and to whom ATSDR had sent its February Health 
Consultation, received a follow-up letter from ATSDR stating that the 
February 2007 Health Consultation was ``incomplete and perhaps 
misleading.'' Unfortunately, this letter only came to the attention of 
senior leadership several months later. Had the March 2007 follow-up 
letter from ATSDR been brought to senior leadership's attention when it 
was received, we would have sought clarification from ATSDR. ATSDR also 
subsequently revised its Health Consultation in October 2007 to include 
a number of caveats relating to potential health impacts of long-term 
exposure. At the time of the release of the revised report, FEMA was 
already moving ahead with CDC on more comprehensive testing, including 
for long-term effects. FEMA has always taken these health concerns 
seriously, which is why we initially reached out to EPA and CDC and 
continue to closely coordinate with appropriate agencies as we make 
policy decisions regarding the use of temporary housing units (travel 
trailers, park models and mobile homes).
    From early 2006 through May 2007, FEMA received approximately 130 
complaints regarding formaldehyde, including 47 requests that a 
resident's unit be ``swapped-out'' for another unit. To put that number 
in context, during its response to Hurricanes Katrina and Rita, FEMA 
provided temporary housing units to more than 143,000 families across 
the Gulf Coast.
    In May 2007, renewed focus on the formaldehyde issue followed media 
reports of concerns by a doctor in Mississippi about health trends he 
believed he was seeing in residents of temporary housing. FEMA 
immediately engaged with the Department of Homeland Security's Office 
of Health Affairs (DHS OHA) as well as the experts from the CDC and 
ATSDR to better understand the potential health concerns associated 
with formaldehyde and determine the best scientifically valid approach 
to address this issue. On behalf of FEMA, DHS OHA officials met at the 
CDC headquarters in Atlanta with representatives of the National Center 
for Environmental Health and the ATSDR to develop a strategy to rapidly 
test actual indoor air quality conditions in occupied units, determine 
a scientifically valid target for air quality improvement, and further 
assess potential mitigating actions that could be taken to further 
reduce formaldehyde levels. This meeting eventually resulted in the 
Inter-Agency Agreement with CDC discussed below.
    In order to address the ongoing health and safety concerns of those 
still residing in temporary housing units while FEMA was working with 
the CDC and other health agencies, FEMA established a Formaldehyde Call 
Center for occupants living in travel trailers and mobile homes. All 
occupants who contact the help line with questions or concerns are 
offered an immediate move to a hotel or motel. Additionally, FEMA 
distributed a second formaldehyde and housing fact sheet to the 
occupants of every FEMA trailer across the Gulf Coast (70,000 flyers 
were distributed across the Gulf), as well as throughout the rest of 
the country. The fact sheet provided basic information about 
formaldehyde, including possible medical effects, ventilation 
techniques to reduce formaldehyde levels, and contact information for 
assistance.
    In addition to offering immediate housing options to current 
trailer occupants, the Agency issued an Interim Direction on the Use of 
Temporary Housing Units on July 31, 2007, which took the added step of 
temporarily suspending the installation, sale, transfer or donation of 
travel trailers or park model recreational vehicles while the agency 
worked with health and environmental experts to assess air quality and 
health-related concerns.

Interagency Agreement With CDC

    In August 2007, FEMA and CDC entered into an Interagency Agreement 
to initiate and complete testing of a statistical sampling of occupied 
units and to provide technical assistance and public health guidance to 
FEMA to evaluate the indoor environmental air quality in temporary 
housing units and the associated health effects to residents. At FEMA's 
request, CDC is also conducting a health study of children who lived in 
FEMA-supplied temporary housing in Mississippi and Louisiana, as well 
as mitigation strategies for unoccupied units, focusing on components 
that off-gas and technologies that reduce off-gassing or accumulation.
    Testing of occupied units was to have begun in early November 2007, 
but did not begin until December 2007. However, because there are no 
federal standards for formaldehyde exposure in a residential setting, 
testing was delayed to allow for the necessary development of a 
consensus among public health experts as to how to interpret the 
testing results in order to provide health advice. This was necessary 
to have a basis to explain to the occupants what the test results would 
mean. FEMA wanted to make sure that the results of that testing would 
help occupants make informed decisions about their health concerns and 
permanent housing needs. I made the decision to delay this testing, and 
believe events have confirmed it as the right decision.
    While we would have preferred to initiate testing in November, 
please be assured that FEMA and the CDC were fully committed to this 
effort. It was, however, imperative that testing was conducted 
appropriately and intelligently such that it would yield scientifically 
valid and accurate results. Of equal importance was ensuring we could 
provide appropriate public health guidance to enable occupants to make 
an informed decision on the risks involved with continued exposure as 
compared to the range of alternative housing available to them.
    After public health guidance was developed, CDC began indoor air 
sampling of occupied temporary housing units in Mississippi and 
Louisiana in December 2007. On February 14, 2008, CDC released 
preliminary test results, and FEMA and CDC outlined the steps to be 
taken to provide for the safety and well being of the residents of 
temporary housing units. CDC's preliminary evaluation of a 
scientifically established random sample of 519 travel trailers and 
mobile homes tested between December 21, 2007 and January 23, 2008 
found that, in many of the travel trailers and mobile homes tested, 
formaldehyde levels were higher than typical levels (based on recent 
sampling) of U.S. indoor exposure in single-family homes and 
apartments. The average level of formaldehyde was about 77 parts per 
billion (ppb), or .077 parts per million (ppm). In general formaldehyde 
levels in travel trailers were higher then levels found in manufactured 
homes.
    Following the completion of the testing, CDC and FEMA 
representatives visited all participants whose units were tested as 
part of the study to discuss the levels of formaldehyde measured in 
their temporary housing unit. All participants who had their unit 
tested were offered an immediate move to a hotel, motel, or apartment. 
108 of the 519 participants accepted this offer (88 moved to alternate 
housing, 20 are in hotels/motels).
    In addition to these results-specific visits, CDC and FEMA 
distributed a third fact sheet on the preliminary results of 
formaldehyde levels to all temporary housing occupants between February 
15 and 18, 2008. FEMA and CDC have jointly hosted several community 
availability sessions to provide information to residents who are 
concerned about the testing results, and to answer questions. 
Furthermore, for those residents that were not included in the initial 
testing, we have offered to test any occupied unit and provide those 
results to the occupant. FEMA awarded a contract for such additional 
testing to Bureau Veritas, the same testing company that was used by 
CDC for its testing in late 2007. Testing is currently underway, and is 
available to occupants living in FEMA-supplied temporary housing units 
nationwide. The test results will be provided to the occupant so they 
can make informed decisions about their housing options. As of March 
25, 2008, 1,554 households have requested testing. The contractor has 
contacted 965 of those households and scheduled 479 tests. As of March 
25, 2008, 291 tests have been completed.

Alternative Housing Options for Residents of Temporary Housing Units

    Since early 2006, FEMA has offered immediate alternative housing to 
anyone who has requested to move out of their unit for any reason, 
including concerns about formaldehyde. FEMA has never believed that 
travel trailers are an acceptable long-term housing solution, and it is 
our desire to ensure that all residents move into more appropriate 
housing as soon as possible.
    FEMA is aggressively identifying alternate temporary and long-term 
housing and matching up housing occupants with available units as 
quickly as the occupants can accept the offer and move. Those occupants 
who have voiced a health concern in response to continued engagement 
from FEMA have all been afforded multiple options to relocate out of 
their travel trailer.
    FEMA previously announced a plan to close all group sites and 
relocate residents by June 1, 2008 and will continue this activity as 
part of our ongoing efforts. FEMA has already moved over 111,000 
households out of temporary housing units as residents move into long-
term housing solutions. However, the task is not complete, since as of 
March 25, 2008 there are 31,136 households occupying temporary housing 
units in the Gulf Coast.
    FEMA has begun to expedite the relocation of residents from 
temporary housing units to apartments or other alternative housing, 
including hotels, motels and ``Katrina cottages.'' The priority in 
relocation will be those occupants expressing a health concern and 
those most susceptible to health risk such as the elderly, households 
with young children and those with respiratory challenges. FEMA has 
implemented an aggressive outreach plan for these priority occupants. 
In addition to offering alternatives to all applicants that call the 
formaldehyde call centers, FEMA caseworkers are reaching out to 
occupants to explain the relocation and testing options available to 
them.
    In late February 2008, FEMA and CDC identified 14,266 households as 
a priority because the applicants expressed specific health concerns or 
may be more susceptible to health risks. As of March 25, 2008, 1,378 of 
these priority households have been relocated, and we continue to 
target the remaining 12,888 for relocation. In late February, FEMA also 
identified an additional 9,367 households as a priority for relocation 
because they are living in group or commercial sites, or they are pre-
disaster renters living on private sites. As of March 25, 2008, 1,358 
of these households have been relocated.
    From February 14 to March 25, 2008, FEMA caseworkers have offered 
6,145 households an immediate move to a hotel or motel--644 have 
accepted the hotel/motel offer, while 5,502 households have refused 
that option. From February 14 to March 25, 2008, FEMA caseworkers have 
offered alternative housing resources (rental resources or Alternative 
Housing Pilot Program units) to 4,662 households--2,813 have accepted 
an alternative housing resource or their decision is pending, 1,842 
have refused all options, and nine have decided to live with family or 
friends. These data include both calls from occupants to the 
formaldehyde call center and calls made by FEMA caseworkers to 
occupants. FEMA applicant services staff continue to identify and 
provide options and resources to remaining occupants while they make 
final decisions about their relocation alternatives.
    As part of the effort to provide occupants with alternate housing, 
FEMA is implementing new and expanded policies and executing contracts 
to:

        <bullet>  Enter into direct contracts with hotels in order to 
        obtain additional hotel/motel capacity if needed.

        <bullet>  Utilize contract resources to support local 
        relocation.

        <bullet>  Provide food vouchers or stipends for households 
        relocated to hotels without cooking facilities.

        <bullet>  Enter into direct lease agreements with landlords.

        <bullet>  Contract for temporary storage and/or shipping of 
        household property.

        <bullet>  Contract for the boarding and care of household pets 
        for families relocated to hotels or apartments that do not 
        allow pets.

        <bullet>  Provide furniture for rental units by working with 
        Voluntary Agencies where possible, or purchasing the furniture 
        when necessary.

        <bullet>  Contract for moving teams and equipment to assist in 
        the movement of households with special medical needs.

        <bullet>  Provide additional staff to our offices on the ground 
        to facilitate and manage the expedited relocation of 
        households.

    These efforts are in addition to several other initiatives FEMA 
already had in progress to provide additional housing options and 
reduce common barriers for the remaining disaster population. FEMA is 
providing more incentives to encourage landlords to offer and extend 
rental opportunities to those victims still seeking a long-term housing 
solution. FEMA has also taken steps to reduce or eliminate barriers 
that some families experience when trying to relocate to a rental unit, 
such as utility payments, deposits, and fees. These incentives and 
additional actions include:

        <bullet>  Authorizing payment of rental assistance above the 
        current Fair Market Rate;

        <bullet>  Payment to landlords for utilities if included in the 
        rent payment;

        <bullet>  Payment to landlords for repairs to property damage 
        made by disaster applicants;

        <bullet>  Payment of security deposits, and processing fees for 
        background checks required by some landlords; and,

        <bullet>  Assistance with locating furniture and other 
        necessities to meet basic living needs.

    In addition, in October 2007, FEMA established a reimbursement 
program that provides relocation assistance to disaster victims 
displaced by Hurricanes Katrina and Rita. This program reimburses 
relocation expenses up to $4,000 for applicants returning to their pre-
disaster states. For those families that are already living in their 
pre-disaster state in FEMA-provided temporary housing, FEMA will pay 
moving expenses to a FEMA-funded rental resource anywhere in the 
continental United States, if the new location is greater than 50 miles 
from applicants' current location in the state. Relocation assistance 
is limited to travel costs, furniture transportation expenses, and 
moving services, and is subject to the applicant's overall cap of 
assistance under the IHP program.
    FEMA has assigned case workers to contact every applicant currently 
residing in a travel trailer, park model or mobile home in the Gulf 
Coast to make them aware of available housing resources, and we 
continue to provide case management services to applicants while they 
make final decisions about their housing alternatives. No occupant of a 
FEMA provided travel trailer has to wait for the results of air quality 
testing to take advantage of these alternative housing options--they 
are available now. It is important to note that nearly 80 percent of 
the remaining travel trailers and park models in use in the Gulf Coast 
are on private home sites. These households are, for the most part, 
making repairs so they can return to their pre-disaster dwelling.

Additional Precautionary Measures

    On March 10, 2008, FEMA issued a revision to the July 31, 2007 
Interim Direction on the Use of Temporary Housing Units based on the 
preliminary results of the testing conducted by CDC. FEMA will continue 
to utilize and offer manufactured housing (mobile homes) that meets or 
exceeds the Department of Housing and Urban Development (HUD) 
standards, as a temporary housing option. FEMA will not deploy, 
transfer or sell travel trailers. However, FEMA may continue to provide 
larger, better ventilated park models in support of future disasters, 
but only in accordance with the mandatory testing and State 
notification.
    Under the Interim Direction, FEMA will have the air quality of the 
unit independently tested to determine formaldehyde levels prior to 
allowing any disaster victim to occupy an existing manufactured home, 
park model or any new form of housing. FEMA will provide the certified 
results of such testing, as well as a compendium of formaldehyde risk 
and warning information to the State and the disaster assistance 
applicant, and will subsequently only deliver and provide units 
determined to be acceptable by the state.
    FEMA has entered into a contract with an approved Industrial 
Hygienist to conduct air quality testing on temporary housing units 
prior to allowing such units to be occupied by eligible disaster 
victims. The air quality testing will use a testing strategy 
appropriate to the conditions that follows the same NIOSH testing 
protocols that the CDC contractor used to test occupied units. FEMA has 
relied heavily upon the expertise of the officials from the DHS ORA in 
the development of the testing guidance. The same protocol will be used 
for all air quality testing, no matter where it takes place, whether at 
storage sites, staging areas or on private property.
    FEMA has initiated testing of mobile homes that will be utilized in 
response to the current disasters in Arkansas, Tennessee, California 
and Oregon. Mobile homes have been accepted and deployed in California 
and Oregon. FEMA will continue the testing process for mobile homes in 
Hope, Arkansas and Selma, Alabama. Once tested, these mobile homes will 
be offered to Arkansas and Tennessee for consideration to house 
disaster victims in response to the tornadoes that affected those 
states.
    FEMA has also implemented new requirements for future purchases of 
to-be-built manufactured homes, park models, and other new forms of 
alternative temporary housing that will ensure such units are 
specifically designed and constructed to emit (and tested to assure) 
the lowest possible levels of formaldehyde. FEMA has updated housing 
specifications for purchases of Uniform Federal Accessibility Standard 
(UFAS) and non-UFAS park models, as well as mobile homes. These units 
must meet the design and construction requirements established in Title 
24 of the Code of Federal Regulations sections 3280.308-309. Units must 
include weather radios and manufacturers must not use materials which 
emit high levels of formaldehyde during production.
    FEMA has also offered to refund the purchase price of travel 
trailers or park models to all individuals who bought their unit 
between July 24, 2006 and July 23, 2007. This applies to units 
purchased directly from FEMA by disaster assistance applicants already 
occupying the unit, and to those who purchased units through the 
General Services Administration. As of March 13, 2008, two disaster 
assistance applicants who purchased their unit directly from FEMA had 
requested a refund and FEMA received 756 requests for refunds from 
those who purchased a unit through GSA auction sales. To put that 
number in perspective, it represents 7% of the 10,839 travel trailers 
and park models that were sold through GSA between July 2006 and July 
2007.
    Since the suspension in the sale of travel trailers, FEMA has also 
continued to receive a significant number of inquiries requesting that 
we re-instate the sale of units. However, because of unresolved health 
concerns associated with the units, we will not transfer or sell travel 
trailers at this point in time.

Summary

    In summary, we remain committed to assisting all residents of 
temporary housing units in finding permanent housing solutions. We 
continue to address the formaldehyde issue forthrightly: sharing 
information with temporary housing residents; testing occupied as well 
as new units and providing results to the occupants and the states; 
working with occupants to encourage alternative housing solutions; 
removing barriers for relocation to apartments; closing group sites; 
and providing case management services to assist all eligible 
households.
    Allegations have been made, and inferences drawn, from a limited 
review of a large number of e-mails FEMA produced to Congress in the 
spring and summer of 2007. These allegations include that the Agency 
suppressed or influenced formaldehyde reports because of fear of 
litigation and liability for injuries to occupants. Let me be clear, 
FEMA has not, nor will we condone any action that interferes with 
scientific experts conducting their work in a scientifically 
responsible manner. The health and safety of residents has been and 
continues to be our primary concern. FEMA has not and will not attempt 
to, nor will we condone any effort to, suppress or inappropriately 
influence any report from the CDC, or ATSDR or any report from any 
agency, including any report related to the effects of formaldehyde on 
residents in the direct housing program.
    Together, with our outstanding partners throughout the federal, 
State, local, private, and voluntary agency communities, we will 
continue to advance ideas and pursue housing assistance solutions that 
will effectively, and compassionately, help individuals and communities 
recover, re-establish, and reclaim their neighborhoods and communities.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions you may have.

                  Biography for Harvey E. Johnson, Jr.
    Harvey E. Johnson, Jr. (USCG, retired Vice Admiral) is the Deputy 
Administrator and Chief Operating Officer of FEMA. He came to FEMA in 
April 2006 after serving as Commander, Pacific Area of the U.S. Coast 
Guard since June 2004.
    Mr. Johnson has a wealth of emergency and crisis management 
experience, including support to Admiral Thad Allen and the Coast 
Guard's Hurricane Katrina response efforts by coordinating and 
deploying West Coast resources.
    His operational experience includes various Coast Guard efforts, 
including search and rescue, freighter grounding, vessel break-up and 
pollution response for the motor vessel Selendang Ayu and the tank 
vessel Seabulk Pride in Alaskan waters. In addition, he participated in 
multiple Naval War College, Lead Shield and Rogue Vessel exercises in 
response to simulated maritime homeland security threats and the 
management of hundreds of Coast Guard law enforcement, search and 
rescue and pollution response cases in the Pacific.
    While serving as Commander, Pacific Area, Mr. Johnson led efforts 
that encompassed more than 73 million miles west of the Rocky Mountains 
and throughout the Pacific Basin to the Far East. Prior to this 
assignment, he was the Commander, Seventh Coast Guard District and 
served as the Director, Homeland Security Task Force-Southeast, where 
he directed Operation Able Sentry, the Department of Homeland 
Security's response to the crisis in Haiti. In addition to these 
duties, he served as the Executive Director of the Coast Guard's 
transition into the Department of Homeland Security, Director of 
Operations Capability and Director of Operations Policy.
    Prior to promotion to Flag rank in 2001, Mr. Johnson served as the 
Executive Assistant to the Commandant of the Coast Guard. Other 
assignments included: Commanding Officer of Air Station Brooklyn, and 
concurrently as Commanding Officer of Air Station San Diego and 
Commander, Activities San Diego. He also served as a fellow at the 
Chief of Naval Operations Strategic Studies Group in Newport, Rhode 
Island.
    Mr. Johnson began his career as a Deck Watch Officer aboard the 
Cutter Steadfast (WMEC-623). He then earned his Naval Aviator wings in 
1977. He flew the HH-52A helicopter at Coast Guard Air Station Houston, 
the HH-3F at Coast Guard Air Station Kodiak, the HH-65A in Brooklyn and 
Corpus Christi and the HH-60J in San Diego. His staff assignments 
include: Aviation Assignment Officer in the Office of Personnel and 
Training; Program Reviewer and Analyst within the Office of the Chief 
of Staff; Deputy Chief, Programs Division within the Office of the 
Chief of Staff; and member of the Streamlining Team.
    His major decorations include the Legion of Merit (3), the 
Meritorious Service Medal (3), the Coast Guard Commendation Medal (2) 
and the Coast Guard Achievement Medal. Mr. Johnson received a Bachelor 
of Science degree at the U.S. Coast Guard Academy in 1975. He earned a 
Master of Science degree at the Naval Postgraduate School in 1983 and a 
Master of Science degree in Management as a Sloan Fellow at the Sloan 
School of Management at the Massachusetts Institute of Technology in 
1993.
    Mr. Johnson is a native of Tampa, Florida. He is married to the 
former Janet L. Cronin of Boston, Massachusetts, and they have two 
children, Jennifer and Scott.

                               Discussion

               Warning FEMA Employees About Formaldehyde

    Chairman Miller. The Chair now recognizes himself for five 
minutes for an initial round of questions.
    Admiral Johnson, this is not the only Committee or 
Subcommittee of Congress that has looked at the trailers 
provided by FEMA. In the documents produced to other 
Committees, either the Government Reform and Accountability 
Committee or the Homeland Security Committee, documents from 
FEMA show that FEMA employees were warned about formaldehyde in 
trailers. Is that correct?
    Vice Admiral Johnson. What is correct, sir, is that from 
2005, Bechtel Corporation asked as a matter of routine to 
conduct assessments for formaldehyde in travel trailers. That 
was done in 2005. That was a Bechtel effort that was really not 
made aware to FEMA. Also in 2005, that was just a few months 
after Katrina where there were hundreds of thousands of 
families without any type of housing. And so we were still 
providing--in the initial stage of providing housing and that 
issue did not come to our attention. It did not seem--it did 
not rise to the level of the decision-makers' attention in 
2005.
    In 2006, we became aware by the first reports in 
Mississippi by occupants who reported problems with 
formaldehyde, and at that point on I think--and without going 
through the timeline, I think you will see that FEMA reacted to 
every one of those reports. We began consulting with EPA, with 
CDC, and with others and we sought medical advice. I believe we 
have taken responsible actions based on that medical advice 
over the last two years.
    Chairman Miller. The documents included an e-mail, March 
22, 2006, from Bronson Brown to Richard Sease, Owen Motter, and 
David Shawaga that said, staff are to be instructed that prior 
to entering the trailers there should be a period of time for 
off-gassing before conducting any work operations inside the 
trailers.
    Vice Admiral Johnson. That is correct. The gentleman who 
wrote the e-mail was our head of Occupational, Health, Safety 
in FEMA, and the trailers he was referring to were unoccupied 
trailers that had been closed and sealed for some amount of 
time. Those were not occupied trailers by disaster victims. And 
so it is, when those trailers have been sealed in the heat, we 
do want to make sure that our employees take the proper 
precautions to ventilate those units before they go into them.
    Chairman Miller. And how long would be the period of 
exposure by a FEMA employee entering a trailer to do some work?
    Vice Admiral Johnson. Well, those are typically--those are 
workers who in this case were either preparing trailers to be 
occupied or were preparing trailers to be sent back--had been 
already used and to be disposed of in some manner. So they 
would usually be in those for a short amount of time.

                    February 2007 Health Assessment

    Chairman Miller. Dr. Frumkin, turning your attention to the 
February 2007 Health Assessment, do you know who it was at FEMA 
who requested that health assessment?
    Dr. Frumkin. My understanding it was Mr. Preston in the 
Counsel's Office.
    Chairman Miller. And do you know the purpose of the 
assessment?
    Dr. Frumkin. We understood that it was a request for a 
review of data in terms of its health implications, a fairly 
standard kind of request.
    Chairman Miller. Was it for purposes of acting to protect 
the safety of the occupants or was it tied to any pending 
liability?
    Dr. Frumkin. I am not aware of any liability issues at the 
time, although in retrospect, there have been documents that we 
have seen that demonstrate that concern.
    Chairman Miller. Well, there was an e-mail from Dr. Sinks 
on October 12 of last year, 2007, that said, unfortunately the 
request was generated by FEMA lawyers attempting to respond to 
legal actions against FEMA. Were you aware of that e-mail?
    Dr. Frumkin. I think in retrospect, one of the issues that 
we could have done better was to have recognized the 
significance of a request from an attorney that is an irregular 
form of a request, and we could have flagged concerns with that 
to the agency.
    Chairman Miller. Okay. Is it your practice to provide 
expertise to lawyers involved in litigation?
    Dr. Frumkin. No, it is our practice to provide expertise to 
sister agencies that request that expertise. We did not in this 
case recognize that this was a different sort of request from a 
sister agency than the usual one.
    Chairman Miller. Second round. The initial e-mail to you--
well, first of all, could you describe the chain of review for 
the February health consultation provided to FEMA, February 
2007 health consultation provided? Were you in that chain? Who 
else was in that chain?
    Dr. Frumkin. The ordinary chain of review that prevailed at 
the time and that was used across all of our divisions was as 
follows. A product would be developed by staff in the division, 
it would move up through the division leadership, and then in 
some cases, usually on a discretionary basis, be brought to the 
attention of center leadership. There was also an 
accountability to the Emergency Response Office as Dr. De Rosa 
explained earlier, but that did not replace, that simply 
supplemented the standing line of review.
    Chairman Miller. I am sorry, was there a separate emergency 
response chain or were there different procedures for emergency 
responses?
    Dr. Frumkin. The baseline procedure was the one that 
usually prevails and that is that staff within a given division 
would move their documents, their work, through their division 
for clearance. In addition, because of the complexity of the 
Katrina work and the fact that all of our divisions were 
involved, we had created sort of a central point of information 
and contact in the Emergency Response Office so that documents 
were moved up the chain as well.
    Chairman Miller. Well, I am sorry. I am still not quite 
understanding. Which procedure was used with respect to the 
Health Assessment in 2007, February 2007?
    Dr. Frumkin. What we have learned in retrospect was that 
the clearance within the division did not occur as it 
ordinarily would and should have. So the staff went directly 
through the emergency response chain, and that was the only 
chain that they used.
    Chairman Miller. And you were part of that chain, that is 
correct, is it not?
    Dr. Frumkin. After the review in the Emergency Response 
Office, it came to the Office of the Director, yes.
    Chairman Miller. Okay. And when did you--I have an 
organizational chart that shows that the chain appears to 
consist of Marilyn DiSirio, Nabil Issa, Mark Keim, Gina Motrie, 
Linda Anderson, Tom Sinks, and you. Would those be the people 
in the chain?
    [The chart follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Dr. Frumkin. No, sir. Those are various Associate Directors 
within the Office of the Director. The specific person who was 
part of the emergency response chain was Dr. Keim. He would 
report directly to Dr. Sinks and to me.
    Chairman Miller. Who would?
    Dr. Frumkin. Dr. Keim.
    Chairman Miller. Dr. Keim? Okay. And when did you learn 
that it had not gone by Dr. De Rosa for review?
    Dr. Frumkin. In late February when Dr. De Rosa contacted me 
with his concerns, I was surprised to realize that he had not 
had a role in overseeing his staff in preparing the report.
    Chairman Miller. You did not know before that time that he 
had not seen the review, the assessment?
    Dr. Frumkin. No.
    Chairman Miller. Dr. Sinks, you are in that chain as well. 
Did you know in February of 2007 that Dr. De Rosa was not in 
the link, in the chain?
    Dr. Sinks. Absolutely, I did not. Dr. De Rosa called me and 
stated that he was informed that his staff had been instructed 
not to share the document with him on orders from the Office of 
the Director. I commented to him at the time that that was--
those instructions never came from the Office of the Director. 
He then went back, spoke to his staff, and sent a second e-mail 
which included the letter that he recommended be sent forward 
to FEMA which about 10 days later we did send forward.
    Chairman Miller. Is your recollection now--well, Dr. Sinks 
and then Dr. Frumkin, the same question. Is your recollection 
now different from when you were interviewed by our staff about 
all of this?
    Dr. Sinks. My recollection is not. I think I have been very 
consistent in speaking to your staff for more than six hours on 
this issue, and I think I said this same information.
    Chairman Miller. Dr. Frumkin, is your recollection the same 
now as it was when you interviewed with our staff?
    Dr. Frumkin. If there is a disparity, I cannot recall it, 
no.
    Chairman Miller. Okay. And is it correct that the emergency 
response procedures would have gone directly from whatever 
employees were involved in developing this assessment to Dr. 
Keim, to Dr. Sinks, to you, and would not--the emergency 
response procedures did not include Dr. De Rosa.
    Dr. Sinks. I will try to handle that. There is a small 
group in Dr. De Rosa's division which is an emergency response 
team which under the National Contingency Plan, and Dr. De Rosa 
is our representative under the National Contingency Plan, does 
operate and operates independently of our emergency response 
group that coordinates things in our Office of the Director. 
They do report to a team lead, that team lead reports to a 
branch chief, and ultimately that branch chief reports to Dr. 
De Rosa. Those individuals were informing their chain of 
command of the work they were doing since June of 2006 and 
weekly updates. Dr. Frumkin became aware of the work they were 
doing in December 4th of 2006 and sent Dr. De Rosa an e-mail at 
that time specifically asking Dr. De Rosa to keep us informed 
and to update us routinely at our senior staff meeting which 
occurs once a week.
    Chairman Miller. I understand that the employees involved 
in preparing the assessment have told our staff in extensive 
interviews, probably every bit as extensive as yours, that the 
ordinary procedure for the emergency response--and they 
understood that this was subject to the emergency response 
procedures--went directly to Dr. Keim. Is that, that is 
different from what your understanding is? And that routinely 
with respect to emergency response, it did not go past Dr. De 
Rosa, it went directly to Dr. Keim to Dr. Sinks to Dr. Frumkin. 
Is their testimony incorrect? Or not testimonies, but what they 
have said incorrect?
    Dr. Sinks. Let me try to respond to this for you, Mr. 
Miller. I believe their testimony is correct in terms of what 
actually happened to the document. I do not believe Dr. De Rosa 
saw the document until three weeks after the document was 
issued. It was never our expectation that the division 
supervisors be excluded from the review. I do not believe there 
is any written e-mails to that effect or any type of 
information that would suggest that that was done. It may very 
well be that the individuals in his team had that perception, 
but it was not a perception that was given to them by us.

          Dr. De Rosa's Concerns Over the Health Consultation

    Chairman Miller. Dr. Sinks, I am also inclined to conclude 
when there is silence in e-mails, when that seems to be of the 
ordinary method of communication, that that means that it did 
not happen. Do you have an e-mail--this is to both Dr. Frumkin 
and Dr. Sinks--to support the testimony today that you 
encouraged Dr. De Rosa to prepare a response to the February 
2007 Health Assessment to say that it was flawed, it had not 
gone through ordinary views, and there were scientific concerns 
about it and that it might be misleading?
    Dr. Frumkin. I don't recall e-mail communication on that 
point, Mr. Chairman, but I do recall very clearly that when Dr. 
De Rosa finally weighed in on the issue of the report several 
weeks after it was released, I recognized that his concerns 
were correct and indicated that we should act on them.
    Chairman Miller. Okay. When you said finally, do you have 
any basis to contradict what he said earlier which was that he 
acted as soon as he had a chance to read it? He immediately e-
mailed you to express his concerns?
    Dr. Frumkin. Well, Dr. De Rosa's opportunity to be involved 
began in June of '06 when his staff began their involvement on 
the issue or certainly in December of '06 when I asked him to 
involve himself and keep me informed, but for reasons that are 
unclear to me, he didn't take that opportunity to be involved 
until much later.
    Chairman Miller. Well, the wording of his second e-mail to 
you would be very peculiar if in fact there were oral 
discussions during that period since his first e-mail he says, 
``I am resending the previous e-mail which describes my 
concerns regarding the formaldehyde health consultation. If I 
receive no objections from you, I will send the attached letter 
to FEMA by COB.'' What is COB? Close of business. Excuse me. 
Friday, March 9. Had there been conversations apart from e-mail 
communications between the time of the first e-mail and second 
e-mail? I mean, it is certainly the tenor, the tone of this e-
mail. The e-mail implies that he hadn't heard from you.
    Dr. Frumkin. I think that is correct. I had not seen his 
first e-mail until he resent it.
    Chairman Miller. Dr. Sinks, did you see the first e-mail? I 
think it was copied to you as well.
    Dr. Sinks. Dr. De Rosa sent the e-mail. I can't say that I 
did see the e-mail. I did not respond to the e-mail, and when 
Dr. De Rosa sent it about one week later, Dr. Frumkin responded 
to it.
    Chairman Miller. Thank you. But I am gloriously over. Mr. 
Lampson?

                       2005 Formaldehyde Testing

    Mr. Lampson. My apology, Mr. Chairman. I was waiting for 
you to give me time, and I didn't know you had recognized me. 
Please accept my apology. Thank you very much. Admiral Johnson, 
did you say a while ago--did I hear--maybe I heard something 
incorrect, but did you say that there had been some testing 
done in 2005?
    Vice Admiral Johnson. The report to us was that there was 
some testing of Bechtel Corporation who was the subcontractor--
a contractor for FEMA that had asked for some testing for 
formaldehyde in units that their employees were working. We 
were really unaware that that had taken place, but it did occur 
in 2005.

                        FEMA's Emergency Housing

    Mr. Lampson. When FEMA proceeded, was it under some 
direction or the emergency housing that it provided, did you 
have a mandate to go forward with the knowledge that you had, 
indicating that the housing it was providing was safe and fit 
for short- and long-term housing?
    Vice Admiral Johnson. When we began, we had actually been 
using travel trailers and mobile homes for a number of years 
for disasters. It is a very common form of temporary housing, 
and when we used them in post-Katrina, it was a full 
expectation it would be suitable housing for all the disaster 
victims who would use them.
    Mr. Lampson. What would be temporary?
    Vice Admiral Johnson. Typically temporary in most disasters 
is going to be less than--perhaps less than six months. This is 
only the second time I think in our history that we have had a 
disaster that has gone beyond that and had people in travel 
trailers which was not typically duration expected of their 
stay.

                   Acute Formaldehyde Exposure Levels

    Mr. Lampson. Why did FEMA, when requesting the ATSDR, 
provide health guidance on safe levels of exposure to 
formaldehyde as late as 2007, ask that the evaluation be 
restricted to short-term exposures? And why would FEMA request 
that when residents had already been living in those trailers 
for two years?
    Vice Admiral Johnson. The primary concern at that time 
again wouldn't--with knowledge, now we look back and wish we 
knew what we knew then. At the time that we were asked of that 
support, we were really trying to mitigate the effects from 
formaldehyde. At that time as well, sir, as I mentioned in my 
opening statement, there were up to--we were leading up to 
143,000 families in travel trailers. We were still standing up 
new group sites at that time just a few months after the 
disaster. So we began to recognize that formaldehyde was 
causing issues with our occupants, so we were trying to figure 
out how can we do something about it, how can we mitigate the 
effects, and that was the primary effort of the first request 
for support.

                   Tracking Former Trailer Occupants

    Mr. Lampson. As a part of that mitigation, did you--have 
you begun to keep a list of all of the people who have lived in 
these trailers and set up a plan for monitoring the effects on 
anybody who may suffer illnesses because of it?
    Vice Admiral Johnson. I say sort of yes and no to your 
question. Yes, we do have a record of all those who have lived 
in travel trailers and mobile homes, and at this point we are 
working with CDC to begin to establish a registry that would 
track those families. The registry doesn't exist now, but we 
are working with CDC to establish that registry.

                  Trailer Costs, Inventory, and Sales

    Mr. Lampson. There was a FEMA and HUD press release on 
April 26th of 2007 and it announced that individuals in travel 
trailers would be able to purchase their trailers at a fair and 
equitable price. What would you pay for one of those trailers?
    Vice Admiral Johnson. Sir, I can tell you, we sold those on 
an average for about $300. Even today, with all of the media 
attention, the public attention, the government attention from 
formaldehyde, I was asked just yesterday, when will FEMA begin 
selling travel trailers again to the public.
    Mr. Lampson. How much did we pay for them?
    Vice Admiral Johnson. I think in travel trailers, I would 
be guessing, I think it is about $8,000--$8,000 to $10,000.
    Mr. Lampson. Did the manufacturers give us a break on the 
price because we were purchasing a large number of them?
    Vice Admiral Johnson. I am sure we got a good price. We 
bought a number of them. I would have to get back to the staff 
on the exact cost of the units.
    Mr. Lampson. Would you, please?
    Vice Admiral Johnson. Yes, sir.
    Mr. Lampson. I don't believe we know the actual number 
purchased and the price per item, giving us a total. That could 
be a pretty big number, couldn't it?
    Vice Admiral Johnson. Yes, sir. We still have--as of August 
last year, we stopped using travel trailers. We still have 
3,500 travel trailers in our inventory that we are not using in 
current disasters today in Tennessee and Arkansas and other 
places around the Nation.
    Mr. Lampson. Do you know when we purchased those whether 
they had done--was it a bid process?
    Vice Admiral Johnson. Yes, sir. We bought--well, two 
things. First is that immediately when the disaster occurred, 
again, overwhelming catastrophic disaster, we used all of the 
units that were in our inventory. We actually went and bought 
thousands of units that were on the lots of manufacturers and 
their distributors, and then we went back to the manufacturer 
themselves and had a separate order. So there were actually 
sort of three phases of providing the temporary housing.
    Mr. Lampson. Do you know how many actual--how many of those 
living in trailers have actually chosen to purchase them?
    Vice Admiral Johnson. I think we sold about 900 units from 
FEMA, and then we worked through GSA and they sold I believe 
some number of 5,000 additional units. We can provide that 
specific data. But we sold many thousands of units to the 
public, some were occupants and some were just people who 
wanted to buy them for a recreational vehicle.

              FEMA Outreach on Formaldehyde Health Effects

    Mr. Lampson. And were they given the same instructions 
regarding potential health effects? Were they warned before 
they decided to purchase trailers about the formaldehyde 
levels?
    Vice Admiral Johnson. When we began to--I think July of '06 
was our first flier that we sent out to all of the residents of 
mobile homes and travel trailers. Anything that we sold beyond 
that point when we recognized the situation as it was, we did 
provide full information, access to our website, copies of the 
fliers so that they were fully informed on their purchase.
    Mr. Lampson. I have a copy of a flier here, and the 
language that is used in this flier is fairly innocuous 
language. I would hope that there would be more detailed 
information given certainly by the time that we began to have 
all of this information. And Mr. Chairman, I have gone way over 
my time. Are we going to have a second round? Are we going to 
have a second round? I'll----
    Chairman Miller. Yes.
    Mr. Lampson.--reopen my time right now and wait.
    Chairman Miller. Yes.
    Mr. Lampson. Then I yield back my time right now.
    Chairman Miller. Apparently I was not paying any closer 
attention to you than you were to me.
    Mr. Lampson. I will do better next time.

           Drs. Frumkin and Sinks Health Consultation Review

    Chairman Miller. All right. Thank you. Dr. Frumkin and Dr. 
Sinks, according to documents provided by ATSDR, in addition 
simply to this February health consultation being copied to 
you, routed to you, there was a briefing on it, an oral 
briefing that included both of you. Now, when you testified--
well, not testified but when you were interviewed by our staff, 
you said you really didn't remember much about that. Do you 
remember anything more about it now?
    Dr. Frumkin. The document was described to us in our 
regular weekly staff meeting, and there was a discussion about 
it fairly briefly as we have many items that we cover. I took a 
quick look at it at the time and asked for an executive summary 
and for some conclusions since I noticed that they were 
missing, and readers would have a hard time getting to the 
bottom line.
    Chairman Miller. Do you recall who was there? I assume that 
Dr. De Rosa wasn't there because the evidence is undisputed 
that he didn't know about it at that time.
    Dr. Frumkin. Yes, sir, he wasn't there.
    Chairman Miller. Was Dr. Keim, was he there?
    Dr. Frumkin. I don't recall.
    Dr. Sinks. It would have either been Dr. Keim or his deputy 
who would have presented to us in that issues management 
meeting. It is a weekly meeting. We go over many of the issues 
that we would be dealing with during that week, and it was 
presented probably in a couple of minutes as this is a document 
that has been prepared by the division. And at that point, I 
know I did take a look at the document following the meeting. 
We were never provided a briefing. A briefing I would describe 
as the principal investigators and their supervisors meeting 
with us to describe what the work was that they were doing, why 
they were making certain decisions. We do have those briefings 
on a large number of subjects that our agency is involved in. 
There was never a briefing provided to us by the staff or the 
division.
    Chairman Miller. Did you ever ask any questions? Do you 
recall asking any questions at that meeting?
    Dr. Sinks. I can't recall the meeting specifically. I did 
ask to see the document. I did sit down and read the document. 
Once I did provide some comments in the margins of the text and 
provided that back to probably Mr. Alred who provided that to 
us.
    Chairman Miller. And you don't recall whether there was any 
discussion of what the procedures were for reviewing it, 
whether it had been reviewed by Dr. De Rosa or who had reviewed 
it at the Division of Toxicology and Environmental Medicine?
    Dr. Sinks. There was no discussion about it. We had made 
the assumption, and apparently incorrectly, that it had been 
reviewed by the division.
    Chairman Miller. Okay. And was there any discussion of why 
it was being provided? Who had asked for it?
    Dr. Sinks. We knew that it was work that was going on. I 
can't tell you why it was presented to us at that time. If one 
of us had asked to see it or not, this was more than a year 
ago, but it was brought to us. I can tell you, sir, that in our 
policy, we do have a policy on review of health consultations, 
and it very clearly states that those health consultations are 
reviewed by various individuals in the divisions with the 
discretion to bring it to the Office of the Director. And 
whether that discretion is based on the division's 
recommendation or our recommendation, it can be either way.
    Chairman Miller. Do you recall the March 9 e-mail from Dr. 
De Rosa, and it is according to what it says. It was from Dr. 
De Rosa to both of you, or to each of you. Re, draft letter to 
FEMA. The consultation was developed, sent forward, and signed 
by DTE and staff. Now, the earlier e-mail had already said that 
he had not seen it. ``They indicated to me that they had been 
directed to not share the information further and not to 
address longer-term health effects. That is why IARC was cited 
repeatedly without reference to cancer and was not included in 
the literature cited. FEMA's initial contact came directly to 
me nine months ago on this issue. I reviewed the proposed 
statement and specified that they neglected to address longer-
term risk including cancer. FEMA then came back to our 
OPTER''--I assume that is an acronym, obviously, it is--``with 
the same request, and this was assigned to DTE and staff. After 
the completion of the consultation, our staff sent their signed 
consultation directly to OPTER who sent out the letter. By 
separate e-mail, I shared the response with Mark Keim. If you 
wish for him to send it out, that is fine. Otherwise, I will 
send it at your direction. Either way is fine with me.''
    So you obviously knew after this e-mail that he had not 
reviewed the letter, is that correct? Dr. Frumkin?
    Dr. Frumkin. Yes, I think there are several points in that 
e-mail on which we can agree. One is that we didn't adequately 
include consideration of longer-term health impacts in the 
original consultation. And the second is that our document 
review process which should have included Dr. De Rosa didn't 
function as well as it should have. We have been very careful 
about relooking at our document review process, looking for 
where things may have operated, not as well as they should 
have, an for opportunities to do better in the future.
    Chairman Miller. Is there a procedure that shows--is there 
a procedure for initialing I think it is called buck sheets? 
Anything like that at ATSDR to show who has seen a document?
    Dr. Frumkin. There is for correspondence and for certain 
kinds of documents, but generally not for the documents within 
divisions.
    Chairman Miller. Under your procedures, you would have no 
way of being able to look at the document, look at any document 
and know who has reviewed it, is that correct?
    Dr. Frumkin. The ways that we have of tracking documents 
across the agency are complex, and that is one of the things we 
have recognized the need to look at as we move toward improving 
in the future.
    Chairman Miller. This e-mail, again, they indicated to me--
these were the DTM staff and members involved in developing the 
consultation--that they had been directed not to share the 
information further and not to address longer-term health 
effects. That would appear to me to be a startling sentence in 
that e-mail that should have gotten a great deal of attention 
for what had happened and why it had happened. But there 
doesn't seem to be any response that matches up to my response 
which is to be startled that they had been told by FEMA what 
kind of report they wanted. Do you have any document--I mean, 
do you have e-mails that say that you wanted to get to the 
bottom of this?
    Dr. Sinks. Let me respond to that in two ways. First of 
all, in Dr. De Rosa's e-mail of the week before discussing 
this, he says that he has spoken to his staff and he has taken 
care of the issue of making sure that adequate clearance goes 
through his division. I believe that is the e-mail you 
mentioned the first time he sent a letter. I think our focus 
was actually on the content of his letter and what should be 
going forward which was an appropriate thing to be doing, and 
we embraced his coming forward and recommending that level; and 
Dr. Frumkin concurred, and we sent it forward.
    Chairman Miller. Even after the letter went out, not the 
one that Dr. De Rosa had drafted but someone else at your 
direction sent a letter to FEMA, a letter that apparently was 
placed in a file and not circulated at all at FEMA or given to 
anybody responsible for public health instead of liability, 
FEMA continued to tout ATSDR's assessment. It was in the press, 
it was in testimony before the Government Reform and 
Accountability Office, Accountability Committee here last 
summer. It did not always refer to ATSDR by name. It simply 
said scientific agency. When did you become aware that FEMA was 
continuing to tout ATSDR's flawed Health Assessment?
    Dr. Frumkin. We were not adequately aware of the way the 
assessment was being used or interpreted or misinterpreted 
during that several month period in early 2007. We focused on 
it much more intensively during the middle of 2007 when the 
media reports and the Congressional oversight drew our 
attention to it. But we don't routinely track media reports 
about what other agencies are doing.
    Dr. Sinks. Sir, if I may add to that----
    Chairman Miller. Sure, Dr. Sinks.
    Dr. Sinks.--response, we also became much more heavily 
engaged in May, about the middle of May, when we were contacted 
by the Department of Homeland Security to become more engaged 
in the issue; and that is when we started to develop our plans 
for more robust response to the formaldehyde issue.

    FEMA's Office of General Council's Involvement With the Health 
                              Consultation

    Chairman Miller. Dr. Sinks, you did say a moment ago that 
you had in fact reviewed the letter, the Health Assessment?
    Dr. Sinks. Yes, I did see the Health Assessment. The first 
one, the first week of February, yes.
    Chairman Miller. Did you read the first sentence which 
reads, ``the ATSDR Emergency Response Program was requested by 
the Federal Emergency Management Agency, FEMA, Office of 
General Counsel, to review and provide an evaluation of 
analytical data related to a project involving formaldehyde 
sampling at FEMA temporary housing units/trailers located in 
Baton Rouge, Louisiana?''
    Dr. Sinks. Sir, I would have read that statement and I 
believe there are actually earlier clues in the e-mails that 
would have indicated to me that the Office of General Counsel 
at FEMA had made that request of us. It was not something that 
caught my attention at the time.
    Chairman Miller. Okay. Well, the e-mail that you sent I 
think in October, in the fall of last year, that you were 
shocked to learn that it had been provided to a lawyer for 
presumably liability concerns, not based upon concerns about 
public health. Did you just not pay any attention? Do lawyers 
usually get involved in the public health considerations?
    Dr. Sinks. Occasionally lawyers do get involved in public 
health considerations. I think, Mr. Miller, I certainly had the 
opportunity to recognize that. All of us who did review the 
document or did read the document would have had that 
opportunity. There were also e-mails that had gone on before 
that would have given us that opportunity. It was simply 
something that did not catch my attention at the time.
    Chairman Miller. The second paragraph of that e-mail, 
unfortunately the request was generated by FEMA lawyers 
attempting to respond to legal actions against FEMA. You said 
that this request must not have seemed extraordinary to our 
staff, but it didn't seem extraordinary to you, either.
    Dr. Frumkin. Mr. Miller, I think in retrospect, we failed 
to recognize the import of a contact that came from an attorney 
rather than through typical technical channels. Please be 
assured that we are about protecting public health. We are not 
about litigation support. We undertook this work in a sincere 
effort to advance public health and in no way ever would 
compromise that mission.
    Chairman Miller. Just one moment, please. Actually, Mr. 
Lampson is recognized for another round of questions.

                   Trailers at Maxwell Air Force Base

    Mr. Lampson. Thank you, Mr. Chairman. Mr. Johnson, is FEMA 
taking mobile homes to Maxwell Air Force Base for testing?
    Vice Admiral Johnson. I am not aware currently that we are 
taking them to Maxwell Air Force Base.
    Mr. Lampson. We have learned that there is a plan to take 
some trailers there, I don't know the number, heat them up, 
measure the formaldehyde content, and then send them to 
Tennessee. You can't clarify that in any way?
    Vice Admiral Johnson. Just what I would say is right now, 
as I mentioned before, if we provide a mobile home to any 
disaster site currently, which would be Tennessee, Arkansas, 
Oregon, those who have a current disaster, we developed 
protocol working with the Office of Health Affairs and DHS of 
how to test that unit so we can provide the test result to the 
state and to the potential occupant of that unit. Right now it 
is seven days of not heating up, and seven days of simulated 
actual situation which in most cases involves using the air-
conditioner and climate control, humidity control. And so we 
have this standard protocol. We do test it. We use the same 
test company, the same protocol, the NIOSH protocol that was 
used by CDC, and we have actually done that successfully for 
the last probably 2 months. We provided housing units that 
tested very low in formaldehyde to Oregon, and we are currently 
prepared to provide mobile homes to Tennessee and Arkansas at 
levels where the state has accepted those units.
    Mr. Lampson. But you don't know for certain that that 
testing is going on at Maxwell Air Force----
    Vice Admiral Johnson. Well, we are doing testing in Selma 
and in Hope, Arkansas. So I am not quite sure in Selma, if that 
is Maxwell Air Force Base but that is where we have a facility 
that exists now for mobile home storage.

                     Emergency Housing Alternatives

    Mr. Lampson. Although I would like to believe that we won't 
have any more natural disasters that leave people homeless, we 
all know that it is probably going to happen at some time in 
the future. Is FEMA looking at alternatives for emergency 
housing? Can we use new green building materials to manufacture 
temporary housing that is healthier? What is your agency doing 
along these lines? And can you also tell me when FEMA 
anticipates that residents will be moved out of the trailers 
entirely?
    Vice Admiral Johnson. Yes, sir. Good question. We have a 
joint housing solutions group that we stood up about a year 
ago, and their job is to reach out to industry and identify 
potential alternatives to mobile homes and travel trailers; and 
they have actually tested--some are shipping containers, some 
are other modular homes, and they have actually looked at about 
40 different alternatives that cost different amounts. Some 
take more set-up than others, and we are exploring different 
alternatives to mobile homes and travel trailers. Last year 
Congress appropriated $400 million for us to run an alternative 
housing pilot program in the Gulf Coast, and we currently have 
what are called Katrina cottages in Mississippi and there is a 
current program in Louisiana, Texas, Mississippi, all to look 
at alternatives to mobile homes and travel trailers. And so we 
are very attuned to the need to find a broader range of 
solutions.
    Within the Gulf Coast right now, it is our desire to move 
all the residents out of travel trailers into more permanent 
alternatives such as rental units, apartments, and the like. We 
want to have all out of group sites before hurricane season on 
the first of June, and we are working very hard every day to 
move an average of about 500 to 700 families a day to leave a 
mobile home or a travel trailer inside the Gulf Coast today, 
moving towards more permanent locations. In some cases, that is 
their house. They have a travel trailer that is in their 
driveway as they begin to repair a house post-Katrina, and so 
it ranges from moving back into their house, moving in with 
relatives, or moving actively into apartments and hotels and 
motels and other sorts of housing alternatives.
    Mr. Lampson. At 500 to 700 a day and you're looking at 
hopefully completing it by June?
    Vice Admiral Johnson. Well, we hope to get all the group 
sites--in some locations, and I think it came up in a prior 
panel, in Louisiana, there appears to be an almost adequate 
number of alternative housing apartments and rental units. In 
Mississippi, the local housing has not recovered nearly as 
quick. The issue with Mrs. Huckabee is in an area of 
Mississippi where there are not available rental units. In some 
parts, in other parishes and counties, very, very difficult to 
find alternatives; and so some people do feel in order to stay 
close to family, to school, to work, to church they are making 
the choice to stay where they are as opposed to moving to an 
alternative that we hope that we can provide to them.

                How Will ATSDR Prevent Future Problems?

    Mr. Lampson. Dr. Frumkin, your statement that we could and 
should have done better is an understatement. Your agency has 
failed to protect public health, failed to produce the best 
science. I still don't understand how your agency produced such 
a poor quality scientific report to FEMA, why you failed to 
improve or correct that report, and I also can't understand why 
you didn't personally communicate with your counterparts at CDC 
and FEMA when it was reported that trailer residents were 
experiencing clinical symptoms associated with formaldehyde 
exposure. In light of that incident, what changes have you 
instituted specifically at ATSDR to eliminate a recurrence of 
that situation?
    Dr. Frumkin. With respect, sir, we have done an awful lot 
of very effective public health protection, but I have to agree 
that we didn't do the job we would have liked to have done with 
regard to the trailers. The opportunities for improvement that 
we have identified are in several domains. One has to do with 
the clearance and review of scientific documents. The Board of 
Scientific Counselors, which is an external group, is reviewing 
our scientific clearance procedure to see whether there are 
ways to improve that. In the meantime, we have reinforced to 
the divisions the need to abide by standard existing procedures 
because that hadn't always been done and it wasn't done in this 
case.
    With regard to management issues, also a potential 
opportunity for improvement, we have commissioned an outside 
review of our management procedures, if we can identify 
opportunities for improvement there. And then as detailed in 
our written testimony, there is a series of short-term 
solutions or improvements that we have implemented, for 
example, clarifying communication channels within in between 
agencies. The ways that we are triaging and tracking the issues 
that we manage have been considerably strengthened. We have our 
weekly meetings both for issues management and senior staff, 
and we have clarified with all participants of the meetings the 
need to raise important issues and to raise them repeatedly if 
they remain active. We are tracking those actively now.
    So we have made some improvements internally. We have 
sought external oversight so that we can identify the very best 
opportunities for improvement as we move forward.

                   More on Dr. De Rosa's Performance

    Mr. Lampson. A little while ago, Dr. De Rosa testified that 
he has been put on a 90-day notice that he must show personal 
improvement and must embark on a personal improvement program 
in order to do so. Yet, he is the one who helped identify 
shortcomings that were there. Is that fair? Dr. Sinks.
    Dr. Sinks. Let me try to respond to that. First of all, Dr. 
De Rosa did identify one of two key issues with the report that 
were relevant, the February 2007 report. He identified the lack 
of long-term health issues being identified. Unfortunately, he 
did not identify the fact that it was using an emergency 
medical guidance as a level of concern, and I wish that he had 
actually identified that. I heard him testify earlier that in 
fact he had mentioned this to us, but I never recall having 
heard him bring this up before; and in fact, the first time we 
became aware of the problem was in the hearing that was 
mentioned in July. And I believe this was something I had the 
opportunity to have seen and I missed, and I believe everybody 
who reviewed that document had the opportunity to see that, and 
we missed that.
    Going back to the performance improvement plan, and this is 
a standard document that is essentially an agreement that 
identifies the fundamental steps one should be taking in terms 
of their job to improve their performance, and that document 
was developed with several discussions with Dr. De Rosa about 
the types of activities that we thought his new position should 
be doing. What he wanted to do, he had significant input into 
that document. The elements in that document do relate to the 
type of work that he wished to do and I concurred with, and it 
is simply a document that identifies expectations for adequate 
performance. It is actually a document that is designed to help 
Dr. De Rosa to understand what the expectations are for his 
performance.
    Mr. Lampson. Are comparable steps being taken--level 
because were you not involved in the same level of failure?
    Dr. Frumkin. There is accountability across all levels of 
our organization, sir, from the Director's office, from myself, 
and Dr. Sinks to the Division Directors, to the Branch Chiefs, 
to the individual staff members. At every level of 
accountability, we take responsibility when we haven't 
performed well, and we work to make improvements. I need to 
emphasize that the reassignment of Dr. De Rosa was not in any 
way a retaliation for his actions in this case. His 
reassignment was a result of personnel actions that are best 
not discussed in a public forum like this. With regard to Dr. 
De Rosa's involvement in this particular situation, his major 
intervention during the one-year period between mid-'06 and 
mid-'07 was a suggestion that long-term health effects had been 
omitted from the report and it needed to be included; and that 
suggestion was gratefully accepted and acted on. So it is 
important to decouple the personnel action that occurred in 
late '07 from a review of the events we are talking about 
today.
    Mr. Lampson. Is his job at stake?
    Dr. Frumkin. There is absolutely no plan or no intention by 
me or anybody else I know to threaten his employment. His 
reassignment is at the same grade level, same seniority level, 
and I view it as a long-term reassignment.
    Mr. Lampson. Do you feel that he interprets any of these 
actions as related to this issue?
    Dr. Frumkin. That would be a question for him.
    Mr. Lampson. That was certainly the impression that came 
here. What steps exactly are you all taking, and if you can't 
discuss them in public, can you submit it to us, to the 
Committee? The steps are for anybody including yourselves as 
far as accountability is concerned.
    Dr. Frumkin. Yes, we can submit that in writing.
    Mr. Lampson. Okay. Thank you. Mr. Chairman, I yield back.
    Chairman Miller. Thank you, Mr. Lampson. I think we are 
getting close to the end. There are obviously many points of 
dispute in the testimony and in the interviews, but I think 
everyone involved is going to have many opportunities to 
testify under oath about these events in deposition and 
probably at trial as well.
    I respect, Dr. Frumkin, that you don't want to go into the 
personnel issues, but the memorandum of October 24 that you 
prepared, I want to read just an excerpt of that, that provided 
Dr. De Rosa with an unsatisfactory rating a year after being 
given a substantial bonus as an incentive to stay in federal 
employment. ``During the past year, he,'' Dr. De Rosa, ``was 
unaware of significant projects. His staff became involved in a 
project to assess formaldehyde levels in unoccupied FEMA 
trailers. In June 2006, his office took it upon themselves to 
engage in this long-term, non-emergency evaluation. They were 
technically unprepared to do the work. In addition, they took 
direction from a FEMA lawyer without consulting their 
supervisors. ATSDR consultation resulting from their work was 
of inadequate quality and has since been revised.'' Is that 
still your view?
    Dr. Frumkin. Yes.

        Review of the Events Surrounding the Health Consultation

    Chairman Miller. Okay. And again, I the e-mail that I 
earlier referred to and read from, Dr. Sinks; and that e-mail, 
you saw that e-mail, did you not, in October to all the staff 
at ATSDR about the levels of formaldehyde and the inadequacies 
of the work done to that point?
    Dr. Frumkin. I am sorry. I am not sure which e-mail you are 
referring to.
    Chairman Miller. It is dated October 12, 2007. It is from 
Dr. Sinks to all the CDC. The attachment is final outside 
contact procedures.
    Dr. Frumkin. Yes.
    Chairman Miller. And did you direct that he send that e-
mail?
    Dr. Frumkin. I concurred with sending it. We decided 
together that it needed to be sent.
    Chairman Miller. Okay. And that says, unfortunately that 
request was generated by FEMA lawyers attempting to respond to 
legal actions against FEMA. Staff was asked to handle EPA 
generated data as confidential. Those were extraordinary--that 
was extraordinary, is that correct?
    Dr. Frumkin. It is a very irregular process for an 
interagency collaboration, yes.
    Chairman Miller. Okay. But again, the assessment itself in 
the first sentence says it was at the direction or at the 
request of FEMA's general counsel, isn't that right?
    Dr. Frumkin. In the previous document that you read?
    Chairman Miller. In the assessment, the February 2007 
assessment.
    Dr. Frumkin. Yes.
    Chairman Miller. Dr. Sinks?
    Dr. Sinks. That is correct.
    Chairman Miller. And Dr. De Rosa's e-mail of March 9, 2007, 
said also that the staff at ATSDR who prepared the report said 
that they were directed not to share the information further 
and not to address longer-term health effects. Is that also not 
something that would--it would be very extraordinary?
    Dr. Sinks. I think half of that is certainly correct if you 
look at the incoming letter of transmittal to the data from the 
lawyer to the ATSDR staff, it does direct them not to share the 
data. It does not limit the scope of the evaluation, at least 
in my reading. Now, I don't believe Dr. De Rosa, Dr. Frumkin, 
or I were ever in a discussion with FEMA about this consult. So 
we don't know exactly what the discussions were verbally, but 
in the letter of transmittal, it does ask the staff to hold the 
data confidential, but it does not, at least in my read of it, 
restrict the scope of the work.
    Chairman Miller. But the e-mail from Dr. De Rosa, which 
apparently is based upon old discussions with those staff 
members, said that they were directed not to address longer-
term health effects.
    Dr. Frumkin. That would be a claim that you would have to 
discuss with Dr. De Rosa. Certainly that direction to the best 
of my knowledge didn't come from FEMA, and I know that it 
didn't come from within our agency.
    Chairman Miller. I am sorry. So when you got this e-mail on 
March 9, 2007, about the Health Assessment that had just gone 
out the previous month, and it said that the employees involved 
were directed not to address longer-term health effects, you 
decided that what Dr. De Rosa said was wrong, that there was no 
such direction?
    Dr. Frumkin. Rather than correct that statement, I focused 
on getting a correction out to FEMA so that we could set the 
record straight.
    Chairman Miller. And I understand that a letter did go out, 
it went out to the lawyer who had asked for this in the first 
place and because of that, litigation had been resolved. He put 
it in his file. He didn't give it to anybody. But what is very 
hard to fathom is that with the first sentence of the Health 
Assessment which Dr. Sinks says he read, saying that the 
request came from a lawyer, with the lawyer for FEMA, with the 
e-mail saying that the staff involved had been told not to 
share the information, not to address longer-term health 
effects, apparently dictating what was to be considered and 
what was not, you did not feel some sense of urgency other than 
to send a letter. And even when FEMA continued to tout the 
ATSDR's assessment as being scientific support, that everything 
was fine, if you just open the windows and doors, you didn't 
feel any sense of urgency to call somebody and say, didn't you 
get our letter?
    Dr. Frumkin. The initial fix for the problem of too narrow 
a scope in the original health consultation was simply to 
broaden the scope. Rather than engage the assertion that there 
had been some limitation on the initial scope, we simply 
corrected it and set the record straight by sending the letter 
to FEMA. We did not follow up with FEMA to check on the 
implementation of the letter. And in retrospect, I think that 
we should have engaged during that first half of '07 more 
actively than we did.

                   More on Obstacles to Safe Housing

    Chairman Miller. Admiral, I don't want you to feel left 
out. FEMA Administrator David Paulson testified before the 
House Homeland Security Committee in May of last year and 
testified, we have been told that the formaldehyde does not 
present a health hazard. However, we do encourage our occupants 
of those trailers to air them out, keep them open as much as 
possible to let the fumes out. Was there a basis--did anyone 
tell you besides ATSDR?
    Vice Admiral Johnson. If I can answer that question by 
correcting one issue, there seems to be a focus on dealing with 
the lawyer and on FEMA's desire to avoid litigation, and I 
would like to at least make the record clear that while we had 
a lawyer, Preston, who was primarily in communications with 
CDC, there were other people from other disaster assistant 
directors who were also involved and that FEMA's primary 
motivation was not to avoid litigation because we clearly went 
public with the information as soon as we received it. Our 
primary motivation was to get as much information as we could 
as non-medical people to do the best that we could to preserve 
the health and safety of the people who were living in these 
travel trailers.
    So I would like to make it clear that we were not trying to 
avoid litigation, and that wasn't our reason for going to CDC. 
When Administrator Paulson testified before Congress, I think 
it does reflect perhaps a misinterpretation of the report. It 
was our feeling at the time that based on the information that 
we had, both from EPA and CDC, that we didn't confront the 
health situation that we now know that we did.
    Chairman Miller. Mr. Lampson?
    Mr. Lampson. Let me get one point of clarification, Mr. 
Johnson. When I asked regarding the provision of safe and fit 
housing for a short- or long-term period, would you agree that 
your mandate is to provide safe and fit housing, whether it be 
long-term or short-term?
    Vice Admiral Johnson. That is correct. I agree with that.
    Mr. Lampson. And was FEMA acting under that mandate when it 
provided those trailers----
    Vice Admiral Johnson. That is correct.
    Mr. Lampson.--for both short- and long-term?
    Vice Admiral Johnson. Yes, sir.
    Mr. Lampson. And is there a backup plan now adequate in 
your mind that if you come into another situation where you 
find that your step number one isn't working and you have to 
take emergency actions that there is a way that we are not 
going to have people in harm's way again?
    Vice Admiral Johnson. I think it would be nice to say 
clearly that the answer is yes, we have got this plan and it 
won't ever happen again. I think where we are is that while we 
are here, members of the manufacturing housing community are 
also watching; and we are working with them, as I indicated 
before. We have been able to identify what parts of a mobile 
home or a trailer actually present the greatest risk for 
formaldehyde. We worked with them recently to establish a unit 
that doesn't use urea insulation, it doesn't use vinyl gypsum 
board, and we have been able to reduce the level of 
formaldehyde to a much, much, much lower level now in one 
prototype unit than we have ever had before. We have just 
issued a contract to buy more of those units. And so it is our 
intent we think that we will need mobile homes in the future, 
and we want to be able to write a spec that requires 
significantly lower amounts of formaldehyde.
    We also have a range of options from sheltering to 
apartments and motels and hotels and other things that we try 
to do and we use them even now. But the situation in Greenburg, 
Kansas, where the town is exactly blown away by a tornado, 
there are no close options that meet the needs of the 
individuals unless they travel great distances to work and 
where they are home.
    And so we are working very hard to expand the range of 
options, look at things beyond mobile homes and travel 
trailers, that where we have mobile homes to have them 
significantly reflect lower formaldehyde.

                           Health Care Costs

    Mr. Lampson. And then one last question. I brought up 
with--I can't think of her name right now, the lady from the 
trailer.
    Vice Admiral Johnson. Mrs. Huckabee.
    Mr. Lampson. The dollars in health care costs that she has 
faced and many others have faced, and I did understand that 
FEMA has established a program to reimburse families for these 
medical bills. If that is the case, how many people have 
applied for such reimbursements; and if FEMA has paid money out 
at this point, how much?
    Vice Admiral Johnson. Mr. Lampson, unfortunately, it is not 
the case. FEMA does not have authority, an order to reimburse 
medical expenses. It is not the policy of FEMA or the 
government at this point to reimburse medical expenses.
    Mr. Lampson. I yield back my time, Mr. Chairman.
    Vice Admiral Johnson. Let me just correct one number that I 
gave you. We are actually moving 1,000 households a week, not a 
day, out of travel trailers and mobile homes in the Gulf Coast, 
just to give you the right number.
    Mr. Lampson. Thank you. Thank you very much.

                      CDC Actions: May-July, 2007

    Chairman Miller. Dr. Frumkin, we have only talked about a 
couple e-mails, and in fact there have been a good many e-mails 
about this but one that Dr. De Rosa sent from his Blackberry on 
July 24 of last year, 2007, kind of late at night. 
``Colleagues, while testing may be warranted, what immediate 
interventions are being pursued through appropriate channels to 
interdict exposures or to mitigate health impacts? I am 
concerned that the reported clinical signs are the harbinger of 
an impending public health disaster. We know based on data 
provided to us that levels are up to 80 times higher than peak 
occupational limits and up to 300 times higher than our health 
guidance values. I think we must be more proactive in 
protecting the people while assisting FEMA.'' Do you remember 
getting that e-mail?
    Dr. Frumkin. Yes.
    Chairman Miller. What did you do?
    Dr. Frumkin. There was a lot underway already. First, I 
have to say that I agree with the sentiments in that e-mail 
completely. We have to be proactive in protecting the people 
living in trailers. And it happens that at that point in time 
we were undertaking a large range of actions that would lead to 
exactly that goal. Beginning in May we undertook discussions 
with FEMA that launched all of the activities that are now 
under way that I described, the testing of occupied trailers, 
and that was a data set that we needed to determine exactly 
what the level of risk was. We couldn't extrapolate from the 
unoccupied trailers to the occupied trailers, so we needed 
solid data to help with that. The follow-up studies, the 
clinical reviews, and so on, all of those were under way or 
being planned at that point in time.
    But the sentiment behind Dr. De Rosa's e-mail, the concern 
for the well-being of people in the region was very much a 
shared concern, and there were, in fact, a lot of activities 
under way at that point to help protect their health.
    Chairman Miller. Did you do anything at that point to 
advise FEMA again other than that letter sent to the lawyer, 
and when Admiral Johnson said FEMA didn't know about it, at 
least one employee at FEMA knew about it. The February 2007 
consultation, health assessment, was not one that they should 
be paying attention to, should be relied upon. It was flawed. I 
mean, you are very critical of it later. You are very critical 
of it in your evaluation of Dr. De Rosa, something that came 
out of his shop. But do you have anything in writing or can you 
recall an oral discussion with anyone at FEMA that made those 
same criticisms and said stop using that?
    Dr. Frumkin. At about that time in July, we were revisiting 
the original consultation with a lot more attention than it had 
gotten before; and at that point, we fully realized the 
limitations of that original consultation, and it was soon 
after that, I can't remember the exact date, when we made the 
decision to pull back the original consultation and reissue a 
more accurate document.
    Chairman Miller. October?
    Dr. Frumkin. October was when it was released, yes.
    Chairman Miller. Okay. It was retracted in October. This 
was in July?
    Dr. Frumkin. Yes, sir.
    Chairman Miller. Okay.
    Mr. Lampson. Mr. Chairman?
    Chairman Miller. Yes.
    Mr. Lampson. Are you about to wrap up?
    Chairman Miller. Yes. Mr. Lampson.

             Were Discussions Being Made By FEMA's Lawyers?

    Mr. Lampson. Unless someone wants to make a comment about 
it, let me just make a comment here I guess at the end. Admiral 
Johnson, because this hearing is focused probably more on the 
events of 2007, I am going to overlook I guess your several I 
think misleading statements about FEMA's response to the 
formaldehyde issue in 2006. Suffice it to say that FEMA spent 
most of that year telling trailer occupants that there was no 
problem and worrying about the impact of testing those trailers 
on FEMA's legal liability, in March of '06, FEMA's attorneys 
knew that EPA had determined that some people had negative 
reactions to formaldehyde at 0.1 parts per million and said any 
testing would have to be done quietly. But in May of '06, 
before it had done any investigation, FEMA issued a statement 
that there are ``no health concerns associated with 
formaldehyde inside out FEMA mobile homes and travel trailers. 
FEMA then delayed testing, even unoccupied trailers, because of 
the words of a FEMA attorney, ``testing would imply ownership 
of the issue.'' And your Office of General Counsel said that it 
didn't want the testing to determine what levels were unsafe 
but only how to ventilate the trailers. Then when ATSDR issued 
its seriously flawed health consultation which FEMA officials 
described as giving them what we were looking for, FEMA's 
lawyers directed ATSDR not to release the study publicly so it 
could be reviewed. We all know that there is plenty of blame to 
go around, but we sure want to be talking about this in '07. 
The lawyers were running the show.
    Vice Admiral Johnson. Mr. Lampson, respectfully I reject 
the notion that the lawyers were running the show. I reject the 
notion that FEMA made any decisions based on concern for 
litigation. What you see in e-mails is you see what occurs in 
many organizations, staff people talking with each other, 
raising pros and cons and concerns that should be considered by 
leadership but don't make decisions by leadership. Every action 
that FEMA took I think was responsible given the level of 
knowledge that we had at the time and what is clearly an 
insufficient sophistication about medical implications of 
formaldehyde. But the lawyers were advising, they were dealing 
litigation. We consistently made other options available to 
residents. We consistently put information on our website, 
twice. We hand-delivered 70,000 fliers to individual units. So 
I think if you judge us by our actions as opposed to the 
interaction between our lawyers, I believe that given the 
knowledge that we had at the time, I believe we took 
responsible steps.
    Mr. Lampson. At least the e-mails that we have been able to 
see up here, it seems that all of the decisions were being made 
by the lawyers. And that is a problem from here, as we see it. 
I voted against the creation of the Department of Homeland 
Security a number of years ago. I thought that it was going to 
create a horrible bureaucracy. I think it has, and I think that 
we are suffering a lot of effects because of our haste, because 
of our unwillingness to try to look and see what impact our 
decisions are going to have on the American people. Perhaps we 
have made too many decisions, Chairman Miller, on the political 
strengths of our parties, rather than the real needs of the 
people who are this country and our government. And I think 
that to some extent I am ashamed with the way we have reacted 
and the fact that people have had to come and tell us some of 
the stories that we have heard is embarrassing. To know that we 
have not followed typical protocol that you teach in basic 
science classes about how you go about trying to make good, 
reasonable decisions with only taking into consideration real 
science is hard for me to go back to my ninth grade physical 
science class that I taught in many years ago and show them 
that this government was acting in the best interests of its 
citizens when we took some of the steps that we did.
    It is a little disheartening, ladies and gentlemen, to have 
to sit up here and say these things or even think them or to 
have heard from some of the brave people that did take the time 
to come up, and I hope that we never, ever have to go through 
something like this again.
    Mr. Chairman, I yield back my time. And again, I thank you 
for the effort that you have made and this committee has made 
in keeping this issue to the forefront.
    Chairman Miller. I think this hearing is now concluded, 
although certainly not this matter. I think there will be a 
good deal more inquiry, both by perhaps other oversight 
committees, including perhaps this one, and certainly very 
possibly, very certainly in litigation as well, private 
litigation as well.
    Thank you for appearing. Under the rules of our committee, 
the record will be held open for two weeks for Members to 
submit additional statements and any additional questions they 
might have of the witnesses. This hearing is now adjourned.
    [Whereupon, at 12:56 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<Graphics Not Available in Tiff Format>


</pre></body></html>
